<html>
<title> - REVIEWING THE STATE OF ORGANIC AGRICULTURE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
   REVIEWING THE STATE OF ORGANIC AGRICULTURE--PRODUCER PERSPECTIVES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2019

                               __________

                           Serial No. 116-22
                           
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
 


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                         
                         
                         
                             ______ 

               U.S. GOVERNMENT PUBLISHING OFFICE 
 38-549 PDF            WASHINGTON : 2019
                         


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

               STACEY E. PLASKETT, Virgin Islands, Chair

ANTONIO DELGADO, New York            NEAL P. DUNN, Florida Ranking 
TJ COX, California                   Minority Member
JOSH HARDER, California              GLENN THOMPSON, Pennsylvania
ANTHONY BRINDISI, New York           VICKY HARTZLER, Missouri
JEFFERSON VAN DREW, New Jersey       DOUG LaMALFA, California
KIM SCHRIER, Washington              RODNEY DAVIS, Illinois
CHELLIE PINGREE, Maine               TED S. YOHO, Florida
SALUD O. CARBAJAL, California        MIKE BOST, Illinois
JIMMY PANETTA, California            JAMES COMER, Kentucky
SEAN PATRICK MALONEY, New York       JAMES R. BAIRD, Indiana
AL LAWSON, Jr., Florida

             Brandon Honeycutt, Subcommittee Staff Director

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     5
Dunn, Hon. Neal P., a Representative in Congress from Florida, 
  opening statement..............................................     3
    Submitted articles...........................................    49
Plaskett, Hon. Stacey E., a Delegate in Congress from Virgin 
  Islands, opening statement.....................................     1
    Prepared statement...........................................     2

                               Witnesses

Pierson, Steve, Owner, Sar-Ben Farms Inc.; Board Director, CROPP 
  (Cooperative Regions of Organic Producer Pools) Cooperative/
  Organic Valley, St. Paul, OR...................................     6
    Prepared statement...........................................     7
Huckaby, Jeff, President, Grimmway Enterprises, Inc./Cal-Organic 
  Farms, Bakersfield, CA.........................................    10
    Prepared statement...........................................    12
    Supplementary material.......................................    73
Whalen, Benjamin, Co-Founder and Owner, Bumbleroot Organic Farm, 
  Windham, ME....................................................    14
    Prepared statement...........................................    15
Brin, Shelli D., Market Manager/Agritourism Manager, Ridge to 
  Reef Farm; Farm Development Manager, Hideway Farm; Board 
  Member, Virgin Islands Good Food Coalition; Member, VI Farmers 
  Alliance, Frederiksted, St. Croix, VI..........................    20
    Prepared statement...........................................    21
Brown, Jeremy, Co-Founder, Broadview Agriculture, Inc.; Member, 
  Executive Committee, Plains Cotton Growers, Inc.; Member, Board 
  of Directors, Texas Organic Marketing Cooperative, Lamesa, TX..    24
    Prepared statement...........................................    26


   REVIEWING THE STATE OF ORGANIC AGRICULTURE--PRODUCER PERSPECTIVES

                              ----------                              


                      WEDNESDAY, OCTOBER 30, 2019

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to other business, at 10:29 
a.m., in Room 1300 of the Longworth House Office Building, Hon. 
Stacey E. Plaskett [Chair of the Subcommittee] presiding.
    Members present: Representatives Plaskett, Delgado, Cox, 
Harder, Brindisi, Van Drew, Schrier, Pingree, Carbajal, 
Panetta, Lawson, Peterson (ex officio), Dunn, Hartzler, Davis, 
Yoho, Baird, and Conaway (ex officio).
    Staff present: Kellie Adesina, Malikha Daniels, Brandon 
Honeycutt, Keith Jones, Patricia Straughn, Jeremy Witte, Dana 
Sandman, and Jennifer Yezak.

  OPENING STATEMENT OF HON. STACEY E. PLASKETT, A DELEGATE IN 
                  CONGRESS FROM VIRGIN ISLANDS

    The Chair. This hearing on the Subcommittee on 
Biotechnology, Horticulture, and Research entitled, Reviewing 
the State of Organic Agriculture--Producer Perspectives, will 
come to order.
    I want to say good morning and thank you for joining us as 
we evaluate the state of organic agriculture from the 
producers' perspective.
    In the past 20 years, the USDA Organic Seal has grown to 
become a label that customers actively seek in the grocery 
aisle. Changing consumer preferences has led to immense growth 
and development in the organic sector. What was once a small 
niche market has transformed into a $52 billion industry.
    Just as we have seen a tremendous growth and development in 
organic market, domestic organic producers have evolved as 
well. Organic farmers and ranchers represent a range of scales 
and types of agricultural production, as well as a diverse 
range of rural and urban geographic regions. The producers here 
today are no exception to this diversity. We have producers 
from Oregon, Maine, California, Texas, and my own home district 
of the Virgin Islands. They represent a cross-section of the 
industry, covering dairy, commodities, and specialty crops. I 
would like to thank you all for being here to share your 
insights into the industry, and for taking time away from your 
farms.
    Just like other sectors that experience tremendous growth 
and change, the organic industry's expansion has its challenges 
as well. Earlier this year, we held a hearing with Under 
Secretary Greg Ibach and Dr. Jennifer Tucker to discuss the 
effectiveness of USDA's National Organic Program. This hearing 
highlighted efforts to protect the domestic organic supply 
chain and to support organic farmers and ranchers through USDA 
programs. During our conversation with Under Secretary Ibach, 
this Subcommittee stressed the importance of maintaining the 
integrity of the organic industry and for USDA to be attentive 
to the needs of the industry. Our producers depend on strong 
consumer confidence and clear standards to ensure the longevity 
of their business and continued expansion of the organic 
sector.
    The National Organic Program is a voluntary public-private 
partnership between the USDA and producers. As the Subcommittee 
with jurisdiction over NOP, we have a responsibility to ensure 
that USDA is fulfilling its commitment to organic producers as 
a key stakeholder in that partnership. This includes being 
responsive to the needs of this sector, and ensuring producers 
have access to resources and technical assistance they need to 
run a successful operation.
    The 2018 Farm Bill included several provisions to encourage 
growth and innovation in the organic sector, including 
increased research funding for the Organic Agriculture Research 
and Extension Act, and the continued support for the Organic 
Certification Cost-Share Program, and the Organic Production 
and Market Data Initiatives. The farm bill also expanded USDA's 
authority to crack down on bad actors attempting to undermine 
consumer confidence through fraudulent organic imports. These 
are all steps in the right direction for the sector, but our 
work is not done.
    In a struggling farm economy plagued by uncertain trade 
conditions, increasing input costs, turbulent weather patterns, 
and low commodity prices, our farmers and ranchers are looking 
to thriving markets with high premiums, like organic industry, 
to diversify their operations and increase profits. It is 
imperative that Congress and USDA continue to work together to 
support farmers, ranchers, and consumers who seek out the 
organic seal.
    [The prepared statement of Ms. Plaskett follows:]

 Prepared Statement of Hon. Stacey E. Plaskett, a Delegate in Congress 
                          from Virgin Islands
    Good morning, and thank you for joining us as we evaluate the state 
of organic agriculture from a producer's perspective.
    In the past 20 years, the USDA Organic Seal has grown to become a 
label that customers actively seek out in the grocery aisle. Changing 
consumer preferences have led to immense growth and development in the 
organic sector. What was once a small, niche market has since 
transformed into a $52 billion industry.
    Just as we have seen tremendous growth and development in the 
organic market, domestic organic producers have evolved as well. 
Organic farmers and ranchers represent a vast array of scales and types 
of agricultural production, as well as a diverse range of rural and 
urban geographic regions.
    The producers here today are no exception to this diversity. We 
have producers from Oregon, Maine, California, Texas and my home 
district of the Virgin Islands. They represent a cross-section of the 
industry covering dairy, commodities, and specialty crops. I would like 
to thank you all for being here to share your insights into the 
industry and for taking time to be away from your farms.
    Just like other sectors that experience tremendous growth and 
change, the organic industry's expansion has not come without 
challenges. Earlier this year, we held a hearing with Under Secretary 
Greg Ibach and Dr. Jennifer Tucker to discuss the effectiveness of 
USDA's National Organic Program (NOP). This hearing highlighted efforts 
to protect the domestic organic supply chain and to support organic 
farmers and ranchers through USDA programs.
    During our conversation with Under Secretary Ibach, this 
Subcommittee stressed the importance of maintaining the integrity of 
the organic industry and for USDA to be attentive to the needs of the 
industry. Our producers depend on strong consumer confidence and clear 
standards to ensure the longevity of their business and continued 
expansion of the organic sector.
    The National Organic Program is a voluntary, public-private 
partnership between USDA and producers. As the Subcommittee with 
jurisdiction over the NOP, we have a responsibility to ensure that USDA 
is fulfilling its commitment to organic producers as a key stakeholder 
in that partnership. This includes being responsive to the needs of the 
sector and ensuring producers have access to the resources and 
technical assistance they need to run a successful operation.
    The 2018 Farm Bill included several provisions to encourage growth 
and innovation in the organic sector, including increased research 
funding for the Organic Agriculture Research and Extension Act and 
continued support for the Organic Certification Cost-Share Program and 
the Organic Production and Market Data Initiatives. The farm bill also 
expanded USDA's authority to crack down on bad actors attempting to 
undermine consumer confidence through fraudulent organic imports. These 
are all steps in the right direction for the sector, but our work is 
not done.
    In a struggling farm economy plagued by uncertain trade conditions, 
increasing input costs, turbulent weather patterns, and low commodity 
prices, our farmers and ranchers are looking to thriving markets with 
high premiums--like the organics industry--to diversify their 
operations and increase profits. It is imperative that Congress and 
USDA continue to work together to support farmers, ranchers, and 
consumers who seek out the organic seal.
    We have heard from USDA leadership on this topic, but it is time 
for producers to have a say. I look forward to hearing today's 
testimony and to learning how we can best support the organic sector.
    Now, I'd like to recognize the distinguished Ranking Member, Mr. 
Dunn of Florida, for any opening remarks he would like to make.

    The Chair. Now, I would like to recognize the distinguished 
Ranking Member, Mr. Dunn of Florida, for any opening remarks he 
would like to make.

  OPENING STATEMENT OF HON. NEAL P. DUNN, A REPRESENTATIVE IN 
                     CONGRESS FROM FLORIDA

    Mr. Dunn. Thank you very much, Madam Chair, and good 
morning to you, and good morning to our panelists.
    We meet today against a backdrop of tough times in 
agriculture. Whether it is sustained flooding, early winter 
storms, or market uncertainty, agricultural producers face 
unbelievable risks, and for organic farmers, ranchers, and 
dairymen, that risk is no different.
    This is one of the reasons I am proud that we were able to 
complete the Farm Bill of 2018. I am proud that it was a 
historic piece of legislation for the organic sector. We 
enacted language to address fraudulent imports, including a 
robust import certification program, providing the National 
Organic Program with access to cross-border documentation 
systems that are administered by other Federal agencies, and 
providing the program with additional oversight certifying 
agents operating in foreign countries.
    The farm bill also provided a significant increase in 
funding to the Organic Agriculture Research and Extension 
Initiative. Finally, I am glad that we were able to secure 
report language urging USDA and the National Organic Standards 
Board to adhere to the best science and technical assistance 
available when making recommendations.
    In July, this Subcommittee received an update from USDA 
Under Secretary Greg Ibach on the National Organic Program and 
USDA's status implementing the 2018 Farm Bill. The organic 
industry can trust that they do have allies in both Under 
Secretary Ibach's and Deputy Administrator Jenny Tucker's 
offices. They are doing a great job.
    At that hearing, I described several challenges that I 
believe threaten the legitimacy of the organic program, and 
frankly, the industry as a whole. One that I will highlight are 
some segments of the organic industry who think it is wise to 
disparage non-organic production practices. The National 
Organic Program has proven to be a great marketing tool for the 
ag community, but it is not the only tool. There are several 
ways that American farmers successfully differentiate their 
products to meet consumer demand. Furthermore, many of the 
organic producers also farm using conventional practices. We 
recognize organic production is an important tool that farmers 
use to earn a premium for their product, and I know that they, 
like all farmers, are proud of the product.
    Finally, I want to thank each of our witnesses for taking 
your time to be here today. Please know that the time you spent 
preparing for, traveling to today's hearing, and being away 
from your families and businesses is not lost on us. We greatly 
appreciate your commitment to the industry, and providing this 
Committee with timely information to help us do our jobs, we 
are very grateful to you for that. I look forward to hearing 
from you.
    Thank you very much, Madam Chair, I yield back.
    The Chair. I recognize that Chairman Peterson is here. 
Thank you for attending this hearing as well.
    I now recognize Ranking Member Conaway for any opening 
statements he may have.
    Mr. Conaway. No statement. Thank you.
    The Chair. Okay, thank you.
    The Chair would request that other Members submit their 
opening statement for the record so the witnesses may begin 
their testimony and to ensure that there is ample time for 
questions.
    I would like to welcome all of our witnesses, and thank you 
for being here today. At this time, I would like to introduce 
our first witness, Mr. Steve Pierson of CROPP Cooperative/
Organic Valley, and he is from St. Paul, Oregon. Mr. Pierson is 
the owner of Sar-Ben Farms, Inc., and is a board director for 
CROPP Cooperative/Organic Valley. He and his family work 
together to manage a 900 acre dairy farm, which has been in the 
organic production since 2005. Mr. Pierson was reelected to 
CROPP Cooperative Board of Directors in April 2018 for a 3 year 
term.
    Our second witness is Mr. Jeff Huckaby, President of 
Grimmway Farms of Bakersfield, California. I know that Mr. Cox, 
who is a Member of this Committee, is very happy to have you 
here. Mr. Huckaby is a fourth-generation farmer who was born 
and raised in California's San Joaquin Valley, where he grew up 
helping on his grandfather's farm. He joined Grimmway Farms in 
1998, and was most recently promoted to President of the 
company in 2016.
    Our third witness is Mr. Ben Whalen of Bumbleroot Organic 
Farm in Windham, Maine. I recognize the gentlewoman from Maine, 
Ms. Pingree, to introduce Mr. Whalen.
    Ms. Pingree. Thank you very much, Madam Chair, and thank 
you so much for hosting this hearing this morning. Thank you to 
all of the witnesses. As was said earlier, we know you come 
from a long ways away and you are taking a day away from your 
family and your businesses and your farms, and that is busy, so 
thank you for doing that.
    I am really excited to have Ben Whalen from Bumbleroot Farm 
in Windham, Maine, here. We are always excited to have a Mainer 
in the room, but we are particularly happy to have Ben. He is a 
good representation of the wonderful resurgence of young 
farmers who are in Maine, coming to Maine, and are there to 
practice farming sustainably.
    Bumbleroot Farm is a small organic vegetable and flower 
farm. They sell directly to consumers at farmers' markets 
through a CSA, as well as local restaurants and caterers. Ben 
and his business partners are not just successful farmers, they 
are active participants in important conversations happening at 
the local, state, and Federal levels around climate change, 
around the challenges for young farmers, and about organic 
agriculture.
    Ben, we really appreciate you taking time away from the 
farm, and wish you and all of your business partners the best 
of luck. Thank you.
    The Chair. Thank you.
    The fourth witness is Ms. Shelli Brin of Ridge to Reef Farm 
in Frederiksted, St. Croix. She is also working on a project 
now in St. Thomas. Ms. Brin is a farmer with Ridge to Reef 
Farm, the only certified organic farm in the U.S. Virgin 
Islands. Ms. Brin is a multigenerational Virgin Islander who 
has managed various operations on her farm for 10 years, 
including production of over 100 varieties of organic fruits 
and vegetables.
    I would also welcome Mr. Jeremy Brown of Broadview 
Agriculture in Lubbock, Texas. He will be introduced by the 
full Committee Ranking Member, Mr. Conaway.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Thank you, Madam Chair, and Mr. Huckaby, I 
believe I visited your farm last year. You hosted us, and thank 
you very much. Carrots are great.
    Jeremy Brown, it is a pleasure to introduce him. He is a 
cotton producer from the great State of Texas, just to irritate 
Mr. Baird. Mr. Brown farms both organic and conventional 
cotton, wheat, rye, corn, and grain sorghum. Mr. Brown has a 
bachelor's degree in agriculture communications from Texas Tech 
University, and currently farms in Dawson County, which is 
located in the district I get to represent. Not only is Mr. 
Brown a great representative for agriculture in west Texas, but 
he also serves as one of the faces of farming and ranching for 
the U.S. Farmers and Ranchers Alliance. Mr. Brown, it is a 
great honor to have you with us today, and I am looking forward 
to your testimony. Jeremy, thank you for being here, buddy.
    I yield back.
    The Chair. Thank you.
    We will now proceed to hearing from our witnesses. Each of 
you will have 5 minutes to present your testimony. That is more 
time than Members get on the floor, so use it wisely. When the 
light turns yellow, that indicates that there is 1 minute left 
to complete your testimony.
    Mr. Pierson, please begin when you are ready.

 STATEMENT OF STEVE PIERSON, OWNER, SAR-BEN FARMS INC.; BOARD 
DIRECTOR, CROPP (COOPERATIVE REGIONS OF ORGANIC PRODUCER POOLS) 
                      COOPERATIVE/ORGANIC 
                      VALLEY, ST. PAUL, OR

    Mr. Pierson. Well good morning, Chair Stacey Plaskett and 
other Members of the Subcommittee. As Ms. Plaskett mentioned 
earlier, my family and I operate a 900 acre dairy farm near St. 
Paul, Oregon. We milk 300 cows and care for about 800 total 
animals on the farm.
    We became certified organic in 2005 and ship milk with 
Organic Valley. The farm provides a livelihood for our four 
farm families and three generations.
    I did not come from an agricultural background. In fact, I 
never even stepped on a dairy farm until I started working on 
the farm at the University of Florida where I received a 
degree. But as a young adult, I saw dairy farming as a 
profession that would allow me a great place to raise a family 
and work with my hands and heart. Becoming an organic dairy 
farmer has amazingly brought those aspirations to reality for 
me and the next generation.
    I also have the privilege of serving on the Board of 
Directors of Organic Valley, the largest organic co-op in the 
world. Organic Valley was established in 1988 and has grown to 
include nearly 2,000 farmers in 34 states. The majority of the 
co-op's business is dairy, and we offer an array of products 
available to tens of thousands of retail locations across the 
United States and internationally. In addition to dairy, we 
have a couple of hundred producers that focus on organic eggs, 
produce, meat, and feedstuffs. Our cooperative has about 900 
employees and estimated $104 million in fixed assets and about 
$1.1 billion in annual sales.
    Profitability has been hard to obtain on either the farm or 
the cooperative business side. Margins are thin, and while our 
pay price remains around $29 a hundredweight, we are practicing 
a quota system to manage the amount of milk the co-op receives.
    The challenges in organic dairy, I believe, can be 
attributed to the following: changes in consumer preferences to 
favor more full fat dairy products have made utilization of 
farm milk more difficult; increased milk production and 
competition has created an imbalance in supply and demand; 
trade disputes are causing a lost market opportunity; and there 
is regulatory uncertainty in the organic standards. A specific 
challenge that must be resolved is inconsistent interpretation 
of the organic standard for what is called the origin of 
livestock. This centers around the requirements of farms 
transitioning dairy cattle to organic. Most farms that come in 
to organic dairy abide by the one time 12 month transition 
allowance for a dairy herd. Thereafter, they source only 
organic-born and organic-raised replacements, and this is the 
interpretation most certifiers recognize.
    Yet, some certifiers and their dairy clients practice a 
continuous transition approach, which exploits the 12 month 
allowance, using it multiple times, or instead, they source 
replacement stock from operations who specialize in 
transitioning conventional animals.
    When comparing these two approaches, our analysis at 
Organic Valley reveals at least a $600 cost advantage per 
replacement animal. A farm my size ends up with a competitive 
disadvantage of nearly $45,000 per year because of this 
differential. The USDA needs to fix this problem and as of 
October 1, they reopened the comment period for the 2015 origin 
of livestock proposed rule. This proposed rule clarifies dairy 
transition as a one time event on a dairy farm associated with 
a producer. My strong message to the Committee Members today is 
to continue demanding that the USDA finalize the origin of 
livestock language in a manner that aligns closely with the 
proposed rule.
    Another couple of hot button issues in organic dairy is 
ensuring grazing is done and organic feedstuffs from 
international sources is authentic. I support the Dairy 
Compliance Project and the strengthening enforcement rulemaking 
that is approved and going ahead in the USDA.
    What are some of the challenges facing us in the organic 
dairy marketplace right now, and what am I encouraged about?
    I know that organic dairy farmers are committed to the 
land, their cows, and the cooperative. We already know that 
organic dairy can provide a positive impact on the environment 
and climate, and we have been doing regenerative soil health 
and grazing practices for decades, and these practices are 
fundamental to our ag system.
    We in organic have seen scientific third-party studies in 
organic milk affirming thorough testing that organic milk is a 
clean and healthy option for consumers and void of pesticides 
and antibiotic residue, and as far as dairy innovation, we are 
seeing how new products, like Organic Valley Ultra, the first 
organic ultra-filtered milk with twice the protein and half the 
sugar, hitting the marketplace.
    We at Organic Valley have evolved our thinking to recognize 
that consumers are making a statement about who they are by 
what is in their grocery carts and homes, and defining 
themselves by electing to choose organic and Organic Valley 
products. It is a matter resonating with consumers and having 
products available for them to purchase.
    Thank you for this opportunity to share my experiences and 
thoughts, and I welcome any follow-up questions. Thank you.
    [The prepared statement of Mr. Pierson follows:]

 Prepared Statement of Steve Pierson, Owner, Sar-Ben Farms Inc.; Board 
    Director, CROPP (Cooperative Regions of Organic Producer Pools) 
                Cooperative/Organic Valley, St. Paul, OR
    Good morning, Chair Stacy Plaskett, Ranking Member Neal Dunn, as 
well as the other Members of the Subcommittee. Thank you for the 
opportunity to testify about the opportunities and challenges in the 
organic dairy marketplace.
    My family and I operate a 900 acre dairy farm near St. Paul, 
Oregon. We milk 300 cows daily and care for a total of 800 dairy 
animals on the farm.
    We became certified organic in 2005 and ship milk with CROPP 
Cooperative, which is more commonly known by its brand Organic Valley. 
Our farm provides a livelihood for my wife Susan and I, as well as my 
three adult children and my in-laws.
    That is an important point to emphasize: This dairy farm supports 
four families as their sole income, as well as five other non-family 
employees.
    I did not come from an agriculture background, but as young adult I 
saw dairy farming, perhaps naively and with some romanticism, as a 
profession that would allow me a great place to raise a family and work 
with my hands and heart. Becoming an organic dairy farmer, and joining 
with other organic dairy farmers in a cooperative, has amazingly 
brought those aspirations to reality.
    Becoming an organic dairy farm has allowed us to make significant 
capital and sustainability investments to the farm. This past year we 
built a new rotary parlor to increase farm efficiencies. In 2014, we 
purchased a hay ranch in central Oregon. And in 2015 we added renewable 
energy infrastructure to the operation. We are in it for the long haul 
and building a farm that will be viable for the next generation if they 
too want to pursue this profession.
Organic Valley
    I also have the privilege of serving as a Board Director for CROPP 
Cooperative, also known as Organic Valley.
    Organic Valley was established in 1988 with seven founding farmers 
and, since then, has grown into America's largest cooperative of 
certified organic farmers, with nearly 2,000 farms in 34 U.S. states, 
as well as in Canada, Australia and the United Kingdom. In 2018, the 
business achieved $1.1 billion in sales.
    The cooperative's founding purpose was to create and operate a 
marketing cooperative that promotes regional farm diversity and 
economic stability through organic agricultural methods and the sale of 
certified organic products.
    The majority of the co-op's business is dairy. We offer an array of 
products available in approximately 15,000 retail locations across the 
United States. Our cooperative also sells organic bulk milk and 
ingredients to customers who use it in their own products, many of 
which are also distributed nationally.
    In addition to dairy, the co-op includes a couple hundred producers 
who focus on organic eggs, produce, meat, and feedstuffs.
    My cooperative has about 900 employees and an estimated $104 
million in fixed assets. The assets include a mix of processing 
facilities, office buildings, and warehouses located on four different 
campuses. The most recent facility purchase, in 2017, I'm proud to say, 
is a creamery in McMinnville, Oregon, just 20 miles from our farm. 
While the cooperative does some dairy processing at this facility in 
McMinnville as well as a creamery in Chaseburg, Wisconsin, it primarily 
relies on as many as 90 co-processors across the country to bring our 
products to market.
    As a Board Director, I am proud that the cooperative has made these 
intentional investments in rural communities in an effort to create 
jobs and economic stability. It's an extension of the co-op's founding 
mission and not something you see every agricultural-based business 
prioritize.
Dairy Market
    These past years have been a difficult time in organic dairy.
    Profitability has been hard to obtain on either the farm or the 
cooperative business side. Margins are thin, and while our national pay 
price remains around $29 a hundredweight, we are practicing a quota 
system to manage the amount of milk the co-op receives.
    The challenges in organic dairy, I believe, can be attributed to 
the following:

  1.  Changes in consumer preferences to favor more full-fat dairy 
            products have made utilization of farm milk more difficult.

  2.  Increased milk production and competition in organic dairy has 
            created an imbalance in supply and demand.

  3.  Trade disputes have caused an inability to sustain and grow 
            international markets.

  4.  And regulatory uncertainty in the organic standards
Origin of Livestock
    A specific challenge that must be resolved is inconsistent 
interpretation of the organic standard for what is called the origin of 
livestock. This centers around certifiers failing to align on the 
requirements for transitioning dairy cattle to organic status.
    Most farms that come to organic dairy abide by a one time 12 month 
transition allowance for a dairy herd. Thereafter, farmers source only 
organic-born and organic-raised replacements. This is the 
interpretation of the regulation which most certifiers agree with.
    Yet, some certifiers and their dairy clients, practice a continuous 
transition approach which exploits the 12 month allowance, using it 
multiple times and with multiple groups of animals, or alternatively 
sources replacement stock from operations that specialize in 
transitioning animals year after year from conventional sources.
    When comparing these two approaches our analysis at Organic Valley 
reveals a $600 cost differential per replacement animal.
    If you assume the national cull rate, which is around 25 percent, a 
farm of my size ends up at a competitive disadvantage of nearly $45,000 
per year because of this differential.
    USDA has not fixed this problem, but as of October 1, 2019, they 
have reopened the comment period for the 2015 Origin of Livestock 
Proposed Rule. The proposed rule fixed this dilemma by clarifying dairy 
transitions to be understood as a one time event on a dairy farm 
associated with a producer.
    I believe the July 17, 2019, hearing in front of this Subcommittee 
titled ``Hearing on Assessing the Effectiveness of the National Organic 
Program,'' where this issue came up in exchanges with Undersecretary 
Greg Ibach, was one of the motivating forces that got USDA to 
prioritize this topic and advance regulatory action on it. Thank you.
    My strong message to the Committee Members today is to continue 
demanding that USDA finalize the origin of livestock language in a 
manner that aligns closely to the proposed rule. My interactions with 
fellow organic dairy farmers and organic dairy associations lead me to 
believe there is a strong consensus to fix this regulatory failing.
Dairy Compliance Project, Strengthening Enforcement, International 
        Trade
    Two additional hot-button issues in organic dairy include ensuring 
grazing is done in accordance with the Pasture Rule, and that organic 
feedstuffs from international sources are authentic.
    I'm encouraged that the National Organic Program is continuing to 
implement the Dairy Compliance Project, which spot-checks organic 
dairies and certifiers with AMS auditors to examine how the organic 
standards are being achieved on the ground.
    While this is a welcome oversight effort, it is our experience at 
Organic Valley that the agency has been fairly guarded about the 
approach and findings of the Dairy Compliance Project. All of us want 
organic dairy to be at the top of its game, and we believe sharing 
information and soliciting feedback from organic dairy stakeholders can 
enhance the agency's work in this area.
    I am also pleased that Federal rulemaking on Strengthening 
Enforcement is to be coming yet this year. This rulemaking focuses on 
addressing the risk of fraudulent organic grain imports and was 
initiated in the last farm bill.
    Organic Valley strongly endorsed Congressional action on these 
issues, and we are supportive of both private-led and agency-initiated 
efforts to ensure organic integrity through organic supply chains.
    Additionally, Organic Valley's grower pool, which raises animal 
feedstuffs, has been alarmed by the fact that fraudulent imports can 
have a harmful effect on domestic organic crop prices. Our members 
worry that domestic growers are put at a competitive disadvantage on 
the world stage if entities in other countries are engaging in criminal 
activity to misrepresent or sell non-organic grains as USDA Certified 
Organic.
    The Strengthening Enforcement rulemaking cannot come soon enough, 
and I urge the Subcommittee to stay in contact with the National 
Organic Program to safeguard the rulemaking advances in concert with 
the urgency reflected in the 2018 Farm Bill.
    In the international trade arena, organic dairy--along with all of 
the nation's dairy--faces, a seesaw of trade disputes that have created 
disruptions in planning and sales efforts in foreign markets like 
China, the European Union, the United Kingdom, and beyond.
    Organic Valley's experiences have been that organic dairy products 
are particularly sensitive to additional tariffs, given they are 
already considered a high-premium product in many foreign markets. A 
marginal increase in consumer prices for both branded and private label 
organic products, to offset the imposition of tariffs, has made these 
organic offerings untenable in most cases.
    For Organic Valley, it's not just the loss of millions of dollars 
in sales opportunities this year, but also the inability to recoup 
market research that has spanned 7 years.
    There needs to be a speedy resolution to trade disputes, and I urge 
Congress to be more present in bringing an end to these uncertainties 
and lost market opportunities.
Opportunities
    So, that is some of what is challenging us in the organic dairy 
marketplace right now. But what am I'm encouraged about?
    I know our organic dairy farmers are committed to the land, their 
cows, and their cooperative. I am encouraged that organic dairy is 
special in what we offer, and that comes from the way we raise and 
treat our animals. And I am encouraged that dairy innovation has the 
potential to help utilize milk and offer choices for consumers.
    We in organic already know organic dairy can have a positive impact 
on the environment and climate. Organic dairy farmers have been doing 
regenerative soil health and grazing practices for decades--these 
practices are fundamental to our agriculture systems.
    We in organic have seen scientific studies on organic milk, like 
the one done by Emory University in 2019, affirming through testing 
that organic milk is a clean and healthy option for consumers void of 
toxic pesticide and antibiotic residues.
    And in dairy innovation, we are seeing new products like Organic 
Valley Ultra, the first organic ultra-filtered milk, made using a 
unique filtration process to create an organic milk with twice as much 
protein and half the sugar.
    In closing, we at Organic Valley have evolved our thinking to 
recognize that consumers are making a statement about who they are by 
what's in their grocery carts and homes, defining themselves by 
electing to choose organic and Organic Valley products. It is a matter 
of resonating with the values consumers have and finding the places and 
delivery that gets them what they want. Organic is a choice for a 
farmer, a choice for a business, and a choice for a consumer. I've been 
blessed to be able to be an organic farmer and work with an organic 
marketing cooperative to bring from the farm to consumers a product 
that has high integrity and promise.
    Thank you for this opportunity to share my experiences and 
thoughts. I welcome any follow-up questions that can inform the 
Subcommittee as you deliberate on future food and agriculture policy.

    The Chair. Thank you.
    Mr. Huckaby, please proceed with your testimony.

  STATEMENT OF JEFF HUCKABY, PRESIDENT, GRIMMWAY ENTERPRISES, 
            INC./CAL-ORGANIC FARMS, BAKERSFIELD, CA

    Mr. Huckaby. Thank you, Chair Plaskett, Ranking Member 
Dunn, and distinguished Members of the Subcommittee for the 
opportunity to testify today.
    My name is Jeff Huckaby, and I am the President of Grimmway 
Farms, Cal-Organic, based in Bakersfield, California. I am a 
fourth-generation farmer, born and raised in the San Joaquin 
Valley. I started helping my grandfather at age 11 riding the 
back of a carrot planter. Forty-two years later, I oversee the 
largest carrot company in the world and the largest organic 
vegetable company in the nation. Our company's organic roots 
tie back to 1984 when Cal-Organic started with \1/4\ acre of 
lettuce. Today, we grow over 65 different items on 45,000 acres 
of prime organically certified ground throughout California, 
Arizona, Oregon, Washington, Colorado, Georgia, and Florida. We 
are proud that 100 percent of our produce is grown in the 
United States.
    Brothers Rod and Bob Grimm started with a roadside stand in 
Anaheim, California, and formed Grimmway Farms in 1969. Moving 
the operations to Bakersfield in 1981, Grimmway went on to 
market packaged baby carrots as the fresh produce industry was 
rapidly changing. Grimmway celebrates its 50th anniversary this 
year, and now grows over 40,000 acres of carrots.
    In 2001, Grimmway acquired Cal-Organic Farms. Their vision 
was to make certified organic vegetables easily accessible to 
customers. We are now the sole supplier to Costco for baby 
carrots, transitioning 100 percent of their carrots sold in 
their stores to certified organic. We are proud to be the 
leading supplier of organic vegetables to most major retailers 
throughout the nation.
    Today, we continue to demonstrate that high quality organic 
produce can be grown at a large scale, while still utilizing 
best practices in sustainable agriculture, improving soil 
health, and protecting the land for future generations. In 
order to become certified organic, the law requires the use of 
production practices that advance sustainability in agriculture 
like crop rotation, cover cropping, and maintaining and 
improving soil health, conserving biodiversity, and reducing 
nutrient pollution. A farmer must grow and sustain high yields 
without the use of most synthetic chemicals and fertilizers.
    For us, carrots are our biggest crop. We discovered early 
on that crop rotation was essential when converting to organic 
land. Carrots are grown in the same soil once every 3 years, 
and crops grown during the off years are critical. Proper 
rotation, composting, and cover cropping significantly improved 
our soil health. As the soil improved, so did our crop quality 
and tonnage, and today, our organic yields routinely outperform 
our conventional crops.
    We recently expanded our operation to Georgia and Florida. 
We started our first organic harvest in this region this week, 
consisting of over ten organic items which will help support 
the Southeast marketplace. This type of growth is necessary to 
meet growing consumer demand. In the fresh produce category, 
quality is everything, and consumers are desiring both variety 
and year-round availability.
    The USDA organic label is the most highly regulated and 
transparent food system in the world. Even with the stringent 
requirements in place to be certified organic, we strive to 
continuously improve operations to achieve the best possible 
outcomes.
    Organic is a voluntary regulatory program for those who 
choose to meet Federal standards and market their products 
under the USDA Organic Seal. This label is widely trusted by 
consumers, with over 82 percent of households across the U.S. 
now purchasing organic products.
    Organic farmers are unique in that they rely on the Federal 
Government to develop and maintain strong regulations for the 
organic sector. In order to maintain a healthy marketplace, 
organic farmers, businesses, and consumers require a strong 
Federal organic program at USDA. The Federal Government must 
move rapidly to implement standards that farmers and the 
industry recommend through the National Organic Standards 
Board. The future of organic will depend on the Federal 
Government keeping pace with the marketplace. Organic 
regulations must be meaningful and strong. We need the support 
of Congress to ensure that USDA not only has the resources to 
maintain, enforce, and develop organic standards, but also to 
provide oversight and accountability when the regulatory 
process fails to move the standards forward.
    In order to continue to provide choices for consumers and 
economic opportunities for farmers, the public-private 
partnership between USDA and the organic industry must continue 
to grow. Organics is a bright spot in U.S. agriculture, with a 
tremendous opportunity to change the future of our food system. 
As consumers become increasingly interested in sustainable food 
production, nutrition, and quality, organic farming can provide 
a path forward to improve the state of agriculture in the U.S.
    Thank you.
    [The prepared statement of Mr. Huckaby follows:]

 Prepared Statement of Jeff Huckaby, President, Grimmway Enterprises, 
                Inc./Cal-Organic Farms, Bakersfield, CA
    Thank you, Chair Plaskett, Ranking Member Dunn, and distinguished 
Members of the Subcommittee for the opportunity to testify today. My 
name is Jeff Huckaby and I am President of Grimmway Farms/Cal-Organic 
based in Bakersfield, California. I am a fourth-generation farmer born 
and raised in the southern end of the fertile San Joaquin Valley, also 
known as the Central Valley. I started helping my grandfather at the 
age of eleven, riding the back of a carrot planter. Forty-two years 
later, I oversee the largest carrot company in the world and the 
largest organic vegetable company in the nation. Our company has 
organic roots tied back to 1984 when Cal-Organic started production 
with \1/4\ acre of lettuce. Today, we grow over 65 items on over 45,000 
acres of prime certified organic ground throughout California, Arizona, 
Oregon, Washington, Colorado, Georgia, and Florida. We are proud that 
100% of our produce is grown in the United States.
    Long before the formation of Cal-Organic, brothers Rod and Bob 
Grimm started with a simple roadside vegetable stand in Anaheim, 
California, and formed Grimmway Farms in 1969. Having moved the 
operation to Bakersfield in 1981, Grimmway went on to market packaged 
baby carrots as the fresh produce industry was rapidly changing. 
Grimmway, which just celebrated its 50th anniversary, now grows over 65 
vegetables including over 40,000 acres of carrots.
    In 2001, Grimmway set out to change the produce landscape once 
again by acquiring Cal-Organic Farms, a pioneer organic vegetable 
company. Their vision was to make certified organic vegetables 
accessible to as many consumers as possible. We are the sole supplier 
to Costco for baby carrots, and have worked with this leading retailer 
to transition 100% of the carrots sold in their stores to certified 
organic. We are also the leading supplier of organic vegetables to most 
of the major retailers throughout the nation.
    Earlier this year, we expanded our operation to Georgia and Florida 
with the acquisition of Generation Farms in Lake Park, Georgia. 
Incidentally, this week we started our first organic harvest in this 
region consisting of over ten organic vegetables which that will help 
support the local Southeast marketplace. While the climate in the 
Southeast is significantly different than California, we are finding 
ways to produce high-quality organic vegetables.
    Today, Grimmway Farms and Cal-Organic continue to demonstrate that 
high-quality, nutritious organic produce can be grown at a large scale 
to meet consumer demand while still utilizing best practices in 
sustainable agriculture, improving soil health, and protecting the land 
for future generations.
The Benefits of USDA Certified Organic
    To become certified organic, the law requires the use of production 
practices that advance sustainability in agriculture such as crop 
rotation, cover cropping, maintaining and improving soil health, 
conserving biodiversity, and reducing nutrient pollution. A farmer must 
be able to grow and sustain high yields without the use of most 
synthetic chemicals and fertilizers. Organic farming is truly a 
holistic approach.
    At Cal-Organic, we strive to continuously improve our practices to 
ensure that we have the healthiest soil possible. We have invested in 
water banking projects to conserve and bank water during years of 
surplus to help offset years of drought. We also produce renewable 
energy through solar panels to help power our facilities.
    At Grimmway and Cal-Organic, carrots are our biggest crop. We 
discovered early on that crop rotation was extremely important when it 
comes to converting organic land. Carrots are grown in the same soil 
once every 3 years, and the crops grown during the off years (years 2 
and 3) are crucial. Proper rotation, composting, and cover cropping 
significantly improved our soil health.
    As our soil health improved, so did our crop quality and tonnage. 
Today, our organic yields routinely outperform our conventional crops. 
Lessons learned through production at Cal-Organic have shown us ways we 
can improve our conventional operations at Grimmway Farms.
State of the Organic Produce Sector: Challenges and Opportunities
    Organic has grown rapidly over the past 2 decades, from an $8 
billion-a-year industry when USDA issued the national organic standards 
in 2002 to over $52 billion today. Overall growth in the organic 
marketplace is rapidly increasing as consumers seek more nutritious, 
quality food. When consumers purchase organic for the first time, their 
journey typically begins in the produce aisle. Organic produce has been 
and remains the leading category in organic food with over $17 billion 
in annual sales, nearly 40% of the total $50+ billion market for 
organic. Fifteen percent of all fresh produce sold in the United States 
is certified organic. California alone grows over 85% of certified 
organic specialty crops.
    While organic produce previously enjoyed rapid double-digit growth, 
it leveled off to a healthy growth rate of 5.6% in 2018. That is still 
much higher than the growth rate of the overall produce market at 1.7% 
last year. Despite this impressive growth, there are still unique 
challenges in the organic fresh produce market. When dealing with a 
highly perishable product, challenges like food safety, labor, and 
distribution become even more critical.
    In the fresh produce category, quality is everything. Consumers are 
looking for high-quality produce and desire variety and year-round 
availability. As more Americans incorporate fresh produce into their 
diets, an opportunity exists for farmers who are willing to think 
outside the box. I never thought I would be working on a farm that 
sells over 65 different vegetables to retailers. At Cal-Organic, we 
must market the entire diversity of our crop rotation, not just the few 
crops that are best sellers such as carrots.
Continuous Improvement Is the Cornerstone of Organic Farming
    The USDA Organic label is the most highly regulated and transparent 
food system in the world. Even with the stringent requirements that 
must be met to be certified organic, Cal-Organic and many other farmers 
strive to continuously improve their operations to achieve the best 
possible outcomes that sustainable agricultural practices can deliver.
    Organic is a voluntary regulatory program for producers and 
handlers who choose to meet a strict Federal standard and market their 
products under the USDA Organic Seal. This label is widely trusted by 
consumers, with over 82% of households across the United States now 
purchasing organic products.
    Organic farmers and businesses are unique in that they rely on the 
Federal Government to develop and maintain strong regulations for the 
organic sector. The public-private partnership between the organic 
industry and USDA is a process that must embody continuous improvement 
and evolution of the organic standards to meet consumer expectations.
    To maintain a healthy marketplace, organic farmers, businesses, and 
consumers require a strong Federal organic program at USDA that can 
keep pace with innovations taking place in the sector. The Federal 
Government must move rapidly to implement standards that farmers and 
the industry recommend through the National Organic Standards Board 
(NOSB). NOSB is the Federal advisory committee established in the 
Organic Foods Production Act that makes recommendations to USDA on 
organic standards development.
    The future of organic will depend on the Federal Government keeping 
pace with the marketplace. Organic regulations must be meaningful and 
strong. This requires USDA and Congress to treat organic standards 
differently than they would mandatory regulations. We need the support 
of Congress to ensure USDA not only has the resources to maintain, 
enforce, and develop organic standards, but also to provide oversight 
and accountability when the regulatory process fails to move forward 
the standards demanded by the organic sector.
    To continue to provide choices for consumers and economic 
opportunities for farmers, the public-private partnership between USDA 
and the organic industry must continue to grow.
Conclusion
    Organic is a bright spot in U.S. agriculture with tremendous 
opportunity to change the future of our food system. As consumers 
become increasingly interested in sustainable food production, 
nutrition and quality, organic farming can provide a path forward to 
improve the state of agriculture in the U.S.

    The Chair. Thank you.
    Mr. Whalen, when you are ready, please begin.

STATEMENT OF BENJAMIN WHALEN, CO-FOUNDER AND OWNER, BUMBLEROOT 
                   ORGANIC FARM, WINDHAM, ME

    Mr. Whalen. Good morning, Chair Plaskett, Ranking Member 
Dunn, and Members of the Subcommittee. Thank you for giving me 
the opportunity to testify and share a young farmer's 
perspective on the state of organic agriculture.
    I believe it is incredibly important for farmers to be 
included in the conversation surrounding organic standards, and 
I appreciate this opportunity to share my experience as a small 
organic grower.
    My name is Ben Whalen. I am 32 years old and have owned and 
operated Bumbleroot Organic Farm for 5 years with my wife, 
Melissa, and our business partners, Jeff and Abby Fisher. 
Bumbleroot is a small organic vegetable and flower farm located 
in Windham, Maine, just 20 minutes west of Portland, on the 
edge of suburban development and rural farmland.
    Agriculture has always been a huge part of Maine's 
identity, and small organic farms like mine contribute to the 
strength of Maine's food economy. According to the 2017 
Agricultural Census, there are 7,600 farms in Maine, and nearly 
\2/3\ of them are less than 100 acres: 535 Maine farms are 
certified organic.
    Our property is 90 acres of rolling hills, and we grow a 
diversity of certified organic vegetables, flowers, and herbs 
on just 7 of those acres. We provide weekly farm shares to 125 
families through our CSA program, attend three weekly farmers' 
markets, and work closely with 20 restaurants and caterers in 
the Portland area. We employee three full-time staff in 
addition to the owners, and hire three part-time workers in the 
summer months.
    The growth of our business has been greatly supported by 
the strength of Maine's organic farming community, as well as 
numerous Federal programs. We participated in Maine Organic 
Farmers and Gardeners Association's Beginning Farmer Training 
Programs that are directly funded by BFRDP. Every year we are 
in business, the OCCSP has reimbursed us up to 75 percent of 
fees associated with organic certification. And this week, we 
are waiting for a sunny day to pull plastic on our fifth high 
tunnel. We have received grants for all these high tunnels 
through NRCS's EQIP and AMA Programs. These tunnels have 
allowed us to extend our growing season into Maine's cold 
winter months, and provide income for our families and food for 
our communities year-round.
    As organic farmers, we believe that soil health is the 
foundation of our farm and our business. By building healthy 
soils, we increase biodiversity, grow nutrient-dense crops, 
decrease erosion, and sequester carbon. The term that is being 
used more often by our peers is regenerative agriculture. The 
philosophies and principles of regenerative agriculture ask 
farmers to take a step beyond simply maintaining sustainable 
systems and to implement practices that regenerate the land and 
increase soil health. These practices maximize carbon 
sequestration while minimizing the loss of that carbon once it 
is stored in the soil.
    Many of the practices used in regenerative agriculture are 
already best practices under national organic standards. Use of 
cover crops, crop rotation, and compost all highlight the 
importance of soil fertility. Reducing and eliminating tillage, 
which disrupts the biodiversity in soil, can help maintain soil 
carbon once it is stored. Healthier soils yield healthier food, 
which in turn creates healthier communities.
    Climate change is one of the greatest challenges our farm 
business will face in the coming decades. Organic and 
regenerative agriculture must be part of the solution to 
mitigating and adapting to climate change. Research into how 
farms can effectively sequester carbon in our soils and how to 
protect that carbon once it is stored can help build resilient 
farm businesses and create more sustainable food systems. For 
this reason, continued investment into organic research 
programs like OREI and ORG is vital.
    I represent the next generation of farmers in our country, 
and without continued and increased support from Federal 
programs, the future of our food system is at risk. One of the 
major challenges young and beginning farmers are facing is 
access to affordable farmland. Secure land tenure is 
fundamental to farm viability. Without secure tenure, farmers 
are unable to invest in on-farm infrastructure and conservation 
practices critical to building soil quality, financial equity 
in their businesses. We were incredibly lucky to find our 
forever farm through work with Maine Farmland Trust, a farmland 
protection agency in Maine, but we have seen many of our peers 
close their farm businesses because they were unable to find 
affordable farmland.
    With the ever-increasing cost of land, competition from 
development, and many farmers reaching retirement age with no 
succession plan in place, we need to increase funding for 
farmland protection through ACEP-ALE. According to 2017 
Agricultural Census, between 2012 and 2017, over 146,000 acres 
of farmland were lost in Maine alone.
    Greater farmland protection, coupled with transitioning 
farm businesses towards organic and regenerative practices will 
allow our agriculture industry to lead the way, and combating 
climate change while providing the healthiest possible food for 
our communities. The future of food in our country has to 
include more organic farms, and we need the government's 
support. By incentivizing growers to transition to organic and 
regenerative practices, we can build more vibrant, resilient 
food systems in our local communities and our country as a 
whole.
    Once again, I would like to thank the Subcommittee for 
giving me the opportunity to testify today on the state of 
organic agriculture. I am happy to answer any questions you may 
have.
    [The prepared statement of Mr. Whalen follows:]

Prepared Statement of Benjamin Whalen, Co-Founder and Owner, Bumbleroot 
                       Organic Farm, Windham, ME
    Good morning, Chair Plaskett, Ranking Member Dunn, and Members of 
the Subcommittee. Thank you for the opportunity to testify and to share 
a young farmer's perspective on the state of organic agriculture.
    My name is Ben Whalen. I'm thirty-two years old and have owned and 
operated Bumbleroot Organic Farm for 5 years with my wife, Melissa, and 
our business partners, Jeff and Abby Fisher. Bumbleroot is a small 
organic vegetable and flower farm located in Windham, Maine, just 
twenty minutes west of Portland, on the edge of suburban development 
and rural farmland.
    Being an organic farmer in Maine is synonymous with being a small 
family farm. Our property is ninety acres of rolling pasture, fields, 
and forest, and we grow a diversity of certified organic vegetables, 
flowers, and herbs on just 7 of those acres. We provide food for 125 
families through our CSA program, attend three weekly farmers' markets, 
and work closely with twenty restaurants and caterers in the Portland 
area. We employ three full-time staff in addition to the owners and 
hire three part-time workers in the summer months.
    Though our farm is unique in many ways, our scale of operation is 
not. According the 2017 Agricultural Census, of the 7,600 farms in 
Maine, nearly \2/3\ of them are less than 100 acres. 535 Maine farms 
are certified organic. At Bumbleroot, our production practices rely on 
a combination of manual hand labor and small tractors--much of our 
seeding, planting, weeding, and harvesting is done by hand while field 
preparation and cultivation is done by tractor.
    As organic farmers, we believe that soil health is the most 
important consideration for all aspects of our farm. By building 
healthy soils we can increase biodiversity, grow healthier crops, 
decrease erosion, and sequester carbon. A term that is being used more 
often in our area, and across the country, is regenerative agriculture. 
The philosophy and principles of regenerative agriculture ask farmers 
to take a step beyond simply maintaining sustainable systems and to 
implement practices that regenerate the land and build soil health. 
These practices maximize carbon sequestration while minimizing the loss 
of that carbon once it is stored in the soil. Many of the practices 
used in regenerative agriculture are already best practices under the 
National Organic Standards: use of cover crops, crop rotations, and 
compost highlight the importance of soil fertility. Reducing and 
eliminating tillage, which destroys the biodiversity of the soil, can 
help maintain soil carbon once it is stored--this seems to be a trend 
in the regenerative agriculture movement.
    We view climate change as one of the greatest challenges our farm 
business will face over the coming decades. Organic and regenerative 
agriculture must be part of the solution to mitigating and adapting to 
climate change. Research into how farms can more effectively sequester 
carbon in our soils, and how to protect that carbon once it is stored, 
can build more resilient farm businesses and create more sustainable 
food systems. For this reason, continued investment into organic 
research programs like Organic Agriculture Research and Extension 
Initiative (OREI) and Organic Transitions Program (ORG) are so 
important. I thank the Committee for a 2018 Farm Bill which ramps up 
funding for OREI to $50 million in permanent baseline funding by 2023. 
However, the recent relocation of NIFA will lead to significant delays 
in grant funding for these programs, putting at risk important organic 
research. Farmers cannot afford delays in research nor can we afford to 
fall behind the rest of the world. The relocation hurts organic 
research, farmers and U.S. agriculture. I urge this Committee to work 
with your colleagues on agriculture appropriations to help defend the 
House bill's position to prohibit the relocation.
    Another major challenge young and beginning farmers are facing is 
access to affordable farmland. Secure land tenure is fundamental to 
farm viability. Without secure land tenure, farmers are unable to 
invest in on-farm infrastructure and conservation practices critical to 
building soil quality, financial equity, and their businesses. Our farm 
was incredibly lucky to find our forever farm through working with 
Maine Farmland Trust, a farmland protection agency in Maine. But we've 
seen many of our peers close their farm businesses because they were 
unable to find long-term land. With the ever increasing cost of land, 
we need to increase funding for farmland protection. According to the 
2017 Farm Census, between 2012 and 2017 over 146,000 acres of farmland 
were lost in Maine alone. Farmland conservation not only ensures space 
for future generations to grow food for their communities, it also has 
a direct impact on reducing the potential carbon emissions associated 
with development. Greater farmland protection coupled with 
transitioning farm businesses towards regenerative farm practices will 
allow our agriculture industry to lead the way in combating climate 
change while providing the healthiest possible food to our communities.
    The scale of the work needed to be done to combat climate change is 
enormous. No one person, farm, or industry will be able to reverse the 
damage that has already been done over the last century. But by re-
imagining our food systems to reintegrate small scale, organic farms 
that use regenerative practices, we can build vibrant, resilient, 
localized food systems that better serve our communities, strengthen 
our regional economies, and
Soil Health
    Soil is the soul of a vegetable farm. When I first got into 
farming, I had no idea I would need to become an expert on soil 
science. But as the years have gone on, I've realized that my capacity 
to understand what's happening below my feet directly impacts the 
success of my farm business. Healthier soils mean healthier food which 
creates healthier communities. By focusing on soil health we can adapt 
our farm practices to reduce our carbon emissions and sequester carbon 
in the soil. At Bumbleroot Organic Farm, we have begun experimenting 
with no-till farming techniques that will reduce our fossil fuel use 
and increase biodiversity in the soil. With healthier soils we expect 
to see higher yields with less off-farm inputs (fertilizers, fuels, 
organic pesticides, etc.). In the long run, incorporating these 
techniques will make our farm business more resilient to the effects of 
climate change and more profitable through better crop yield.
    Over the past few years we have worked with UMaine Extension on 
multiple Sustainable Agriculture Research and Education Grant (SARE) 
projects that specifically look at these techniques. In 2018, we hosted 
a cover crop trial that looked at the results of different combinations 
of cover crops on soil health and weed suppression. For the past 2 
years we have participated in research to determine the impact of 
tarping over-wintered cover crops and the effects this practice has on 
weed suppression and crop yield.
    The strength of our local food systems depends on the adaptability 
and resilience of farmers in the face of changing weather patterns and 
more extreme growing conditions--agriculture has to be part of the 
solution. Programs such as SARE, soil health initiatives, and 
incentives for organic and regenerative practices will help farmers 
build more sustainable farm businesses, build stronger more resilient 
soil, and grow healthier food for their communities. We thank this 
Committee for its support of SARE over the years. But currently, SARE 
is appropriated at $37 million. It is critical that farmers are given 
the right tools and know-how to meet the challenges of a changing 
climate and agricultural landscape. SARE is equipped to help them do so 
and increasing investment into this program is of key importance. As 
Fiscal Year 2020 discussions continue, I urge this Committee to work 
with your colleagues on agriculture appropriations to defend the House 
bill and its $45 million funding level for SARE.
Climate Change
    We see climate change as the primary challenge our business will 
face in the decades to come. We are finishing up our fifth growing 
season and we're already feeling the impacts of extreme weather 
patterns. Last July we had a hail storm sweep through our farm, and it 
wiped out our entire onion crop and damaged many of our field crops. 
Just last week we had another storm with record winds in the Portland 
area--we were without power for days, relying on generators to keep our 
coolers running and fall crop storage secure.
    We have directly benefited from Natural Resource Conservation 
Service (NRCS) programs such as Environmental Quality Incentives 
Program (EQIP) and Agriculture Management Assistance (AMA) that have 
allowed us to build five high tunnels, or greenhouses, which protect 
our high value crops and extend our growing season. These greenhouse 
structures have allowed our farm to grow vegetables year-round, even 
through the snowy Maine winters, which provides consistent income for 
our families as well as healthy, fresh food for our community 12 months 
out of the year. In the summer, the plastic provides shelter for our 
more vulnerable crops like tomatoes, peppers, and eggplant from 
potentially damaging weather, as well as protection from pest pressure. 
By integrating these high tunnels into our farming operation we have 
built a more resilient, more profitable business. As young farmers with 
limited financial resources, having access to funding for these high 
tunnels has allowed our business to grow more rapidly than we would 
have otherwise. I want to thank Members of the Committee for its work 
in supporting these vital programs in the 2018 Farm Bill which 
increases the payment cap for the EQIP Organic Initiative. But this 
increase in the payment cap is still far below the payment cap for 
General EQIP and I urge that the separate payment cap within EQIP be 
promoted in conjunction with a state-based allocation for organic and 
transitioning participants.
    Another area that we see as critical to building a more resilient 
farm in the face of climate change is incorporating renewable energy on 
farms. Last winter we explored adding solar panels to our barn that 
would cover the electricity needs of the farm business as well as two 
homes on the property. After scrutinizing the costs and our business 
financials, we decided the project was cost prohibitive for our young 
business. Greater funding for renewable energy on farms through Rural 
Energy for America Program (REAP) would have a huge impact on 
transitioning farms from fossil fuel based systems towards electric 
ones. From heating greenhouses to running tractors, the potential for 
renewable energy on farms in vast. Encouraging and incentivizing farms 
to transition to renewable energy is a direct way we can cut carbon 
emissions on farms.
    As I mentioned earlier, the importance of soil health on our 
ability to mitigate and adapt to climate change cannot be over-
emphasized. By utilizing regenerative farming practices to build soil, 
we can sequester carbon from the atmosphere and significantly reduce 
the erosion and the harsh impacts of flooding and drought. By 
increasing funding for research into new techniques and technologies, 
farms of all sizes can adopt practices that allow the agricultural 
industry to combat climate change rather than contribute to it.
Young Farmers
    As farmers finishing our fifth year in business, we've experienced 
some of the challenges that are far too common for all young farmers 
across the country. After struggling for our first few years to secure 
reliable land tenure, we were able to purchase our farm from Maine 
Farmland Trust through their ``buy, protect, sell'' program. MFT 
purchased the property from the Week's family that had farmed the land 
for generations at market value, placed an agricultural easement and 
OPAV (Option to Purchase at Agricultural Value) on the property, and 
then sold it to us for less than \1/2\ the initial cost. The importance 
of agricultural easements to make farmland more affordable to young and 
beginning farmers can not be overstated. We are grateful for programs 
like ACEP (Agricultural Conservation Easement Program) that enable land 
trusts across the country, like MFT, to offer agricultural easements 
and make farmland more affordable for young farmers. Greater funding 
for ACEP would allow land trusts to offer more easements without having 
to continually apply for more funding. As pressure grows from 
development, suitable and affordable land near major markets has become 
inaccessible to farmers just starting out. This past year we've had 
farmer friends of ours close their business because they were unable to 
figure out their land tenure. Further funding for land protection is 
essential to ensure that the next generation of farmers have affordable 
land to establish their businesses and be our food producers for years 
to come.
    As young, organic farmers in Maine, our business has benefitted 
from so many Federal programs. Program funding through the BFRDP 
(Beginning Farmer and Rancher Development Program) such as MOFGA's 
(Maine Organic Farm and Garden Association) Farm Beginnings Course has 
allowed our farm business grow with intention and given my partners and 
I the business knowledge to effectively run our small farm business. 
Other programs such as Organic Certification Cost-Share (OCCSP) helps 
alleviate the financial cost of organic certification, allowing us to 
invest that money back into our business. Increasing funding for these 
programs will insure that young farmers and organic growers have the 
resources they need to be lasting businesses and food producers in 
their communities. In total, $40.4 million is provided under the 2018 
Farm Bill for OCCSP over the next 5 years, which unfortunately is a cut 
below OCCSP's previous funding level of $11.5 million per year. As more 
farmers transition to organic and the demand for cost-share assistance 
increases, it's possible that funding may fall short in the later years 
of the 2018 Farm Bill. It will be important, therefore, to closely 
monitor demand and total funds that remain available as implementation 
moves forward.
    I want to thank the Committee for providing mandatory funding for 
the Value-Added Producer Grants (or VAPG) and the Farmers Market and 
Local Food Promotion programs, which were combined in the Local 
Agriculture Market Program (LAMP) in the 2018 Farm Bill. While VAPG is 
used by all farmers, organic farmers have successfully utilized this 
program to increase their market opportunities. VAPG has historically 
received both mandatory and discretionary funds due to the high demand 
for this program, and so I would encourage you to work with your 
colleagues on agriculture appropriations to ensure the House bill's $15 
million funding level is included. I would also encourage this 
Committee to support the House Bill's additional $5 million for the 
Farmers['] Market and Local Food Promotion Programs, which would fund 
these programs at their historic levels. These programs have helped 
small and mid-sized organic farmers expand their operations to reach 
new local and regional food markets.
    It is my view that the future of organic farming and organic food 
in our country involves more small family growers. We need to support 
these farms today. By supporting small scale organic growers we are 
directly investing in greater resiliency for our local food systems. By 
helping farms transition to organic and encouraging the adoption of 
regenerative practices, we can help organic farming be part of the 
solution to mitigating and adapting to the effects of climate change.
    Once again, I would like to thank the Subcommittee for giving me 
the opportunity to testify today on the state of organic agriculture. I 
am happy to answer questions you may have.
                               Attachment
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Takeaways

  (1)  Organic Certification Cost-Share Program (OCCSP):

        As a small business and young farm, every cost counts. Adhering 
            to the National Organic Standards set forth by the National 
            Organic Program has always been a priority for us, although 
            it can be costly. Every year we've been in business, the 
            OCCSP has reimbursed us for up to 75% of the application 
            fees and inspection fees we incur in order to be certified 
            organic.

  (2)  Beginning Farmer and Rancher Development Program (BFRDP):

        Beginning farmer training programs have been crucial in 
            building a solid foundation for our business. We started 
            our farm with no business background and these programs 
            have instilled fundamental business planning principles 
            that are essential to our long-term and annual planning, as 
            well as our day-to-day decision making.

  (3)  Environmental Quality Incentives Program (EQIP):

        As vegetable producers in Maine, the NRCS high tunnel program 
            has allowed us to extend our growing season into the long, 
            cold winter months. We are now able to grow greens year-
            round in our high tunnels, harvesting spinach and lettuce 
            in January and February when there is still snow on the 
            ground. This allows us to provide fresh, organic produce to 
            our community year-round, and provides our business with 
            the income it needs to support us through the winter 
            months.

  (4)  Sustainable Agriculture Research and Education Grants (SARE):

        The future of food depends on the adaptability and resiliency 
            of farmers in the face of changing weather patterns and 
            more extreme growing conditions. SARE offers farmers the 
            opportunity to participate in and benefit from research 
            that leads to innovation, more sustainable practices, and 
            higher productivity. Our farm is a trial site for our local 
            Cooperative Extension's SARE study which is focused on 
            expanding no-till practices through cover cropping and the 
            use of tarps.

    The Chair. Thank you for your testimony and the 
information.
    I now turn to Ms. Brin. Please begin when you are ready.

    STATEMENT OF SHELLI D. BRIN, MARKET MANAGER/AGRITOURISM 
               MANAGER, RIDGE TO REEF FARM; FARM 
           DEVELOPMENT MANAGER, HIDEWAY FARM; BOARD 
          MEMBER, VIRGIN ISLANDS GOOD FOOD COALITION; 
    MEMBER, VI FARMERS ALLIANCE, FREDERIKSTED, ST. CROIX, VI

    Ms. Brin. Thank you. Thank you, Chair Plaskett, Ranking 
Member Dunn, Members of this Biotechnology, Horticulture, and 
Research Subcommittee. I am here today to share my experiences, 
Shelli Brin, and that of Dr. Nate Olive's of Ridge to Reef 
Farm, our farmer perspectives on the organic industry, and the 
U.S. VI.
    It is truly an honor to be here now before you in our 
nation's capital, adding our voices to the many who see a 
brighter future for our country through regenerative farms of 
organic agriculture.
    In order to ensure a future of a healthy, local food 
system, now more than ever, we need your support. Ridge to Reef 
Farm is located in Frederiksted, St. Croix. We are the only 
USDA certified organic farm in the U.S. VI. Over the past 
decade, Dr. Olive and I have maintained a diverse planting 
system of over 100 varieties of organic fruits and vegetables 
across 150 acres. We raise animals and have created several 
forms of farmers' markets and farm events over the years. Our 
mission is to help reverse the food trend of food import 
dependency, which is greater than 98 percent in the VI. Which, 
despite our efforts, remain the same. We have experienced an 
increase in emerging threats that hamper our organic operation 
in many forms, and blocks to others interested in entering the 
organic market. Here are just a few insights into our farm's 
challenges. Please see my written testimony, as it goes into 
detail.
    In the VI, we are very susceptible to the mislabeling of 
produce as organic, domestically produced, and imported. While 
on the mainland, U.S. organic producers can benefit from the 
organic label, we have experienced no price-added value 
benefits different from other non-organic producers. The Farm 
Bill of 2018 has given the National Organic Program, NOP, 
additional authority to protect the integrity of the organic 
label, and so, we need NOP to include our territory in its 
research and its reach.
    With no enforcement of the USDA Organic Marketing Rules and 
without public and farms knowing set standards of organic 
practices, they have no way of knowing if they are consuming or 
growing organic. We do believe farmers of different methods all 
need to work together to enhance our food security, such as in 
our Farm to School hub. Yet, the integrity of the certified 
organic production that we are a part of needs protection for 
it to be worth maintaining and increasing on a wider scale.
    Due to our geographic location, we are challenged in our 
ability to get certified and remain so. Our expenses are 
disproportionately higher compared to others, plus we have very 
high expenses getting access to OMRI materials, which greatly 
limit organic production for us and for others.
    In just 10 years of working our soils, Dr. Olive and I have 
farmed through floods, droughts, suffered serious livestock 
losses, and are dealing with the territorial aftermath of two 
category 5 hurricanes. And now, we are experiencing intense 
heat waves and an increase in pests and disease. And yet, we 
have had many successes that are worth noting.
    I ask that you make sure that the USDA includes us and 
other insular territories in organic research programs and 
studies. From our perspective as organic producers, here are 
just three of our six recommendations we submitted.
    One is to encourage more consumer and producer education 
about the NOP Program and organics in general in rural areas, 
especially including our islands. Number two, increase the 
cost-share amount proportionately to the higher costs required 
in insular areas; and three, relax restrictions on organic 
materials and supplies that need to be shipped in that are 
treated differently than if they were being sent to the 
continental U.S.
    As the market demand for local and organic increases, we 
have a generation of young American farmers, such as Nate and 
myself and others, who value the NOP standards and are good 
stewards of our lands and of our waters. We want to do right by 
the land that we farm and the communities that we serve. We 
have entered farming in challenging times in an already high-
risk market. I believe with more inclusive organic research, 
current barriers being removed from organic production and 
transitions, we can further take our rural communities from 
living life on the edge of food deserts to food-secure.
    I would like to thank the Subcommittee for giving me the 
opportunity to testify today before you on our needs as organic 
growers like us, and others in small outlying American 
communities who are on the front-lines of environmental and 
market changes. Thank you to all the hardworking people in the 
Agriculture Committee and Subcommittees and USDA and the 
agencies, and to all those who choose to farm today.
    Thank you.
    [The prepared statement of Ms. Brin follows:]

   Prepared Statement of Shelli D. Brin, Market Manager/Agritourism 
 Manager, Ridge to Reef Farm; Farm Development Manager, Hideway Farm; 
 Board Member, Virgin Islands Good Food Coalition; Member, VI Farmers 
                 Alliance, Frederiksted, St. Croix, VI
    Thank you Chairwoman Delegate Plaskett, and Ranking Member, for the 
opportunity to testify before the House Committee on Agriculture 
Subcommittee on Biotechnology, Horticulture, and Research.
    I am here today to share my experiences and that of Dr. Nate 
Olive's of Ridge to Reef Farm, Farmer Perspectives of the Organic 
Industry in the U.S. Virgin Islands, to bring awareness to the need for 
further support for organic agriculture in the USVI.
    It is truly an honor to now be before you here in the nation's 
capitol adding our voices to the many who see a brighter future for our 
country through regenerative forms of organic agriculture. More than 
ever we need understanding and support in order to ensure a future 
Virgin Islands organic farming community and a healthy local food 
system.
    My name is Shelli Brin, a multi generational Virgin Islander. I am 
a member of the newly forming VI Farmers Alliance, on the board of the 
Virgin Islands Good Food Coalition, and am a farmer and an advocate for 
organic food, local food security, and the Farm to School program. For 
the past 10 years I have worked alongside Dr. Olive, farm owner of 
Ridge to Reef Farm in St Croix, and since February I am currently 
working on an agroforestry project in St Thomas, at Hideaway Farm.
    Compared to many demographic areas in the U.S., the USVI has an 
incredible strong community of farmers and residents traditionally 
participating in farming on many levels. This is a farming community 
worth investing in and worth USDA's programs. Today I'll share with you 
just our story.
    Ridge to Reef Farm, located in Frederiksted on the island of St. 
Croix, is the only USDA certified organic farm and is among the most 
productive farms in the United States Virgin Islands. Over the past 
decade, farm owner Nate Olive and I have maintained a diverse planting 
regime of over 100 varieties of organic fruits and vegetables across 
150 acres primarily for local consumption in the territory. We also 
husband pasture-raised sheep and hogs that are not certified organic 
due to the lack of available cost-effective organic certified feed and 
supplies. Our mission is to help reverse the trend of food import 
dependency, which is greater than 98% imports, for our insular 
territory while demonstrating ecologically regenerative and culturally 
appropriate agricultural practices in the region.
    Primary markets for our products include market stands, 
supermarkets, a Community Supported Agriculture membership program, and 
the territory's Farm to School program for which we serve as a multi-
farm aggregation hub. In addition, agritourism activities such as 
tours, farm to table dinners, and the hosting of volunteer groups for 
farm stays are a significant value-added part of our mission-based 
educational outreach and financial sustainability.
    First, as a small farm in a small market in a large sea, we are 
thankful to have Federal support in the form of programs and grants 
that help us implement conservation practices and create new economic 
development opportunities through value-added products. In the past 2 
years, we have received a $7,500 reimbursement as a match for an off-
grid solar irrigation system batteries though the USDA Rural Energy 
program, approximately $18,000 (50% of actual cost) for a high-tunnel 
for tomato, pepper, and cucumber production from the Environmental 
Quality and Incentives Program, and approximately $22,600 in a 50% 
match to conduct a feasibility plan for fruit market expansion with a 
Value-Added Producer Grant (VAPG). We eagerly await the release of the 
2019 VAPG grant in order to implement our plan for long-term 
agroforestry food production. These programs are crucial to improving 
our farm's impact in our community, however we mostly survive from our 
own hard work and supportive customer base and do so with farming as 
our sole occupation.
    We also are participating in storm recovery programs through the 
Farm Service Agency, which are still ongoing from the impacts of 
hurricanes Irma and Maria. However, our small local office is extremely 
understaffed and is aligned under the Puerto Rico office, which leads 
to constant and significant delays for information or decisions 
regarding these programs. Additionally, most of these programs are 
reimbursement based, leaving us and most other farmers unable to fully 
participate since our businesses and income were slammed to halt from 
the natural disasters. Also, the USDA is not forthcoming in helping us 
understand what costs can be covered and what rates. They seem more 
concerned with preventing program abuse than farm recovery, leaving us 
in the dark about program details and therefore exposing us to risk of 
acquiring debt that we may not have reimbursed, as we have already seen 
documented with local farms since the storms.
    Second, being the lone organic farm in an isolated territory has 
limited benefits and significant challenges. A local market survey we 
conducted revealed that more than half of our customers don't require 
certified organic as long as they know it's ``grown organically''. 
However, without a standard set of organic practices to be followed, 
they have no way of knowing as most farms are not fully aware of the 
National Organic Program standards and practices and many farms buy in 
crops from other farms with no transparency. In the USVI there is zero 
enforcement of USDA organic marketing rules, which drastically 
diminishes the organic label. Customers are often deceived by the use 
of the word organic in farm names and crop descriptions. Consequently, 
the value of being certified is greatly diminished. We embrace other 
forms of food production and believe farmers of different methods all 
need to work together to enhance food security, such as in our farm to 
school hub. Yet the integrity of certified organic production needs to 
be protected for it to be worth implementing on a wide scale for sake 
of human and environmental health.
    Third, costs of establishing and maintaining organic certification 
is drastically higher on island territories and needs greater support 
in cost-share programs than what currently is offered. We simply would 
not be certified today without the Federal cost-share program which 
saves us $750 a year on program related costs, which total 
approximately $2,000 annually. The primary reason is geographic, since 
inspectors must travel by air and receive accommodations, meals, ground 
transportation, and other related costs. For example, we had to change 
certification companies 8 years ago because the former company quoted 
over $4,000 for a single inspection in travel costs. We are fortunate 
now to have an inspector available from nearby Puerto Rico, however, we 
remain vulnerable to any changes that may occur and subsequently 
threaten our ability to afford certification.
    Fourth, a lack of access to OMRI-approved materials such as 
fertilizers, pesticides, seeds, propagation materials, and many other 
things needed so successful organic production is a perennial problem 
that limits our production and drives up costs exponentially. Very few 
companies will directly ship organic supplies here, and some items are 
very hard or impossible to get. Because of shipping restrictions placed 
on the territory treating it like a different country, we routinely go 
through a purchase procedure only to be told at the end of the process 
they do not ship here. Options then are to ship to Florida to then be 
shipped on a boat, which is subject to delays in customs and excise 
taxes, even though we are supposed to be exempt from excise taxes as a 
farm. For example, we often lose half a valuable day proving that our 
empty cardboard produce boxes are for our farm. This is true for all 
farms, not just organic. However, because we are the only organic farm 
few stores carry OMRI approved items, so we have to ship in more. 
Additionally, we can't get items with roots or soil like grafted 
premier tomato plants, since they would die in freight shipping and 
aren't allowed to be shipped directly to us.
    Overall, we maintain our certification because we want our 
customers to be confident that they are receiving the highest quality 
of food available and avoiding genetically modified foods. However, as 
it stands today, we likely do not benefit greater than the costs to be 
certified organic. Also, we want our customers to know for certain that 
their food was grown in a way that helps repair the natural systems of 
the land and sea instead of unnecessarily impairing them. When you live 
on a small island you are faced with limits too often taken for granted 
on the continent. Our waterways, coral reefs, and fisheries are 
intricately intertwined with the way we produce food on land. So, if we 
are serious about turning the tide of import dependency to local food 
production, it is crucial to proceed with organic practices that won't 
ruin our natural food systems. We must avoid creating aquatic dead 
zones that result from over-nutrification of the waters such as seen in 
the tragic example south of the outflow of the Mississippi River. Our 
food security and sovereignty depends on it.
    In just a short 10 years in working our soil and starting our farm, 
we have farmed through floods, droughts, suffered serious livestock 
losses from neighbor's dogs, and dealing with the territorial aftermath 
of two category 5 hurricanes. Organic farming is already difficult in 
the tropical region in that we have no freeze that gives our crops a 
break. Now that our climate changes are getting more intense, we are 
now experiencing serious heat waves, and increase in pests and 
diseases. With ocean acidification and polluted run off after heavy 
rains, we are rapidly losing our food sources from the sea as well. We 
are truly on the front lines of how organic will hold up to a rapidly 
changing environment.
    Finally, from our perspective as organic producers, our 
recommendations for the future of the NOP are:

  (1)  Encourage more consumer and producer education about the NOP and 
            organics in general in rural areas, specifically in 
            isolated island territories.

  (2)  Increase the cost-share amount proportionally to the higher 
            costs required in insular areas.

  (3)  Relax restrictions on organic materials and supplies needed for 
            organic production in territories that are treated 
            differently than continental locations in shipping.

  (4)  Encourage state and territorial agricultural authorities to 
            support better compliance with organic marketing rules to 
            protect organic integrity in the marketplace.

  (5)  Build the capacity and decision-making ability of local USDA 
            offices to better represent organics and other programs 
            available to farmers and get to the point where officers 
            can regularly visit farms and help with paperwork.

  (6)  Reduce the amount of paperwork required for organic 
            certification, particularly for small farms.

    Having farmed these past years with Dr. Olive and now expanding my 
farming to St. Thomas, has been a rewarding experience for us. Farming 
is difficult yet we reach milestones every month for the territory.
    This is a challenging environment to farm. In addition to searching 
for certified organic seeds for the tropical region, my tree selections 
are now based solely on salt tolerance, drought tolerance, and ability 
to handle wind, and genetic preservation. My tree selections and 
prunings are now focused on dwarf varieties. I'm also focusing on 
native fruit trees that can survive better in our environment. I am 
currently looking through what USDA programs will help me adapt my 
farming techniques to more climate resilient strategies. We are working 
hard to figure out ways to build water capacity for the coming dryer 
years.
    In the USVI, we share many of the USDA's mission of increasing food 
production, sustainable natural resource stewardship, ending hunger, 
improving our country's health, and its commitment to helping improve 
the economy and quality of life in all of rural America. I believe the 
USDA is the most poised government agency to affect the greatest 
possible change in the quality of life in our country. We ask that you 
include the USVI and other insular territories in more of your economic 
research studies going forward. It will help our community and the 
nation. Dr Olive often says the islands are a microcosm scale of 
national issues. He's right. If included in more national studies, I 
believe it can hold many of the solutions to other small American rural 
community living life on the edge between food security or food desert.
    In the USVI, we share many of the USDA's mission of increasing food 
production, sustainable natural resource stewardship, ending hunger, 
improving our country's health, and its commitment to helping improve 
the economy and quality of life in all of rural America. I believe the 
USDA is the most poised government agency to affect the greatest 
possible change in the quality of life in our country. We ask that you 
include the USVI and other insular territories in more of your economic 
research studies going forward. It will help our community and the 
nation. Nate often says the islands are a microcosm scale of national 
issues. He's right. If included in more national studies, I believe it 
can hold many of the solutions to other small American rural community 
living life on the edge of food security or food desert.
    I would like to thank the Subcommittee for giving me the 
opportunity to testify before you today on the research needs of 
organic growers like us in small outlying American communities who are 
on the front-lines of environmental and market changes. And thank you 
to all of the hardworking people within the Agriculture Committee, 
subcommittees, USDA and all of its agencies. I am happy to answer any 
questions you may have.

Shelli Brin.

    The Chair. Thank you very much.
    Mr. Brown, please proceed with your testimony.

 STATEMENT OF JEREMY BROWN, CO-FOUNDER, BROADVIEW AGRICULTURE, 
INC.; MEMBER, EXECUTIVE COMMITTEE, PLAINS COTTON GROWERS, INC.; 
                       MEMBER, BOARD OF 
   DIRECTORS, TEXAS ORGANIC MARKETING COOPERATIVE, LAMESA, TX

    Mr. Brown. Yes. Good morning. Thank you, Chair Plaskett, 
Ranking Member Dunn, and Members of the Committee. I want to 
thank you for this opportunity.
    I am a farmer, and I love what I do. I get to go out every 
day and steward God's creation, and I take a lot of pride in 
that. I don't like to distinguish myself between an organic 
farmer versus a conventional farmer, because each one of us 
goes out there and takes on a lot of risk to grow a safe food 
and fiber source for the American people.
    As Chairman Conaway said, I farm in Dawson County. If you 
don't know where Dawson County is, it is a desert. The sand 
likes to blow and it is flat. It is where you can see your dog 
run away for 3 days. But it grows really good cotton out there, 
Mr. Conaway. I am really proud of the fact that out there I am 
a fourth-generation cotton farmer. I grew up farming with my 
dad, my granddad, and my great grandfather.
    But, as Ranking Member Dunn said, the risks that are 
involved in production agriculture--as everyone knows, my 
father had to get out of farming when I was a student at Texas 
Tech University. But I got smart. I married a woman that her 
dad farmed, and he let me get back to the farm. And so, that is 
where I am today. I currently also serve on the Executive 
Committee of Plains Cotton Growers, which is our certified 
producer organization there on the High Plains, and I am also a 
board member of the Texas Organic Cotton Marketing Cooperative.
    I currently farm about 4,000 acres there, and what happened 
was is when my father-in-law let me take on some land, he had 
some land that was in the Conservation Reserve Program, which 
is the CRP. At that time, that land was coming out of contract. 
This was in 2010, and he encouraged me to look into organics as 
an opportunity because you could go right into the program. And 
so in 2010, we took that land and put it into production 
agriculture, and specifically, cotton. We now grow out of my 
4,000 acres that I farm, I now have about 1,000 of it is 
certified organic. We have been adding land as we can 
throughout the years.
    As I mentioned, organic production can certainly provide 
producers with market opportunities, since production is 
limited. On average, organic cotton production in the U.S. only 
makes up about 0.1 percent of the U.S. crop; however, it has 
steadily been increasing in production. Because of the limited 
amount of organic cotton production, coupled with demand and 
niche markets, price and opportunities for organic production 
typically are better than conventional.
    As I said, in 2010 when I grew my first organic cotton 
crop, we were able to sell our lint at that time for $1 to 
$1.30 per pound. As my colleague down the road here that has an 
organic dairy, we also sell the byproduct of cotton, the 
cottonseed, to some of the local organic dairies where we get a 
premium for that seed also.
    For reference purposes to the Committee, cotton, as you 
know, is marketed very uniquely compared to other row crop 
commodities. The differentials, also referred to as the loan 
rate premiums and discounts are calculated based on market 
variations, and based on what the quality of the cotton is. 
Organic is just the same. The USDA classes our cotton, and that 
goes into a pool that we market to our buyers, and as our 
climate, we cannot control our weather patterns. Sometimes our 
quality is better than others. But our buyers come and they 
receive bales from the pool containing cotton of the quality 
and specifications they have requested, and are charged the 
price related to that pool.
    As I said, we started doing this by transitioning land that 
was in the Conservation Reserve Program, but there is only so 
much of that. I began to add more land through transition. As 
you know, it takes 36 months from the time of the last time a 
chemical was applied to that land to get it certified organic. 
However, not all my land is situated for that. When I decide to 
transition a portion of my farmland to organic production, 
there are other things that I have to consider.
    As I said, I farm in west Texas, and we have a tough 
climate. It is a tough place. Sometimes I wonder why we are 
growing cotton, but it grows well out there, and it does really 
well for organic cotton. As you might know, most of the organic 
cotton is grown right there on the Texas High Plains because we 
have very low insect pressure. We have a kill and freeze that 
defoliates the cotton naturally before we can harvest it 
mechanically. And so therefore, it is a great place to grow 
organic cotton, and I am glad that I have it as part of my 
business.
    As I said, thank you for allowing me the opportunity. I 
love farming. I consider it my passion, my desire. I feel like 
we do it safely for the American consumer and beyond, and at 
this time, I would like to answer any questions that you might 
have.
    [The prepared statement of Mr. Brown follows:]

Prepared Statement of Jeremy Brown, Co-Founder, Broadview Agriculture, 
Inc.; Member, Executive Committee, Plains Cotton Growers, Inc.; Member, 
  Board of Directors, Texas Organic Marketing Cooperative, Lamesa, TX
    Chair Plaskett, Ranking Member Dunn, and Members of the Committee, 
thank you for the opportunity to appear before you today.
    For the record, my name is Jeremy Brown and I am an organic and 
conventional cotton farmer in Dawson County, Texas. I also currently 
serve on the Executive Committee of Plains Cotton Growers, Inc. (PCG) 
which is our certified producer organization composed of cotton 
producers from the Texas High Plains and I am a board member of the 
Texas Organic Cotton Marketing Cooperative (TOCMC).
    Thank you for holding today's hearing to review the state of 
organic agriculture from a producer's perspective. Currently, I farm 
close to 4,000 acres of cotton, wheat, rye, corn, grain sorghum and 
cover crops. 1,100 of the 4,000 acres is in organic based production. I 
began farming in 2008. At that time, all of my land was under 
conventional based practice's. In 2010, I began to convert some acreage 
to organic cotton production. Largely this was driven due to more 
favorable market conditions and the timing of an expiring Conservation 
Reserve Program contract.
Pricing Opportunity
    As I mentioned, organic production can certainly provide producers 
with market opportunities since production is limited. On average, 
organic cotton production in the U.S. makes up 0.11% of the U.S. crop 
and has steadily been increasing in production. Because of the limited 
amount of organic cotton production, coupled with demand in niche 
markets, pricing opportunities for organic production typically are 
better than conventional. In 2010 when I had my first organic cotton 
crop, lint pricing opportunity for organically grown cotton compared to 
conventionally grown cotton that year was almost double ranging from 
$1.00 to $1.30 per pound of lint. In addition to lint, organic 
cottonseed typically brings more value to a producer. In 2018, organic 
cottonseed prices ranged from $400 to $525 per ton as compared to $155 
to $225 per ton for conventional cottonseed.

 
 
 
  Organic Upland and American Pima     Organic Upland and American Pima
          Bale Production               Lint Prices in Cents per Pound
 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                      

 
 
 
        Source: USDA, AMS Cotton            Source: USDA, AMS Cotton and
     and Tobacco Program.                Tobacco Program.
 


    For reference purposes to the Committee, cotton is marketed very 
uniquely compared to other row crop commodities. The differentials, 
also referred to as loan rate premiums and discounts, are calculated 
based on market valuations of various cotton quality factors for the 
prior 3 years. Since I sell my cotton through a cooperative, my cotton 
is marketed through a cotton pool made up of cotton from other 
producers. USDA classing specifications are used to classify each bale 
of cotton into different quality pools. Payments to producers are then 
determined by the pool in which the bale is assigned, giving producers 
an incentive to grow the highest quality cotton possible. However, 
quality, like yield, is somewhat subject to weather conditions that are 
beyond the farmers' control, resulting in some year-to-year variations 
in the percentage of the crop in each pool. The quality pools are the 
basis of my cooperatives price structure. Buyers receive bales from the 
pool containing cotton of the quality specifications they have 
requested and are charged the price related to that pool.
Additional Considerations for Organic Production
    Land that I initially transitioned to organic production was 
relatively easy since that land did not have any conventional crop 
protection products applied to it, however, converting conventional 
farmland into an organic state takes dedication and time since the land 
must not have any conventional crop fertilizers or pesticides applied 
to the land for 3 consecutive years.
    When deciding to transition a portion of my farmland to organic 
production there were also other factors outside of pricing 
opportunities that I had to consider. The region where I live in Texas 
is a well-suited environment for organic cotton production. Winter 
temperatures are cold enough to limit insect pressure and provide a 
hard freeze to defoliate the cotton plants naturally prior to 
mechanical harvest. Additionally, we have fully eradicated the pink 
bollworm and boll weevil in our region. Our climatic conditions and 
quick-drying soils also help aide with some weed control.
Challenges That Exist with Organic Cotton Production
    While pricing opportunities as referenced are prevalent in organic 
cotton production, we are not without our challenges. In many years, 
since I farm in an area with limited or no irrigation, my organic 
cotton yields are very rainfall dependent and can vary significantly 
from year to year just as a conventional crop can when grown in the 
same type of environment. However, in ideal conditions, organic cotton 
yields are often times less than conventional yields. For these 
reasons, it is critical that producers continue to have access to 
affordable, effective crop insurance products for organic crops. In 
addition, safety net programs in the farm bill provide important 
support for both conventional and organic production on an equivalent 
basis.
    Additionally, depending on where we gin our cotton, we tend to pay 
higher ginning costs than conventional producers because the gin has to 
perform a cleanout when it transitions from ginning conventional cotton 
to ginning organic cotton in order to meet the organic program 
standards.
    We spend a great amount of effort and time on soil health and 
building our soil profile naturally. In order to do this, I can plant a 
green crop and plow the plant residue into the soil profile before 
planting cotton. Additionally, I spread compost as a natural 
fertilizer. While we do have some crop protection products that can be 
used on an organic crop, often times it is very expensive and, in my 
experience, does not work well. The natural way I choose to build 
nutrients into my soil profile does take longer to build into the soil, 
when compared to conventional production, where nutrients can be 
incorporated into the soil mechanically at various intervals.
    Probably one of the largest challenges I have as an organic 
producer is sourcing enough labor. As I mentioned previously, our 
climatic conditions do provide very minor aid in weed control, however, 
we spend a lot of time mechanically and manually controlling weeds 
which takes more labor to do across 1,100 acres. As such, more 
cultivation is required of an organic crop as compared to conventional 
crop production which can impact the level of sustainability and 
climate-friendly practices.
    In closing, I want to thank you again for the opportunity to be 
here today. Certainly, as you can tell from my testimony that there is 
value in organic production to a producer and our ultimate end-user--
the consumer, just as there are benefits to growing conventional 
production for consumption. In either farming practice, we as producers 
are great stewards of our land. We focus on soil health and nutrient 
management through innovation and technology and by adopting good 
farming practices. We do these things not only to create value in our 
product, but also to produce the safest most abundant supply of food 
and fiber to feed and clothe our own families, friends, neighbors and 
the world.
    If Members of the Committee have any questions, I will be happy to 
address them.
    Thank you.

    The Chair. Thank you to our witnesses. That was very 
informative and really helpful to the Committee in hearing from 
you all as to what you are going through in the farming area.
    Members will be recognized for questioning in the order of 
seniority for Members who were here at the start of the 
hearing. After that, Members will be recognized in the order of 
arrival.
    I will recognize myself for 5 minutes.
    My first questions are for you, Ms. Brin. Can you explain 
more about challenges you face related to your organic 
certification due to your geographic distance from the 
mainland, if any?
    Ms. Brin. Sure. Well, actually tomorrow our organic 
inspector arrives, so we are currently going through this 
year's process. Because we don't have someone that is in the 
Virgin Islands, we have to cover their expenses, their airfare, 
lodging, transport them to and from the farm, as well as go 
through just the regular certification process. We have changed 
certifiers. In the beginning, we even got quoted one time 
$2,000, or it might have even been $4,000, to bring someone to 
do the process. Luckily, Nate is very good at working out 
logistics and he was able to find us a company who has an 
inspector in Puerto Rico now, so now we are able to get someone 
from there. But yes, just the transportation of bringing them 
over here.
    The USDA Cost-Share Program is $750, which is okay, but we 
definitely would need something--we would need USDA to look at 
improving that program.
    The Chair. If the person were driving, the $750 would be 
helpful, but if the person has to fly and then stay overnight 
before he can get another flight back--how often does the 
certifier or inspector have to come?
    Ms. Brin. Once a year.
    The Chair. Okay. The other thing I wanted to ask you about 
was as the only certified organic farmer in the Virgin Islands, 
do you believe that USDA was responsive to your needs? If not, 
how could they be more responsive?
    Ms. Brin. They could be more responsive in a couple ways. 
We did submit some recommendations that will definitely help 
make it easier for us as well as for others to do the process, 
but the USDA does have some challenges with reaching us. For 
one example, as I mentioned earlier in the testimony, is that 
we just don't have any presence of the USDA recognizing, 
promoting, or even just supporting the existing organic 
production that we do. We have had so many cases of even our 
local staff just not having the information, not having 
accurate information, not having timely information, and so, 
there could definitely be some improvement there. Just having a 
presence, a better presence for organic farming.
    The Chair. Thank you.
    I wanted to turn to you, Mr. Pierson. I know that you have 
been waiting for the proposed origin of organic livestock rule, 
a final ruling on that. How important is that to the organic 
dairy sector?
    Mr. Pierson. Yes, thank you for that question. It is 
critical to the organic dairy sector. It is going to be 
difficult for me to overstate this. I have the opportunity to 
travel around the country for regional meetings for the co-op, 
and I get the opportunity to meet with thousands--I am sorry, 
hundreds of dairy farmers every year. And every one of them, 
100 percent, really question me why in the world can't this be 
done in an expedient manner?
    To me, and all the other farmers that I encounter, under--
this indefensible loophole that is a gross misinterpretation of 
the spirit and the intent of the organic rule is hard for us to 
even accept. I mean, several of my colleagues now have talked 
about how important it is that the organic rule is adhered to, 
both for the confidence of the consumer and the safety of our 
industry.
    The Chair. Not having the final rule creates uncertainty in 
your livestock? How does that affect your----
    Mr. Pierson. Yes, it definitely creates uncertainty in our 
operation and in the industry as a whole. It has allowed very 
few farmers in the United States--dairy farmers in the United 
States to have a very significant cost advantage over the rest 
of us. And that is what is really causing a lot of the problem.
    The Chair. Thank you.
    Ms. Brin, one other question. We have heard from other 
researchers about the need for resilience and the research that 
they are doing to support farmers, and to become more resilient 
in a changing climate.
    What are the specific challenges that you face? I know that 
you talked about drought and hurricanes as well as now intense 
heat. How are you overcoming that?
    Ms. Brin. We are still trying to figure it out, honestly. 
One of the ways that we are trying to grow more resiliently, 
just in our own production, is we have had the help of a hoop 
house greenhouse tunnel that has really helped us with being 
able to grow crops that are more on demand in the market. That 
has helped, but one of the ways that the USDA and this 
Agriculture Committee can help support us in being more 
resilient is the way that we are responded to during these 
disasters. It is really common that after a natural disaster, 
we are given only the option of a loan or a reimbursement 
program. That is very difficult when a farmer is going through 
a crisis. I can't tell you how many times we were offered loans 
after a hurricane. And it is something that I really just want 
to encourage the USDA to revamp on how they are going to 
respond to farmers, because we are already dealing with debts. 
We are already dealing with loss of crops, livestock, assets, 
just money to get gas to go to the store to buy a few supplies. 
And so, that is one area that we really need to revisit on how 
we are responding to farmers.
    The Chair. Thank you.
    I now turn to Mrs. Hartzler, for her 5 minutes.
    Mrs. Hartzler. Thank you, Madam Chair, and thank you all 
for being here, and for your wonderful testimony.
    Mr. Brown, first I want to congratulate you on your service 
as one of the faces of farming and ranching, and I can tell 
just from your testimony already that--and your passion and 
love of agriculture that you are a wonderful person to be a 
face for agriculture.
    I was just wondering, for those who don't know, only one in 
five agriculture producers are selected to represent the 
industry by the U.S. Farmers and Ranchers Alliance, you have 
traveled the country doing various public appearances, national 
media interviews, web chats, social media activities, all to 
educate consumers about farming and ranching. And so, I just 
wondered if you could briefly tell us about your experience and 
what one thing surprised you as you visited with consumers?
    Mr. Brown. Thank you. First off, it was a great experience. 
I consider it a huge honor to represent farmers and ranchers. 
To me, they are the salt of this Earth. We go out there and we 
take on a lot of risk every day, as it was mentioned, with 
really no guarantees. We can't control the weather and we can't 
control the markets. And it is kind of crazy if you think about 
it.
    But, one of the biggest eye openers was how much disconnect 
there is now from the consumer to the farm, and also how much 
misinformation that is out there about production practices.
    Also one of the things I was also proud of was that so many 
times nowadays with social media and the different things, 
avenues that people have access to, a lot of people question 
the information that they are hearing. They don't know if it is 
truth or not. And when I would be in front of people talking to 
them and actually tell them that I am a real farmer, it is like 
people still have a general respect for us that steward the 
land, and I was proud of that. I found that most of the time 
there is a disconnect, but normally you go two generations back 
or three generations, and oh, my great grandfather farmed or my 
great grandfather has this, and there is still a love for the 
land. And so, we found that in common. It was just a great 
experience.
    Mrs. Hartzler. Thank you. I am a lifelong farmer myself, so 
I appreciate you getting out there.
    And as you farm in west Texas, you likely face pest 
pressure from bollworm in cotton and sugarcane aphid in grain 
sorghum, among others. On your conventional acres there is 
biotechnology available that allows you to protect your crop 
while spraying less insecticide. That same technology is not 
allowed in your organic production, so what do you do to 
protect your organic cotton acres from pests?
    Mr. Brown. Yes. Well, where we farm there in west Texas, 
because of our colder climate, our pest pressure can be quite 
low. You mentioned the sugarcane aphid. That is one crop right 
now that I currently will not grow organically, because we 
cannot control that pest. It will devour it within 24 hours, 
which limits us on crop rotations, as was mentioned.
    We try to do things naturally the most that we can. We try 
to have a habitat where we promote beneficial insects, whether 
that is plant pollinator habitats in certain areas. We just do 
the best job we can. We scout our fields during the year, 
weekly, to this date since 2010, I have not had an issue where 
it was going to be devastating to my crop. I mean, you will 
have flare-ups from time to time, but most of the time, we can 
manage those and go on down the road.
    But it is something that we are always looking at and 
making sure that we just do what we can to attract as many 
beneficial insects as possible.
    Mrs. Hartzler. Great, thank you. I have a couple other 
quick questions.
    Mr. Huckaby, you talk about your carrot rotation, and I am 
sure I have eaten a lot of your carrots. I really enjoyed your 
testimony and hearing about all the acres and the crops that 
you grow.
    What do you plant on the other years? You say you plant 
your carrots every 3 years and crop rotation, so I am just 
curious.
    Mr. Huckaby. Yes. Thank you for that.
    Yes, carrots are our biggest crop and you do grow carrots 
once every third year in the same soil. When we started growing 
organics, we did not have necessarily a rotation crop. We were 
working with grains and a few other commodities to try to 
figure out that rotation. And it wasn't until 2001 when we 
bought Cal-Organic Farms who came with 30 different items, 
about six different lettuces, broccoli, cauliflower, several 
brassicas, onions and a few other things did we realize the 
benefit of rotation between--from crop to crop benefitted the 
carrots and all the other subsequent crops.
    Today, we actually have 65 different items that we do 
everywhere, from potatoes and onions to the lettuce crops. We 
do a lot of greens, radishes, beets, and like I said, it is a 
full program now. We know that we can't stand alone with 
carrots, I actually say what we do in the off years from the 
carrots is more important that what we do during the year of 
the carrots. We have learned through organic farming that crop 
rotation, building your soil, having the healthiest soils out 
there is significantly more important than what we felt 
originally, and that is what is produced, the highest quality. 
And like I said, we actually get higher yields on a lot of our 
organic crops than we do conventionally.
    Mrs. Hartzler. That is amazing. Thank you very much. I 
yield back.
    The Chair. Thank you.
    Mr. Van Drew, of New Jersey, you have the next 5 minutes.
    Mr. Van Drew. Thank you, Madam Chair.
    I know none of you probably think of New Jersey as an 
agricultural hub, but here are a number of metrics, the Garden 
State ranks near the top of agricultural production with over 
$1 billion in sales, and about \1/2\ of that alone comes from 
my Congressional district in south Jersey, according to the 
last Census of Agriculture. My district in south Jersey ranks 
as top producer in almost every category with respect to 
agriculture in the state, including organic farming with over 
50 different operations.
    Organics is a growing industry. Just last year, New Jersey 
saw a 47 percent increase in organic farm gate sales.
    With that being said, and with the obvious growing interest 
to know what is the food and products we produce and eat, I 
believe it is necessary to provide the appropriate levels of 
funding and resources to ensure the needs of organic producers 
are being met for the future.
    Mr. Huckaby, I am wondering what opportunities there may be 
for New Jersey producers in the organic market? We have a very 
strong production of vegetables, fruits, greenhouses, and 
nurseries, just to name a few. From your experience, what do 
you see as the best opportunities in the future in the organic 
market, going forward?
    Mr. Huckaby. All right, thank you.
    When you look at our production in California, we are able 
to produce 365 days out of the year, but that is not 
necessarily what all the retailers want. They do want a year-
round program, but a lot of the retailers like to capitalize on 
local markets and they are interested in food miles, trucking 
products from California to the East Coast. And so, what we 
have found and what has worked out really well for us is that 
we back off our production during the summer months when other 
areas of the country can come in to production, so that we are 
not flooding markets. We are making opportunities for other 
people, and we work with the retailers. There are several East 
Coast retailers that we don't start production until November 1 
for them, and then we go through the winter months and into 
April. And then we back off and we just supply the local 
markets and the West Coast, although we still have contracts 
across the nation. But we found with our production in Georgia 
and Florida that there are a lot of opportunities for local 
regional product, and especially on the organic side. We have a 
lot of consumers interested in where their products are coming 
from, and so, I do think there are quite a few opportunities in 
the Northeast, the Southeast, and other regions.
    Mr. Van Drew. And just an aside--I should know the 
geography of California better. All of the natural disasters 
that are occurring right now--this has been a really tough time 
for California. Is any of it affecting the growing markets?
    Mr. Huckaby. Yes, that is a good question. Where we are at 
in the Central Valley, besides just a lot of smoky air, we are 
not having any issues with getting production out. California 
is constantly in a drought situation, it appears, and so, 
availability of water is probably the biggest issue that we 
deal with, having the surplus water to continue to farm in all 
the different areas.
    But, we deal with earthquakes and big fires and droughts 
and extreme temperatures all the time; but, we don't get the 
rains that we are finding out that they do in Georgia and 
Florida, significantly different than where we farm in 
California. But right now, I don't know that it is impacting 
too many of the markets, other than disrupting some of the 
production due to power being shut off and not being able to 
produce and cool and run the products.
    Mr. Van Drew. Okay. Mr. Whalen, in your testimony you 
discussed some of the challenges and programs you have dealt 
with as a young farmer. Could you also explain from your 
experiences what opportunities there are for young farmers 
trying to break into the organic industry?
    Mr. Whalen. Yes, thank you. I think there are tremendous 
opportunities for young farmers in all markets. I think the 
potential for more localized food systems is tremendous, a lot 
of the farms that we have seen, friends of ours that have gone 
out of business, it has really been a land access issue. It 
hasn't been an access to market issue. And securing land tenure 
for young farmers, especially where we are in southern Maine 
where land prices are increasing, where closest to the market 
for us, which is Portland, just the availability is decreasing 
every single year. And with development, the growth and 
populations around urban areas where the markets primarily are, 
this access to land there is decreasing.
    Trying to find ways to protect that land through 
conservation easements, agricultural easements, and transition 
it to making it accessible to young farmers.
    Mr. Van Drew. Do you have a lot of people interested in--I 
live in a tourism area. A great deal of my land mass is devoted 
to tourism, and we have the oceans around us.
    There are a lot of farm-to-table restaurants that are 
really popping up. Do you have that same experience?
    Mr. Whalen. Yes, absolutely. Maine is being recognized 
nationally, Portland specifically, for the food community and 
the restaurant industry, and the tourist industry in Maine is 
large. We get an influx every season of tourists to the state, 
and that has driven a really robust culinary community in 
Portland, and we directly work with 20 restaurants in town. We 
are working with chefs every week. I am personally delivering 
vegetables to them twice a week, and interacting with them on 
what is fresh, what is available, what is coming. And for us, 
we are--right now we are trying to figure out how we can supply 
those restaurants in our community longer into the winter 
months.
    Mr. Van Drew. Thank you. Thank you, Madam Chair.
    The Chair. Thank you. That is very interesting, the 
relationship between the organics and the restaurants and that 
is a real area that we should be looking at and supporting.
    Mr. Baird, you are up for 5 minutes. Thank you so much.
    Mr. Baird. Thank you, Madam Chair.
    My first question goes to Mr. Brown. In your testimony--and 
I appreciate your enthusiasm for agriculture. I share your 
passion for that industry, and so I just thank you for that, as 
well as all the others. You are involved in an industry that I 
think a great deal of.
    But in your testimony, you mentioned that your organic 
acres as well as your conventional acres, you focused on soil 
health, nutrient management, and overall good farming 
practices. Could you give us some examples of the good farming 
practices that you feel that overlap between your organic and 
your conventional farming, because I certainly agree with you 
that soil health, we fail to recognize sometimes that soil, in 
essence, is a living, breathing organism. It takes in oxygen, 
takes in nutrients, provides that to the plant. I would just be 
curious to what you have found that overlaps between organic 
and conventional?
    Mr. Brown. Yes, thank you. Some of the practices are 
different. Everybody farms in different areas, and that is one 
thing I want to make sure we understand is that what works in 
one area sometimes does not work in another. It doesn't mean we 
can't try it and get some common ground there, but in my 
organic production, we have to till the soil. That is our only 
form of weed management. For whatever reason, the weeds come no 
matter what. And where I farm, it is a desert, dry climate. The 
weeds come and our only two forms of weed management in cotton, 
when you are going across 1,000 acres, is tillage or manual 
removal of the weeds. And that is a labor issue that we have to 
deal with.
    From a soil health perspective, in my conventional land I 
don't till the land. We use a lot of cover cropping, a lot of 
rotation, a lot of diversity in trying to build the soil 
health. I am passionate about that. That is one of the things I 
spend most of my time on is how can I improve the soil health, 
both in my organic and my non-organic land. Both of them 
produce challenges when you are in a dry, arid climate.
    Take this year, for instance. This has been a rough year 
for cotton country. It quit raining June the 5th or so in our 
area and didn't rain until September. In the soil health, one 
of their five pillars is having a living root system at all 
times, and that makes it quite a challenge when it is not 
raining. We are working on that.
    I was excited to--there was a pioneer in regenerative 
agriculture named Gabe Brown. He was on my farm on Sunday, and 
Gabe and I spent all day just trying to figure out how we can 
improve what we are doing, because I am passionate about it.
    We are using cover crops. We are using diversity. We are 
using rotation when we can; however, where I farm, at the end 
of the day, cotton is the only thing that really grows good 
where I farm. I wish I could grow other crops, but they just 
don't net us the income that we need to be sustainable from a 
business perspective. But we are continuing to grow and learn 
new things, and we have a lot to learn. Yet, the soil is the 
life of our business, and so, we have to take care of it.
    Mr. Baird. Thank you.
    I have one other question for Mr. Huckaby. It is hard for 
me to perceive 45,000 acres or 40,000 acres of carrots. How 
many machines does it take to harvest 40,000? How many tons to 
the acre do you get?
    Mr. Huckaby. Well, carrots are pretty unique. They are 
mechanically harvested, so I will give you an analysis: 40,000 
acres of carrots is 10 million pounds of carrots run every day, 
6 days a week, 52 weeks out of the year. It is a lot of orange 
going through our facilities. But one harvester can harvest 
about 25 tons every 20 minutes, and that requires two people 
and that is it. The average tonnage is about 37\1/2\ tons per 
acre. It is a very mechanized crop.
    Mr. Baird. Thank you very much. I always try to learn 
something every day, so I appreciate that.
    The Chair. Mr. Baird, I appreciate that, and we were just 
talking that we think we need a field hearing to see that. I 
can't even believe it.
    Ms. Schrier, of Washington State, you have 5 minutes.
    Ms. Schrier. Thank you. First, thank you to all of you for 
coming and talking about how committed you are to your land and 
your work and I just want to say first that I appreciate it.
    Second, I thought that question from Mr. Baird was 
hilarious, and Mr. Huckaby, I thought I would just tell you--
and I am sure this made a huge difference in your profits--that 
my son and his friends had a competition at school one day at 
lunch as to who could eat the most carrots. And my son won with 
38
    Mr. Huckaby. Oh, wow.
    Ms. Schrier. Baby carrots, just to clarify.
    I had a couple questions. Mr. Whalen and Mr. Huckaby, you 
both talked so much about crop rotation, and even the 
interspersed years are more important in many ways than the 
carrot years. And so, I wanted to ask a couple questions about 
that.
    Are there standards out there for crop rotation, whether 
there is adequate crop rotation, any enforcement? Does that 
play in at all?
    Mr. Huckaby. Under organic standards, you are supposed to 
be cover cropping in the off years to try to build your soils. 
There is no specific that you have to follow on a crop 
rotation. We have some crops we grow once every 7 years. 
Carrots happen to be one every 3, and then it is just what we 
have done through trial and error that we find which crops we 
can follow, and which ones don't work well to follow. And each 
one seems to benefit the other as we put this program together, 
and that is what has made us successful is trying to figure out 
this blend that one crop will benefit the next. And it is what 
is more important than even some of the fertility programs that 
we use is how are you building your soil for not this year, but 
next year and the following year is so important to us.
    And I agree, we should have more carrot eating carrot 
contests, see how many carrots we can eat.
    Ms. Schrier. I will tell him.
    And Mr. Whalen, I was thinking that other challenges with 
crop rotation, because we all recognize how important that is 
for soil health, what are the markets like for the crops that 
you are rotating? I mean, potatoes are probably easy, but 
turnips are probably a little tougher. And so, I was wondering 
what your comments are about that, and how maybe the USDA could 
help?
    Mr. Whalen. Yes, there is never enough consumer education 
that can happen around vegetables. Where we are in Maine, our 
seasons are short. We rely, especially this time of year, 
pretty heavily on storage crops like turnips, and there are 
only so many turnips people are willing to eat this time of 
year, and especially in the winter.
    But a huge part of what we try to do, because we are able 
to work directly with our consumers and our customers, is to 
educate them on what they are eating, and the benefits that it 
brings to the farm. The beauty of a diversified farm is that 
when somebody comes to pick up--we have our CSA pick up this 
afternoon on our farm--they are getting a box full of really 
tasty spinach or lettuce greens, you are getting kale, but with 
that, you are getting turnips or potatoes or kohlrabi, things 
that folks usually aren't used to cooking at home. We try to 
educate all of our consumers on ways to do that, including the 
chefs that we work with in town, try to say this is what we 
have, this is what we are growing and we like to grow it. It is 
really easy to grow for us. It is great for the soil. Is there 
a way that you can incorporate this into what you are doing?
    Again, it comes back to consumer education, and I don't 
think there could be enough of that.
    Ms. Schrier. Sure, that is great. Maybe even recipes inside 
that CSA box.
    I had another question about some threats. This was just--I 
happened to be in New Orleans this weekend, and on the menu--
and this was a little strange for me, because I have lived in 
California and Washington and Oregon, so you would never see 
this--was hydroponic lettuce. And I just thought what is the 
story with hydroponic lettuce, and is this the new thing? What 
does this do to our organic farmers, because now a hydroponic 
lab, essentially, is growing without any of the risks that you 
are incurring. And I just--I had never seen this before. Can 
you talk about this and whether it is a threat to you?
    Mr. Whalen. I think the debate about hydroponics right now 
and organics is--people are very vocal on either side about it. 
Where we stand for our farm, we are soil based, and find that 
hydroponics are literally--there is no soil involved. It is all 
in water, and there are a lot of inputs that go into that 
system. Where our approach to agriculture comes from 
regenerative principles where we are trying to build soil 
health because of the vast environmental benefits that come 
with that, and the healthy food that can come out of that, and 
a huge part of that is trying to reduce our inputs on farm as 
much as possible, which is just very different from how 
hydroponics operate.
    Ms. Schrier. Thank you for farming the way you do, and 
doing what you do.
    The Chair. Thank you.
    I wanted to know, Ms. Brin, if you wanted to say anything? 
I know that there are hydroponic farmers on St. Croix, and does 
that affect your organics competition, or how does that work 
for you?
    Ms. Brin. Yes. Actually right now, we work with a 
hydroponic farm to help supply our Farm to School Program. We 
definitely support them and we hope that they do well, but part 
of the trend of hydroponics and aquaponics is responding to 
less access to land. That is part of how the market is--or how 
growers are responding, because we don't have the soil to work 
in anymore. We are now growing in buildings and trying to grow 
wherever we can. It is just life trying to grow again.
    There is a debate that is happening right now, whether 
hydroponic can be considered organic; however, we are really 
just based in the soil. We really need our soils to do well. 
Yes.
    The Chair. Thank you, and I just want to also let everyone 
know, part of her Ridge to Reef's education of consumers about 
new products is they have a once a month almost dinner where 
you can come and eat the products there. I invite you all to 
come to the Virgin Islands to St. Croix and come to a slow-
cooked dinner where you can see the hundreds of different crops 
that they have at Ridge to Reef.
    My good, good friend and buddy, Mr. Ted Yoho of Florida, 
you have 5 minutes. No more.
    Mr. Yoho. No more. Thank you, Madam Chair, and I will go to 
the Virgin Islands with you to watch that stuff.
    The Chair. You are coming anyway, so you don't need that 
invitation.
    Mr. Yoho. That is great. Thank you.
    I appreciate you all being here. Mr. Pierson, I understand 
you are a Gator, too?
    Mr. Pierson. I am. I hope to do well this Saturday 
against----
    Mr. Yoho. We are going to do well. Anybody else out there a 
Gator?
    Mr. Pierson. Well, they should be.
    Mr. Yoho. Oh, man. Not everybody can get into Florida. We 
are proud of our school and we are proud of what it has done.
    I appreciate you all being here because you represent a 
sector of ag that has a remarkable amount of growth. And it 
amazes me when I go to my grocery store, the organic section 
used to be real small. Now they are pushing out other stuff, 
and we want to make sure we maintain the integrity, not just of 
the organics in different areas making sure people aren't 
bringing in counterfeit products, calling it organic. We want 
to maintain that, but agriculture all together. And hydroponics 
is amazing. It is a wave of the future. I remember going to 
Disney World when they first opened in Florida and they had the 
hydroponic farms, and we have talked to several people that 
marry that to other forms of agriculture. And what we have seen 
is with the fish farms, the nutrients out of the fish farms are 
so rich that they can grow hydroponics that are more lucrative 
than the salmon. And so, that is something that we are going to 
see. And as you pointed out very succinctly, it is very little 
land being used. And you are recycling a waste product that 
normally would go into the environment.
    In this whole realm of things, one of the questions--we 
have to protect ag all together because we are in ag, and I 
have been associated with agriculture for 15 years. I am a 
large--or since I was the age of 15, actually, since I was a 
baby because I have been eating food. I am a large animal 
veterinarian, so I have been around that--the realm since I was 
about 15 years of age. And ag is something we have to protect 
in total. Organic, traditional, hydroponics, all these things, 
and the ones coming out in the future.
    One of the things that came up was a--last year an 
advertisement appeared in the Wall Street Journal--I am sure 
you are aware of it--displaying a list of chemicals that would 
not appear in organic foods. One of these so-called chemicals, 
by the way, was ``genetically modified organisms,'' and had 
quotes around it, like it was this blob out of a science 
fiction movie. And that is something we fought here, because we 
spent a lot of money in our ag research universities, Florida, 
to do research on this, on the GMOs, but yet, there is this 
negative connotation out there on the internet. And I know it 
is easy, it is kind of like a political campaign. You can 
always pick up something negative and use it against your 
opponent. But we don't want to do it at the detriment of 
traditional farming. Because we have the Nobel laureates, the 
hundreds--over 100 of them have come out and said there are 
retrospective researches that have found no problems with GMOs.
    We need to work collectively together to keep agriculture 
strong, especially in this environment when the ag population 
in America is about one percent of the population, and is 
shrinking because of the age. And so, I hope we keep that in 
mind so that we don't go against that.
    One of the things I have for the Committee as a whole--or 
the panel as a whole is when I talk to organic producers and 
non-organic or traditional, I hear from the traditional side 
that I have a guy that sells organic strawberries. He has 10 
acres, but he is selling about 50 acres worth of strawberries. 
What safeguards do we have to make sure people are going to 
play by the rules? And I know where there are people and there 
is money to be made, sometimes things get bent as far as 
integrity.
    Anybody want to comment on that?
    Mr. Pierson. Well, I would just like to say that we take 
organic integrity extremely--as a very high priority, if we can 
talk about organic integrity for a minute. That is why we feel 
that the NOP should have a rigorous and effective method to 
police, if you want to use that word to make sure that farmers 
are doing what they say they should be doing.
    Mr. Yoho. I think that is a good word.
    Mr. Pierson. The fact of the matter is, my personal opinion 
is human beings, being human beings, there are going to be 
people, bad actors, both in conventional and organic that want 
to exploit the rules, live in the gray areas. And that is why 
when we talk about OOL (Origin of Organic Livestock rule), we 
want to make sure that these areas are well-defined and well-
policed. And that is why we support also the organic----
    Mr. Yoho. I am going to have to cut you off because the 
Chair said I have 5 minutes. I don't want to make her mad.
    Mr. Pierson. Okay. I am sorry.
    Mr. Yoho. But I do appreciate that, and will follow up with 
you on some questions.
    Thank you, Madam Chair.
    The Chair. Thank you. Just to touch on what you were just 
discussing, Mr. Pierson. I know that for your organic cows, you 
rely on organic grain to feed those. The threat of fraudulent 
organic grain imports--do you think that the language from the 
2018 Farm Bill is going to be beneficial or helpful to you all 
in ensuring that that doesn't happen?
    Mr. Pierson. I believe it is taking a very strong step 
forward in helping with that, and yes, that was a big problem. 
We went through what we called the Gold Rush in organic dairy 
around 2015, and there was a shortage of organic grain produced 
in the United States and Canada at that time, and it opened up 
markets for foreign markets to come in. We were very concerned 
about the organic integrity of those foreign markets.
    We expressed those concerns to the NOP, and the NOP has 
responded in taking effective steps to help control that.
    The Chair. Thank you.
    Mr. Yoho, you wanted to add something?
    Mr. Yoho. I am glad you brought that up, because that was 
one of my questions. I didn't realize I rambled so long.
    I sit on Foreign Affairs too, and we deal a lot with China. 
And we know the ASF outbreak out there. China is shipping 
organic soybean over here. They are drying them on the roads, 
if they are in an agricultural sector in China, those pigs, I 
am sure, are around that area or a truck goes through there 
that goes on that farm. We cannot afford to have ASF here, and 
we need to make sure that these feedstocks that are coming into 
this country are not tainted with that. And that is something 
we should have a future hearing on, because it is vital to our 
national security.
    Thank you for the extra time.
    The Chair. Thank you, and thank you, Ms. Pingree, for your 
patience. Your 5 minutes--and I know that you have done so much 
work, and I rely on you quite a bit in the discussion and being 
a thought leader in the organic space, so I am looking forward 
to hearing your questioning.
    Ms. Pingree. Well thank you, Madam Chair, and thank you to 
everybody on this Committee for all the good questions. But 
particularly, thank you to all of you for both the work that 
you do and the really great conversation we have been having 
today.
    I have been interested in this area for a very long time. I 
have been an organic farmer and run a certified organic farm 
since some time in the 1970s, so I go way back to the era when 
this was all kind of hippie Birkenstock and nobody thought it 
was a serious business. Now is it a $50 billion business, and 
it has been really wonderful to see the number of conventional 
farmers who have gotten new market opportunities, just all the 
great things that are going on, and so much of it is driven by 
all the things you have been talking about in conventional, in 
consumers' interest in the marketplace.
    I am also very well aware how hard it is to stay as a 
certified organic farmer. Those are really rigorous standards, 
and the issues you are bringing up about organic fraud, those 
concerns, cost of inputs, challenges with land ownership. You 
have really covered a lot.
    The other thing I just want to quickly say is the role that 
all organic farmers play today in enhancing environmental 
practices, which we have so much concern about, carbon 
sequestration, which you do as a matter of practice, 
resilience, increasing your yield. I mean, there are so many 
good things going on that I think there is a new interest in 
learning more about as we look at the changing climate.
    Just a couple things that I haven't heard come up that I 
want to talk about.
    This whole issue of scale, there was a long time ago 
Secretary of Agriculture said, ``Get big or get out,'' and 
small farmers were told there was no place for them. Then 
recently that came up, again, is there any market for small 
dairy farmers? And what you really represent is an amazing 
range of scale. The other thing we hear about a lot is people 
say like organic is nice, but we could never grow enough under 
these practices.
    Each of you can address this in a different way. Certainly, 
Mr. Huckaby, you have talked about being the largest carrot 
producer. You can't be any bigger than that. And to talk about 
carrots at scale, you are already there. Then, Ben, you are on 
the opposite side, but talking about supporting four people off 
a relatively small farm that goes directly to consumer and has 
a market in that way. And then, of course, dairy farms are a 
constant question. I am just going to let you guys discuss it 
in your own way, because it is such a difference but it 
represents what can be done out there.
    Mr. Huckaby. Well, thank you for that. I would just comment 
to that that we have taken organics, obviously, to scale that 
most people haven't been able to do, and a lot of it has to do 
with where we farm in California. It makes it a little easier 
than some of the other areas to farm. And we got in at a time--
I have been doing it a little over 20 years. We got in at a 
time when organics was really taking off, and a lot of the 
mainstream consumers were starting to entertain buying organic. 
And so, we got on at the right time and were able to kind of 
ride the wave.
    But, as I travel around and we farm now in seven different 
states, and we deal with most of the major retailers, it seems 
that there are opportunities from the smallest producer to 
large, mainstream producers. But the one thing we have learned 
along the way is that you can't cut any corners. We still farm 
every acre like we did when we had \1/4\ acre, and I still have 
plantings that are \1/4\ acre to \1/2\ acre of dandelion greens 
and different things that we produce.
    But, you cannot cut any corners in organics if you are 
going to have high quality, predictable yields. And that is 
what has helped propel the organic movement even more is 
figuring out how to grow these things year-round with equally 
as good a quality or better than we have conventionally.
    Ever since we have kind of figured that out through the 
crop rotation and building our soils to where they need to be, 
the market has just taken off. But I still see that there are 
opportunities for local. There are opportunities from the 
farmers' market all the way up to the largest warehouse stores.
    Ms. Pingree. You want to talk about being small?
    Mr. Pierson. As far as scale in our industry, our co-op, 
our mission is to support small family farms, and small is a 
relative term and it is defined by each individual. But we have 
1,800 dairy farmers: 95 percent of our milk is produced by 
herds with less than 100 cows, and the average size herd in our 
co-op is 72 cows. We still have hand milking Amish in our co-
op.
    I was on the phone with a gentleman the other day from 
Iowa, he milks 20 cows by hand. He called me to tell me about 
some of the issues he is having. But that being said, I 
strongly feel and the co-op strongly feels that there is room 
for all different sized operations in the organic dairy 
industry, and the organic industry, as long as we are all 
playing by the same set of rules. And we all have to have a 
level playing field on that.
    And so, we are supportive on how a person wants to farm, as 
long as they are performing with the NOP.
    Ms. Pingree. That is great.
    I have run out of time, so I am sorry, Ben, because I know 
you have a lot to say. But you have already talked a little bit 
about the importance of direct marketing and CSA's and dealing 
with families, which seem to be really important for the small 
farmer, and thank you for explaining that to us.
    And thank you, Madam Chair. I am out of time.
    The Chair. Thank you.
    At this time, Mr. Rodney Davis.
    Mr. Davis. Thank you, perfect timing.
    The Chair. You do it all the time.
    Mr. Davis. That is perfect. The pitfalls of multiple 
committee hearings at the same time.
    The Chair. But you have a system. You are a pro. Thank you 
for being here.
    Mr. Davis. Well, thank you, and I have to tell you, I make 
this comment often. She is doing a heck of a lot better job 
than the last Chair.
    The Chair. That was him.
    Mr. Davis. Chair Plaskett, a good friend of mine.
    And I do apologize to the witnesses that I wasn't here to 
see your testimony, but I do want to ask a question of Mr. 
Huckaby. You mentioned in your testimony the USDA Organic 
Program is the most highly regulated food system in the world. 
The organic industry is unique in that farmers and businesses 
want the program to have strict regulations and standards for 
the sector. Can you talk about why it is so important for your 
business to have strong and consistently enforced standards?
    Mr. Huckaby. Sure, thank you.
    As a farmer, most farmers want less regulations typically 
when they are out on the farm and farming, but with organics, 
for us to have a highly regulated sector that everyone has to 
follow the same standards, rules, and regulations, it is 
important to the consumer. The consumer wants to know exactly 
what they are getting. They want to know what practices were 
put in place, and they don't want it to differ from one state 
or one area versus the other. To me, it is consumer driven. 
They want the confidence in what we produce, and what we are 
allowed to produce, the time allowed between taking fields from 
conventional, converting them during the transition period to 
organics. There needs to be these standards that everyone 
follows the same rules so that we know that the end product is 
very similar throughout the nation. And I think that is 
extremely important from a marketing standpoint that we 
differentiate ourselves from conventional, and we are a huge 
conventional farm, too. We do both, but there are different 
practices that we do under each one.
    And I think making the differentiations between the two is 
very important so that the consumer has a choice, but they know 
what they are getting when they decide to pay more for organic, 
that they know exactly what they are getting.
    Mr. Davis. You are right. It is the consumer. They want 
that label to mean something and they are willing, as you said, 
to pay a higher price for those products.
    Mr. Huckaby. Absolutely.
    Mr. Davis. And in turn, you have a higher cost of 
production, which gets you then a higher return to go with 
those higher costs, which provides that cost-benefit analysis 
to stay in that organic industry.
    What is the biggest threat to that label right now, and the 
consistency within that label?
    Mr. Huckaby. I actually think for us the biggest threat is 
some of the foreign products that are being brought in that 
maybe haven't had quite the scrutiny and the standards in the 
foreign countries that are being imported in that don't, or 
have a tendency not to play by the rules as much as here. We 
are very highly regulated. We are very highly monitored. The 
paperwork, the visits that we get regularly, especially the 
scale and size that we are. And I would go back to fraudulent 
and some cheating maybe that happened.
    I have been doing this for a little over 20 years, and in 
the U.S., there is less and less of that. I don't look at that 
as a big problem in the U.S. of people not following the rules. 
The enforcements are there, and every year we get better and 
less issues with maybe nobody, not everyone being as truthful 
as they have been in the past.
    Mr. Davis. Well, I mean, I want to work with you, and I 
know those of us on this Subcommittee want to work with you in 
a bipartisan way to ensure that label remains consistent.
    Mr. Huckaby. Thank you.
    Mr. Davis. We tried to do the same with a GMO label just 
recently a few years ago, because at some point customers--they 
need to know what the label means. And if you have no 
standards, you don't know what that means. You could have a 
label on a package, but if you don't know what is behind that 
label, how do you know if it is just a marketing ploy, or if it 
actually has some standards behind it.
    I am glad you mentioned the foreign import issue, but we 
have a demand and a supply problem here when it comes to 
organic, Mr. Huckaby. We are going to continue to see the 
demand for organic groceries and organic food grow. How do we 
meet that demand? Can we do it without importing? What can we 
do as policy makers to help expand opportunities for those who 
want to be conventional and organic farmers like yourself?
    Mr. Huckaby. Yes. One of the issues that is kind of a 
preventative measure for switching from conventional to the 
organic is the transition period of 3 years, which to me, is a 
great period of time for you to rebuild your soil. And I am a 
conventional farmer, but we know that our soils on conventional 
are not nearly as rich. Fumigants and things are hard on your 
soils. But to take that 3 years and transition everything and 
get the soils built up is a necessary step in order to get good 
organic production, but it takes a lot of money and be willing 
to sit out 3 years. If there are some subsidy programs or 
things through USDA to try to stimulate more people to move 
over to organic. We have proven that you can get the same yield 
on organic that you can on conventional over and over again, 
but it takes time to build your soils and it takes that window 
of opportunity that is lost. And somehow, we are going to have 
to make up for that period and entice farmers to want to move 
to organic.
    Mr. Davis. Thank you, Mr. Huckaby, and thank you, Madam 
Chair. I yield back.
    The Chair. Thank you.
    Mr. Panetta, your 5 minutes.
    Mr. Panetta. Thank you, Madam Chair. I appreciate this 
opportunity, and appreciate you holding this hearing on such a 
very, very important topic, especially when it comes to where I 
represent, the Central Coast of California.
    Once again, ladies and gentleman, my name is Jimmy Panetta, 
and I want to also thank you for your participation in this 
hearing, and your preparation to be here and the fact that you 
are here, so thank you very much. I apologize that I missed 
your testimony, but I did read some of your testimony. And some 
of the things that you have to say, I want to ask about.
    But, there is one issue that is sort of prevalent, and an 
issue that you, as well as many people in agriculture agree, 
that affects all of our production capabilities.
    Like I said, I come from the Central Coast. It is otherwise 
known--and many people or my peers know that I always say this, 
and I will continue to say this--as the salad bowl of the 
world. Correct, Rodney?
    Mr. Davis. That is correct.
    Mr. Panetta. Thank you. As I said, they know that, and now 
you do too. And I say that because we have a lot of crops, 
hundreds of specialty crops. That is what we--obviously, that 
is our number one thing and our number one industry there. 
Conventional, yes, and definitely organic. In fact, we have had 
leaders in the organic history emanate out of the Central 
Coast, Santa Cruz, Mark Lipson in particular, who have just 
been stalwart champions of the organic vegetable industry.
    But, as we have gone forward for Mark and other leaders in 
that area, what we have seen is that yes, there are a number of 
issues that you face in organics with grants and crop insurance 
and research. But the number one issue, I believe, is labor, 
and we are hearing that not just on the Central Coast, but in 
the center of America all the way to the East Coast. My good 
friend Rodney Davis and my good friend Ted Yoho would agree to 
that as well. And we obviously have heard that, and we have 
been working to fix that as well.
    In fact, this afternoon Chairwoman Lofgren and Dan Newhouse 
from Washington and myself, as well as Mr. Carbajal sitting 
next to me, and a number of other Democrats and Republicans, 
and yes, TJ Cox--thank you, TJ, I didn't see you over there--
are going to be introducing the Farm Workforce Modernization 
Act, a bill that not only protects our existing workforce, but 
makes it easier to have an enduring workforce here in this 
country.
    But, I also know that it is going to take a lot more effort 
as we go forward, and it is going to take not only your 
contributions, but your information as to what you are saying 
about labor and how that is affecting your production.
    And so, I know Mr. Brown and Mr. Huckaby, you spoke about 
the challenge of sourcing enough labor for your organic 
operations in your written testimony, and I would love to hear 
what you have to say on the importance of creating this type of 
stable workforce for your organic production, how important 
that is and what the challenges you are facing as well.
    Mr. Huckaby. Yes, you are right, so thank you for that 
question.
    You nailed it. Immigration labor, a solid labor pool is 
everything for us. We are fortunate that we in California where 
we are at have year-round work available, so we don't have the 
influx of needing several hundred people 1 day and then not 
because our crops are always producing. That stable workforce 
has helped us retain a lot of our employees. But that workforce 
is aging out, and we are having a tougher time replacing those 
workers. We are now farming in seven different states. It is an 
issue in all seven states that we face, the labor issue. And so 
in California, we do have a pretty decent supply of labor. Like 
I said, they are starting to age out, but we need to protect 
those workers that are there that have worked with us for so 
many years. And then we need to be able to get replacement 
workers for those as they age out, and be able to continue to 
replenish the workforce that is there that is willing to do the 
hands-on labor that is so much required in organics, the hand 
weeding, the cultivating of all these crops, the hand harvest 
of all of it. It is extremely important, as well as in the 
southern states where we are farming with H-2A labor. It is 
important that we have a better process, a less cumbersome 
process to get those employees.
    You were correct. The labor is probably the number one 
issue we deal with in all seven states that we farm.
    Mr. Panetta. Mr. Brown?
    Mr. Brown. Yes, I would agree. In organic cotton 
production, I would think--well, I know the reason why that--
there are not more growers going to organic cotton production 
is because we don't have the labor to manually remove the 
weeds. I am fortunate enough that we have a good team that 
comes in every year that I have been dealing--working with for 
the last 10 years, but it is one of those limiting factors is 
nobody wants to do it anymore, and it is a challenge.
    Mr. Panetta. Understood, and I can tell you based on the 
bipartisan work that went into the Farm Workforce Modernization 
Act, it alleviates this and it addresses your problems.
    So thank you. I yield back, Madam Chair.
    The Chair. Thank you. Mr. TJ Cox, your 5 minutes. I just 
want to thank you also for the testimony of one of your 
constituents who is here with us, and look forward to your 
questioning.
    Mr. Cox. Thank you very much, Madam Chair. I am very 
pleased and take a point of pride that Mr. Huckaby and his 
operations are located in the 21st Congressional District, 
which is essentially the top agricultural district in the top 
agricultural state, and every time we pick up a carrot, we 
certainly think of you.
    I really did want to say thanks so much for your question, 
Mr. Panetta. That was one of the things we did want to discuss 
is about how in both conventional and organic farming that 
labor is such an issue. We always hear about that, and this 
bill that will be introduced this afternoon directly goes 
towards that, those issues, and should be quite a bit of 
relief. I am very excited to be able to introduce that.
    But, with regard to organic farming, I would love to hear 
more, Mr. Whalen, about some of the programs that were 
available through USDA and through the state really helped you, 
in other words, initiate your operations and continue to 
develop those?
    Mr. Whalen. Yes, thank you. Since the beginning of starting 
our farm, we have benefitted from Federal programs, from the 
Organic Certification Cost-Share Program, which we use every 
year, $750 of the $1,000 that we pay for certification. But one 
of the major programs that we have benefitted from and continue 
to is the NRCS EQIP and AMA programs, which we built--in the 
process of building our fifth high tunnel for. And where we are 
in Maine, extending our growing seasons into the winter and 
starting earlier in the spring has allowed us to access markets 
and really generate income year-round for our business and our 
families.
    Similarly, the SARE Research Programs, we have partnered 
with UMaine extension on two programs, one that looked at cover 
crop combinations and the effects on weed suppression and soil 
fertility, and we are currently just wrapping up another 
research program for tarping as a way to suppress cover crop 
and suppress weeds and increase soil fertility as well.
    A huge part of being a young farmer as well, the BFRDP 
programming, we have worked specifically through MOFGA, our 
state certifier for business training, a winter business class 
that exposed us to ideas of running a business that as farmers 
we had no idea about how QuickBooks operates, and how to run 
successfully and market our product. And also, this past winter 
we worked with Maine Farmland Trust that offered a Farming for 
Wholesale Program, that gets funding through the BFRDP as well, 
that is really asking us to look at our business and figure out 
how we can scale it to a wholesale level for our local markets.
    Mr. Cox. I am going to assume that this type of funding is 
critical for you to be able to at least start what you are 
doing and to maintain operations?
    Mr. Whalen. It absolutely is. I think high tunnels are kind 
of the easiest example of something that as a small farm with 
limited funds, I don't know that we would have constructed 
those, and the benefit that we have gotten from adding those to 
our farm are tremendous. It can't be overstated.
    Mr. Cox. Thank you very much.
    Mr. Brown or Mr. Pierson, if you could add any color that 
you could provide?
    Mr. Brown. On the USDA?
    Mr. Cox. Yes.
    Mr. Brown. Yes, we work with our NRCS local office, because 
as mentioned in my testimony, in our area we had a lot of 
Conservation Reserve Program land that was taken out and put 
back into production. We work with them on trying to make sure 
that we still have conservation practices. We have utilized 
some of the EQIP funding, that has helped.
    But, the biggest challenge in production agriculture, no 
matter whether it is organic or non-organic, is our rising 
input costs are just outrageous. From equipment to whatever, 
and then you bring in the labor issue that we have to deal with 
in organic. And so, anything that we can utilize through USDA 
is a benefit.
    Mr. Cox. Great. Thanks so much, and certainly as Mr. Davis 
pointed out, we all know that the demand for organic products 
is just growing not only here in the states, but throughout the 
globe. Mr. Huckaby, can organic farming actually be scaled up 
to meet the world's growing demand?
    Mr. Huckaby. Yes, thank you. Yes, I do believe it can and 
we have proved that over the last 20 years. We have proven it 
by taking 45,000 acres out of conventional production and 
transitioning it out, and with the steps of cover cropping and 
diversity and composting, we now produce equally the same 
tonnage that we do conventionally we do on organic. It takes a 
while to get there. It is not--there are no shortcuts. You 
can't cut corners, and it is not an overnight fix, but with a 
long-term strategic plan, we feel like we can produce as many 
organic crops as we can conventionally.
    Mr. Cox. Well thank you so much. I do have more questions, 
but it looks like I am out of time, so I will yield back.
    The Chair. Thank you.
    Mr. Carbajal, your 5 minutes.
    Mr. Carbajal. Thank you, Madam Chair, and thank you for 
having this very important hearing, and welcome to all the 
witnesses today.
    I want to first start out by associating myself with 
Representative Panetta's comments. He characterized what is 
transpiring in a bipartisan way in a very, very eloquent way, 
and I happen to be a son of a farmworker, so when I hear 
farmworkers are aging out, we now have a delta, we have a 
broken immigration system, we have a delta of need for more 
farmworkers. Oftentimes when I meet with farmers, I say you are 
absolutely right. We need to find ways to fix our system.
    Some children of farmworkers actually go on to get an 
education, live that American dream. Some even become Members 
of Congress, so I absolutely understand the need to continue to 
explore how we can create a more sustainable labor pool.
    Let me just say that my Central Coast district is one of 
two Central Coast districts. Obviously, Representative Panetta 
represents the other. I represent the Central Coast, Santa 
Barbara, San Luis Obispo, and a little bit of Ventura. And I 
got to tell you how excited I am to have Mr. Huckaby here, 
since he is a major investor in my district, and certainly 
appreciate his celebration of his 50 years of being in business 
as a company, Grimmway. I also appreciate that Mr. Huckaby has 
really distinguished himself by creating a blueprint for 
successful organic production, and really appreciate that he 
has chosen to invest in the 24th Congressional District in the 
most lovely Central Coast district. There are over 300 
district-wide organic operations in the 24th Congressional 
District.
    Mr. Huckaby, you mentioned a very important point in your 
testimony that the future of organics will depend on the 
Federal Government keeping pace with the marketplace. Can you 
elaborate on that? What do you mean by that, and share with us 
some examples that perhaps go to the heart of that issue?
    Mr. Huckaby. Well, thank you. Once again, we appreciate all 
the support and everything that is going into this work labor 
force and immigration and everything that we can do to protect 
our workers and bring more workers. I know a lot of people are 
involved in that, and we look forward to better things to come.
    But, when we talk about the USDA--so our biggest concern on 
organic is that we have very strong, strict rules and 
regulations that differentiate organics from conventional, and 
what we don't want to do is have multiple, multiple sectors, 
whether it is conventional and transitional and organic. I 
think of regenerative as part of organic, so we need to make 
sure that we don't confuse the consumer. And the consumer, they 
want to know what organic means and they want to have this 
stamp of approval from the USDA that says what this company has 
gone through and they are abiding by all the rules so this 
product is free of certain chemicals. It is grown in accordance 
to certain standards. They get the trust in the industry as 
well as the actual producer.
    It is important that we have a very, very strict regulated 
industry. There are a lot of things out there with GMOs that 
the consumers are very concerned with, so they throw up red 
flags when people start talking about changing and modifying 
different organisms, but there is some technology out there 
that USDA and the NOSB needs to continue to look at when it 
comes to selective breeding and things. I can't speak about it 
because I am not in tune with that, but the government needs to 
make sure that they are really looking hard at new advances in 
all technology as we move forward. There is a lot of technology 
changing in production farming right now, and I just think we 
need to make sure that we have the support with the government 
to really take and watch what is happening out there.
    Mr. Carbajal. Thank you very much.
    Mr. Whalen, I have very few seconds left, so the move of 
NIFA has been of great concern for many of my producers in my 
district that have expressed concerns, and especially as it 
relates to supporting research programs with information input 
on organic priorities. Can you share with me your thoughts on 
that?
    Mr. Whalen. Basically, anything that is limiting access to 
funds for research, especially on our farm right now, we are 
really trying to think about what are the practices that we can 
integrate at our scale that are going to help combat climate 
change, things like different selective breeds for seeds that 
are going to be more resilient on the farm. Anything that is 
holding that funding up is a detriment to the organic industry, 
and figuring out ways to kind of overcome those more 
administrative hurdles would definitely help.
    Mr. Carbajal. Thank you very much.
    Madam Chair, I yield back.
    The Chair. Thank you.
    I want to thank everyone for testifying this morning, and 
providing us with some incredible insight in the work that you 
are all doing in the organics field.
    I think that we have seen from the testimony from our 
witnesses that regardless of the scale, the crop, location, 
geography, that there are some huge opportunities that are 
available in the organic space. I believe that the 2018 Farm 
Bill really went a long way in supporting this market, but we 
still have a lot of work to do, specifically from some of the 
conversations that you have given us and the information you 
have given us. Whether it is supporting new entrants, foreign 
organics coming into the markets, and how we can continue to 
support this industry and make sure that it is available to 
additional individuals. Thank you all for being here.
    I want to remind everyone that although we have asked you 
questions and you have given those 5 minutes, I am really 
appreciative of the longer testimony, the written testimony 
that you have provided for this Committee and for the record. 
And then I just want everyone to know that under the Rules of 
the Committee, the record of today's hearing will remain open 
for 10 calendar days to receive any additional material and 
supplemental written responses from the witnesses to any 
questions posed by a Member. This hearing of the Subcommittee 
on Biotechnology, Horticulture, and Research is adjourned.
    [Whereupon, at 12:11 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Articles Submitted by Hon. Neal P. Dunn, a Representative in Congress 
                              from Florida
                               article 1
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Genetic Literacy Project

https://geneticliteracyproject.org/2019/08/06/viewpoint-dissecting-the-
fear-based-case-against-gene-edited-crops-in-organic-farming/
Viewpoint: Dissecting the fear-based case against gene-edited crops in 
        organic farming
Steven Cerier (https://geneticliteracyproject.org/writer/steven-cerier/
) D August 6, 2019

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Image: Shutterstock

    For nearly 25 years, an alliance of high-profile environmental 
groups and organic food proponents have waged an effective scare 
campaign against transgenic (GMO) crops. Foods derived from these 
crops, the public was told, could cause  \1\ food allergies, 
sterility, liver problems and even cancer. A 2016 report by the U.S. 
National Academy of Sciences \2\ conclusively debunked such 
speculation, finding there is ``no substantiated evidence of a 
difference in risks to human health between current commercially 
available [GMO] crops and conventionally bred crops.'' Today, more than 
280 scientific institutions \3\ around the world maintain that GMO 
crops don't present a unique health risk to humans.
---------------------------------------------------------------------------
     Editor's note: due to the numerous instances of hyperlinked text 
in the following article the hyperlinks are reformatted, herein, as 
footnotes.
    \1\ https://geneticliteracyproject.org/2019/06/19/podcast-
glyphosate-tainted-breakfast-plant-geneticist-kevin-folta-debunks-fear-
based-cbs-roundup-report/.
    \2\ https://www8.nationalacademies.org/onpinews/
newsitem.aspx?RecordID=23395.
    \3\ http://www.siquierotransgenicos.cl/2015/06/13/more-than-240-
organizations-and-scientific-institutions-support-the-safety-of-gm-
crops/
---------------------------------------------------------------------------
          [Editor's note: This article is part one of a four-part 
        series on the organic food industry's reaction to the 
        introduction of gene-edited crops. Read part two,\4\ part three 
        \5\ and part four.\6\] 
---------------------------------------------------------------------------
    \4\ https://geneticliteracyproject.org/2019/08/20/viewpoint-
organic-food-movement-shoots-itself-in-the-foot-by-rejecting-crispr-
gene-editing/.
    \5\ https://geneticliteracyproject.org/2019/09/24/viewpoint-how-
organic-industry-opposition-to-crispr-gene-editing-encourages-
pesticide-use/.
    \6\ https://geneticliteracyproject.org/2019/10/22/viewpoint-
arriva%E2%80%A6anic-agriculture/
     Editor's note: the hyperlink for part 4 of the series, as posted 
on the Genetic Literacy Project's website is incorrect. The correct 
hyperlink is https://geneticliteracyproject.org/2019/10/22/viewpoint-
arrival-of-gmo-gene-edited-biofortified-crops-weakens-case-for-organic-
agriculture/.

    With the advent of gene-editing techniques--CRISPR-Cas9 being the 
best known--the social and political controversy surrounding 
agricultural biotechnology has shifted in recent years. These new 
breeding techniques (NBTs) allow scientists to develop crops that are 
more nutritious \7\ or possess useful traits like disease-,\8\ drought- 
\9\ and blemish-resistance,\10\ without inserting DNA from other 
species.
---------------------------------------------------------------------------
    \7\ https://geneticliteracyproject.org/2017/12/04/crispr-
agriculture-technology-improving-crop-yields-nutrition-stress-
tolerance/.
    \8\ https://geneticliteracyproject.org/2017/10/26/crispr-crop-
disease-resistant-ge-cassava-staple-crap-could-help-tackle-hunger-
africa/.
    \9\ https://geneticliteracyproject.org/2016/09/08/crispr-corn-
duponts-non-transgenic-drought-tolerant-gene-edited-corn-sale-soon/.
    \10\ https://news.psu.edu/story/405406/2016/04/19/research/gene-
edited-mushroom-created-penn-state-researcher-changing-gmo.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          [David Dees, https://ddees.com/wp-content/uploads/2017/09/
---------------------------------------------------------------------------
        Inside-Volume-2-Gallery-Image-11.jpg]

    Since the anti-GMO movement's chief complaint about transgenic 
crops was that they contained ``foreign DNA,'' you might think 
activists would be ecstatic about this development. But that's not the 
case. Anti-GMO campaigners have attacked new breeding techniques as 
fervently as they did genetically modified crops, alleging these next-
generation plant breeding tools are just ``GMO 2.0 \11\'' and pose a 
threat to human health and the environment. Opponents of NBTs have been 
particularly successful in the European Union (EU), which has 
effectively banned \12\ the cultivation of gene-edited crops--though 
some regulators and most scientists are lobbying \13\ to change the 
regulations.
---------------------------------------------------------------------------
    \11\ https://theecologist.org/2016/jan/13/gm-20-gene-editing-
produces-gmos-must-be-regulated-gmos.
    \12\ https://www.the-scientist.com/news-opinion/no-regulatory-
exemption-for-gene-edited-products-in-eu-64562.
    \13\ https://geneticliteracyproject.org/2019/05/22/eu-commission-
prepares-for-possible-overhaul-of-gmo-crop-rules-to-address-crispr-
gene-editing/.
---------------------------------------------------------------------------
    By trying to lump genetic modification and gene editing into the 
same amorphous category, anti-GMO activists have exposed the 
inconsistent nature of their ideological movement and are trying to 
stifle technology that is advancing sustainable farming.
GMO debate, part 2
    The EU's stringent stance on crop gene editing, though a serious 
blow to scientific progress, is the exception to the rule, as most 
developed countries--including Canada, Australia, Argentina and the 
U.S. \14\--have concluded that NBTs should not be regulated as strictly 
as GMO crops. The reason for this light regulatory approach, according 
to the U.S. Department of Agriculture \15\ (USDA), is that gene-edited 
crops:
---------------------------------------------------------------------------
    \14\ https://geneticliteracyproject.org/2018/11/07/13-nations-say-
its-time-to-end-political-posturing-and-embrace-crop-gene-editing/
    \15\ https://www.usda.gov/media/press-releases/2018/03/28/
secretary-perdue-issues-usda-statement-plant-breeding-innovation.

          . . . are indistinguishable from those developed through 
        traditional breeding methods. The newest of these methods, such 
        as genome editing, expand traditional plant breeding tools 
        because they can introduce new plant traits more quickly and 
        precisely, potentially saving years or even decades in bringing 
---------------------------------------------------------------------------
        needed new varieties to farmers.

    The fact that gene editing is essentially accelerated plant 
breeding (and EU regulators can't distinguish \16\ gene-edited and 
traditionally bred crops) doesn't seem to matter to many organic 
proponents, who are using the same playbook to attack gene-edited crops 
they utilized to demonize GMOs. They suggest, usually without evidence, 
that gene editing poses some unanticipated threat, leaving the reader 
to fill in the gaps. The organic industry-funded Center for Food Safety 
(CFS) rehashed this decades-old argument to attack CRISPR-edited corn 
in a recent blog post: \17\
---------------------------------------------------------------------------
    \16\ https://reason.com/2019/07/23/e-u-regulators-cant-detect-the-
gene-edited-crops-they-banned/.
    \17\ https://www.centerforfoodsafety.org/press-releases/4579/
organic-standards-will-exclude-next-generation-of-gmos.

          Despite growing concerns about the possible impacts of 
        synthetic biology organisms on human health and the environment 
        and a lack of independent safety assessment, the U.S. Food and 
        Drug Administration has allowed . . . DuPont's CRISPR waxy corn 
        and other similarly created food and cosmetic ingredients to 
---------------------------------------------------------------------------
        enter the market without regulation.

    Such arguments rely on carefully selected, often preliminary 
studies, while ignoring the overwhelming research \18\ addressing 
safety and environmental concerns about gene-editing. Nonetheless, CFS 
is not alone. The National Organic Coalition (NOC), whose membership 
includes prominent anti-GMO groups \19\ Beyond Pesticides, Consumers 
Union and indeed CFS, has likewise said it firmly opposes the use of 
gene editing, what it calls ``next generation GMOs \20\'':
---------------------------------------------------------------------------
    \18\ https://gmo.geneticliteracyproject.org/FAQ/whats-difference-
mutagenized-crops-gmos-gene-edited-crops/.
    \19\ https://www.nationalorganiccoalition.org/member-organizations.
    \20\ https://www.nationalorganiccoalition.org/genetic-engineering.

          Genetic Engineering and Genetic Modification Organisms are 
        not a part of organic production. NOC is currently advocating 
        to clarify the prohibition for next generation GMOs in organic 
        production and we are advocating for transparent labeling of 
        genetically engineered crops.
Biomedicine: The Anti-GMO machine's blind spot
    On their own terms, such fear-based arguments are unimpressive. But 
there's a bigger problem with the organic movement's opposition to GMO 
and gene-edited crops. The same biotech tools \21\ that can be used to 
develop disease-resistant plants also have important biomedical 
applications, yet the anti-GMO machine doesn't seem too concerned about 
these. Some activist groups, like Organic Consumers Association \22\ 
and Moms Across America,\23\ reject vaccines. By and large, though, the 
anti-biotech campaigners have been careful to avoid discussing 
biomedicine.
---------------------------------------------------------------------------
    \21\ https://gmo.geneticliteracyproject.org/FAQ/why-is-there-
controversy-over-gmo-foods-but-not-gmo-drugs/.
    \22\ https://geneticliteracyproject.org/glp-facts/organic-
consumers-association-2/.
    \23\ https://geneticliteracyproject.org/glp-facts/moms-across-
america-consumer-group-promotes-health-scares-targets-gmos-chemicals/.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

---------------------------------------------------------------------------
          Insulin injection. Image: Xain Storey.

    The Sierra Club, though referring to CRISPR as ``a weapon of mass 
destruction,'' has made it clear that it has no issue with 
biotechnology in medicine. ``We call for a ban on the planting of all 
genetically engineered crops,'' the group's biotechnology position 
statement \24\ reads. However, ``[o]ur policy is not intended to be 
applied to biomedical applications.'' There's a good reason for this 
inconsistent opposition. The medical applications of biotechnology have 
had a visible impact on public health, and consumers haven't opposed 
them as a result. The anti-GMO activists were forced to abandon \25\ 
their early attack on medical biotech applications because of these 
treatments dramatically improved people's lives.
---------------------------------------------------------------------------
    \24\ https://www.sierraclub.org/policy/biotechnology.
    \25\ https://gmo.geneticliteracyproject.org/FAQ/why-is-there-
controversy-over-gmo-foods-but-not-gmo-drugs/.
---------------------------------------------------------------------------
    In the 1970s, for instance, diabetics faced the looming threat of 
an insulin shortage.\26\ They don't today because the drug is mass 
produced with the help of genetically modified bacteria, which ensures 
a steady supply. A similarly inspiring story can be told about life-
saving vaccines. The Ebola vaccine \27\ being used to contain the 
infectious disease in the Democratic Republic of the Congo and the HPV 
vaccine, which could potentially eradicate cervical cancer,\28\ are 
also excellent examples of genetically engineered pharmaceuticals whose 
impact can't be dismissed.
---------------------------------------------------------------------------
    \26\ https://geneticliteracyproject.org/2017/10/30/genetic-
engineering-came-age-worlds-first-gmo-ge-insulin-approved-35-years-ago/

    \27\ https://www.sciencemag.org/news/2019/05/drc-expands-ebola-
vaccine-campaign-cases-mount-rapidly.
    \28\ https://www.bmj.com/content/365/bmj.l4450
---------------------------------------------------------------------------
Why crop biotech became the bogeyman
    Despite their inconsistency, organic activists have successfully 
attacked agricultural biotechnology because it primarily benefits 
farmers,\29\ in the form of higher crop yields and lower production 
costs. And since the public knows next to nothing \30\ about farming, 
anti-GMO groups were able to sell consumers on the idea that biotech 
crops are not ``natural'' and thus harmful in some way. What they have 
ignored or failed to grasp is that there is nothing natural about 
farming. As Maarten Chrispeels, Distinguished Professor Emeritus at the 
University of California, San Diego, has pointed out: \31\
---------------------------------------------------------------------------
    \29\ https://gmo.geneticliteracyproject.org/FAQ/why-is-there-
controversy-over-gmo-foods-but-not-gmo-drugs/.
    \30\ https://geneticliteracyproject.org/2019/05/28/as-consumers-
become-more-and-more-detached-from-farming-ignorance-about-modern-
agriculture-and-gmos-grows/.
    \31\ https://biology.ucsd.edu/about/news/article_061604.html.
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
          An agricultural landscape may look attractive--a vineyard in 
        the San Diego backcountry for example, or a sunflower field in 
        full bloom in the Provence in France--but its creation required 
        the complete destruction of the natural ecosystem and its 
        replacement by an agricultural ecosystem. Further, to grow so 
        many of the same plants in one field while at the same time 
        suppressing the growth of other plants--in this case, weeds--is 
---------------------------------------------------------------------------
        not natural.

    The simple fact is that none of the foods we consume are natural: 
They all have been developed \32\ through centuries of plant breeding. 
Seedless grapes and watermelons are completely unnatural products. In 
their original state, wild papayas were round and the size of a plum, 
while the antecedents of watermelon \33\ were hard, bitter and pale 
green in color. In one form or another, humankind has been genetically 
engineering food for thousands of years. Without such manipulation, we 
would never have been able to produce the dazzling variety of foods we 
consume today. Thanks to gene editing, we now have the means to speed 
up the process.
---------------------------------------------------------------------------
    \32\ https://gmo.geneticliteracyproject.org/FAQ/whats-difference-
mutagenized-crops-gmos-gene-edited-crops/.
    \33\ https://news.nationalgeographic.com/2015/08/150821-watermelon-
fruit-history-agriculture/.
---------------------------------------------------------------------------
    A few new gene-edited crops are already on the market, such as the 
healthier soybean \34\ developed by Minnesota biotech firm Calyxt. This 
gene-edited crop can be used to produce soybean oil with fewer 
saturated fats and zero trans fats. Oil from the soybeans is being sold 
to some restaurants, while Calyxt works to develop \35\ disease-
resistant and high-fiber varieties of wheat, blight-resistant potatoes 
and drought-tolerant soybeans. Cibus, another firm whose specialty is 
gene-edited crops, has produced \36\ a herbicide-tolerant, ultra-high 
oleic canola, which it has licensed to Valley Oils Partners. Allan 
Yeap, President of Valley Oils Partners, said of the edited canola:
---------------------------------------------------------------------------
    \34\ https://reason.com/2019/03/19/gene-edited-soy-oil-now-
available/.
    \35\ https://calyxt.com/calyxts-high-fiber-wheat-deemed-non-
regulated-by-usda/.
    \36\ https://www.prnewswire.com/news-releases/cibus-licenses-ultra-
high-oleic-canola-oil-trait-to-valley-oils-partners-300821616.html.

          The oil produced from the ultra-high oleic canola is unique 
        and has exceptional properties making it desirable for use in 
        wide range of applications, including food production, animal 
        feed, restaurant food frying and as a bio-renewable bio-
        degradable hydraulic oil for trucks and machinery.
What's at stake
    The debate over CRISPR and other new breeding techniques isn't 
merely an academic exercise. If the more radical voices in the organic 
food movement are successful in further restricting gene editing, they 
could do great harm to global food production. Climate change and a 
growing global population represent major threats to food security. As 
the World Resources Institute argued in its recent report,\37\ GMO and 
gene-edited crops are essential tools if we are going to overcome these 
challenges.
---------------------------------------------------------------------------
    \37\ https://geneticliteracyproject.org/2019/07/18/viewpoint-we-
need-gmo-crispr-edited-crops-to-help-feed-10-billion-people/
---------------------------------------------------------------------------
    If the organic food movement wishes to deny itself the benefits 
that come with embracing modern biotechnology (a subject we'll examine 
in part two of this series), no one can stand in the way. What is 
unconscionable, however, is the organic movement's effort to spread 
falsehoods about genetic engineering and stifle agricultural 
productivity along the way. Many organic food proponents have learned 
the age-old lesson that it is easier to scare people than it is to 
reassure them. We will all be the losers if they succeed in turning the 
public away from technologies that could revolutionize agriculture.

          Steven E. Cerier is a freelance international economist and a 
        frequent contributor to the Genetic Literacy Project.
          The GLP featured this article to reflect the diversity of 
        news, opinion and analysis. The viewpoint is the author's own. 
        The GLP's goal is to stimulate constructive discourse on 
        challenging science issues.
                               article 2
                               
GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Genetic Literacy Project

https://geneticliteracyproject.org/2019/08/20/viewpoint-organic-food-
movement-shoots-itself-in-the-foot-by-rejecting-crispr-gene-editing/
Viewpoint: Organic food movement `shoots itself in the foot' by 
        rejecting CRISPR gene editing
Steven Cerier (https://geneticliteracyproject.org/writer/steven-cerier/
) D August 20, 2019

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Image: iStock.

    The organic food movement has declared its strong opposition to new 
plant breeding techniques (NBTs) such as CRISR-Cas9 gene editing, 
arguing they are unnatural and potentially harmful to the environment 
and human health. As we discussed in part one of this series, organic 
farmers, retailers and their trade groups have begun to utilize the 
same playbook to vilify gene-edited crops they use against genetically 
modified (GMO) crops. This opposition to the latest advances in plant 
breeding illustrates the organic movement's disdain for mainstream 
science and its precautionary mindset about agriculture. But there's 
another related development worth exploring in detail.

          [Editor's note: This article is part one of a four-part 
        series on the organic food industry's reaction to the 
        introduction of gene-edited crops. Read part one, \1\ part 
        three \2\ and part four.\4\] 
---------------------------------------------------------------------------
     Editor's note: due to the numerous instances of hyperlinked text 
in the following article the hyperlinks are reformatted, herein, as 
footnotes.
    \1\ https://geneticliteracyproject.org/2019/08/06/viewpoint-
dissecting-the-fear-based-case-against-gene-edited-crops-in-organic-
farming/.
    \2\ https://geneticliteracyproject.org/2019/09/24/viewpoint-how-
organic-industry-opposition-to-crispr-gene-editing-encourages-
pesticide-use/.
    \3\ https://geneticliteracyproject.org/2019/10/22/viewpoint-
arriva%E2%80%A6anic-agriculture/.
     Editor's note: the hyperlink for part 4 of the series, as posted 
on the Genetic Literacy Project's website is incorrect. The correct 
hyperlink is https://geneticliteracyproject.org/2019/10/22/viewpoint-
arrival-of-gmo-gene-edited-biofortified-crops-weakens-case-for-organic-
agriculture/.

    While most organic food producers view rejection of technology as a 
way to set their ``natural'' products apart from the conventional 
alternatives, they have miscalculated the importance of plant breeding 
advances and may put themselves at a severe competitive disadvantage as 
a result. NBTs are beginning to radically improve food production, 
yielding products that appeal to both consumers and farmers. This feat 
cannot be replicated by organic growing practices.
The gene-editing revolution
    New breeding techniques encompass dozens \4\ of gene-editing and 
gene-silencing technologies that allow scientists to make very specific 
modifications to the genomes of food crops and animals, endowing them 
with a variety of useful traits. These tools were in development for 
decades and finally burst onto the scene in 2005 when scientists used 
the technology \5\ to edit tobacco plants. Since then, researchers 
worldwide have begun developing hundreds of crops \6\ using these 
technologies, some of which have already hit the market.
---------------------------------------------------------------------------
    \4\ https://gmo.geneticliteracyproject.org/FAQ/what-is-crisprcas9-
and-other-new-breeding-technologies-nbts/.
    \5\ http://www.ijdb.ehu.es/web/paper.php?doi=130194hp.
    \6\ https://geneticliteracyproject.org/2019/06/27/the-first-gene-
edited-soybean-opens-door-to-a-slew-of-new-crispr-foods/.
---------------------------------------------------------------------------
    The agricultural advances now within reach are almost startling. 
New plant breeding technologies, CRISPR being the best known, have the 
potential to eradicate serious plant diseases, eliminating a large 
percentage of the crop losses that farmers suffer every year.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Citrus greening disease has infected orchards in Florida and 
        around the world. Image: Edgloris Marys/shutterstock.com.

    The bacterial disease citrus greening,\7\ for example, has 
devastated the orange industry in Florida. From a high of 244 million 
boxes in the 1997-1998 growing year, orange production plunged to 94.2 
million boxes in 2015-2016. It is estimated that citrus greening 
reduced revenues from orange and grapefruit production by $4.64 billion 
since the disease was detected, costing $1.76 billion in labor income 
and more than 3,400 jobs. Wheat rust in the U.S. likewise costs farmers 
an estimated $5 billion \8\ in lost crops every year.
---------------------------------------------------------------------------
    \7\ https://www.orlandosentinel.com/opinion/os-ed-bacteria-
greening-hurts-florida-citrus-20170615-story.html
    \8\ https://aglifesciences.tamu.edu/rootbiome/wp-content/uploads/
sites/38/2015/06/2016-Ficke-et-al-CropLosses-FoodSecurity-Research-
gate.pdf
---------------------------------------------------------------------------
    Scientists are working on gene-editing solutions to both diseases. 
With respect to citrus greening, scientists have determined \9\ which 
genes are ``switched on'' to express proteins that cause the disease. 
This insight will hopefully enable them to utilize gene-editing 
technology to either remove or silence the responsible genes. 
Scientists have also discovered wheat genes that are resistant \10\ to 
the rust pathogen. Gene-editing might be used to ``switch on'' these 
genes, potentially endowing wheat with immunity to the disease.
---------------------------------------------------------------------------
    \9\ https://www.scientia.global/orange-innovation-creating-citrus-
disease-resistance/.
    \10\ https://www.nature.com/articles/s41477-018-0236-4
---------------------------------------------------------------------------
    NBTs will also advance the development of biofortified crops to 
help meet the nutritional needs of developing nations, as well as 
drought-tolerant crops \11\ that will help agriculture adapt to the 
hostile impacts of climate change. The environmental benefits don't 
stop there, however. Non-browning fruits and vegetables, such as the 
Arctic Apple, will help tackle the world's food waste problem. And 
gene-edited crops capable of fixing nitrogen \12\ from the atmosphere 
could reduce the use of harmful chemical fertilizers.
---------------------------------------------------------------------------
    \11\ https://geneticliteracyproject.org/2018/11/20/argentina-could-
be-first-country-to-plant-gmo-wheat-engineered-for-drought-resistance-
if-regulators-approve/.
    \12\ https://allianceforscience.cornell.edu/blog/2018/07/10-ways-
crispr-will-revolutionize-environmental-science/.
---------------------------------------------------------------------------
Organic industry shoots itself in the foot
    Critics of gene-editing have simply recycled the same arguments 
they leveled at GMOs beginning in the 1990s. In doing so, they have 
repeatedly ignored evidence that gene-edited food is safe for human and 
animal consumption \13\ and poses no threat to the environment. 
Instead, the organic food industry has conjured up non-existent dangers 
and employed scaremongering tactics to frighten the public. According 
to Emma Hockridge, head of policy, farming and land use at the UK's 
Soil Association, a pro-organic NGO: \14\
---------------------------------------------------------------------------
    \13\ https://www.sciencemag.org/news/2019/03/gene-edited-foods-are-
safe-japanese-panel-concludes.
    \14\ https://www.gmwatch.org/en/news/latest-news/18500-uk-soil-
association-responds-to-george-eustice-on-genome-editing.

          Scientific research has long shown that these new gene-
        editing technologies give rise to similar uncertainties and 
        risks as GM always has . . . We have always been clear that 
        these new plant breeding techniques are GMOs and therefore are 
        banned in organic farming and food . . . The outcome of gene-
        editing is to manipulate and alter the genome in a laboratory 
        to make a new organism. This is the very definition of genetic 
        engineering, and gene-editing risks introducing similar 
        uncertainties and unintended consequences as genetic 
---------------------------------------------------------------------------
        modification of DNA.

    The Soil Association is not alone, either. Virtually all the major 
organic food organizations have indicated that NBTs will never be 
allowed in the cultivation of organic crops. As the International 
Federation of Organic Agriculture Movements, which represents 
affiliates \15\ in 120 countries, explained: \16\
---------------------------------------------------------------------------
    \15\ https://www.ifoam.bio/en/about-us.
    \16\ https://www.ifoam.bio/sites/default/files/
position_paper_v01_web.pdf

          ``The rapid development and dissemination of new genetic 
        engineering techniques in recent years brings a level of 
        interference in the genetic make-up of the planet's 
        biodiversity, with consequences that remain poorly understood 
        let alone evaluated, which society has never seen before . . . 
        [I]t is not possible to know the full impact of any given 
        genetic engineering process; most of these techniques may 
        trigger numerous off target effects at different steps of their 
---------------------------------------------------------------------------
        production process and risk is inherent.''

    This consensus opposition to gene editing explains why the USDA's 
National Organic Standards Board voted in 2016 \17\ and 2017 \18\ to 
exclude all gene-edited crops from organic certification, viewing the 
decision as a way to differentiate its products and appeal to biotech--
wary consumers. But this marketing strategy doesn't make as much sense 
as the industry believes.
---------------------------------------------------------------------------
    \17\ https://geneticliteracyproject.org/2016/11/23/national-
organic-standards-board-wants-usda-to-exclude-new-gene-editing-
techniques/.
    \18\ https://www.ams.usda.gov/rules-regulations/organic/nosb/
recommendations/fall2017.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Organic farming requires more land to reach the crop yields 
---------------------------------------------------------------------------
        achieved on conventional farms.

    Organic farming has no comparable technology at its disposal that 
matches the already realized and potential benefits of gene-editing, 
and the industry is already out-produced by the competition. A 2012 
study conducted by McGill University indicated that organic yields are 
on average 25% lower \19\ than those achieved on conventional farms. A 
2018 study published in Nature,\20\ which examined greenhouse gas 
emissions, similarly found that organic growers require much more land 
to grow the same amount of food as their conventional counterparts. 
This production gap is likely to grow as more yield-boosting,\21\ gene-
edited crops enter the market.
---------------------------------------------------------------------------
    \19\ https://www.cnn.com/2012/04/26/world/organic-food-yield/
index.html.
    \20\ https://www.nature.com/articles/s41586-018-0757-z.
    \21\ https://www.yield10bio.com/crispr-gene-editing.
---------------------------------------------------------------------------
Consumer-focused products
    Gene-editing is poised to weaken the multi-billion dollar organic 
industry on the demand side as well. Currently, organic and 
conventionally grown foods are more or less identical \22\ in terms of 
nutritional value. The only difference between the two is that the 
organic industry has successfully pitched \23\ its products to 
consumers as more natural. But even this subjective distinction may 
disappear, as gene editing continues to produce crops with qualitative, 
consumer-focused benefits that organic foods lack.
---------------------------------------------------------------------------
    \22\ https://gmo.geneticliteracyproject.org/FAQ/are-organic-foods-
healthier-than-conventional-foods-2/.
    \23\ https://www.organicfacts.net/organic-products/organic-food/
health-benefits-of-organic-food.html
---------------------------------------------------------------------------
    Minneapolis-based biotech firm Calyxt has already developed a gene-
edited soybean \24\ that produces healthier oil, which made its 
restaurant debut \25\ this year. The company also expects to 
commercialize a high-fiber wheat \26\ variety in 2020. Amfora, another 
biotech company, is developing a high-protein soybean.\27\ Pairwise, a 
firm that creates \28\ ``new crops and improve existing ones using gene 
editing,'' believes the technology could be used to improve taste, 
increase shelf life, and lengthen the season of availability. As the 
Guardian reported in July 2018: \29\
---------------------------------------------------------------------------
    \24\ https://www.the-scientist.com/news-opinion/gene-edited-
soybean-oil-makes-restaurant-debut-65590.
    \25\ https://www.the-scientist.com/news-opinion/gene-edited-
soybean-oil-makes-restaurant-debut-65590.
    \26\ https://www.calyxt.com/products/high-fiber-wheat/.
    \27\ https://www.amforainc.com/news-1-3-19.
    \28\ https://www.theguardian.com/science/2018/jul/19/weird-new-
fruits-could-hit-aisles-soon-thanks-to-gene-editing.
    \29\ https://www.theguardian.com/science/2018/jul/19/weird-new-
fruits-could-hit-aisles-soon-thanks-to-gene-editing.

          `We are interested in making produce more healthy, 
        sustainable and convenient so that people will eat more 
        produce,' Dr Haven Baker, Pairwise's chief business officer, 
        said . . . . Such approaches, said Baker, could not only boost 
        consumers' nutrient intake, but could also reduce food waste 
        and produce adaptations needed to weather climate change: `We 
        are trying to solve problems that matter to both consumers and 
        the agricultural systems.'
Conclusion
    The U.S. Government's decision not to stymie the progress of NBTs 
with excessive regulation will lead to a plethora of new gene-edited 
foods reaching the market over the next decade. These enhanced products 
will have qualities that are likely to entice consumers. But instead of 
embracing NBTs, the organic industry has tried to scare the public away 
from the technology. This strategy worked against GMOs to a certain 
degree, but extending it to gene-edited crops that directly benefit 
consumers might cost the organic industry dearly.

          Steven E. Cerier is a freelance international economist and a 
        frequent contributor to the Genetic Literacy Project.
          The GLP featured this article to reflect the diversity of 
        news, opinion and analysis. The viewpoint is the author's own. 
        The GLP's goal is to stimulate constructive discourse on 
        challenging science issues.
                               article 3
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Genetic Literacy Project

https://geneticliteracyproject.org/2019/09/24/viewpoint-how-organic-
industry-opposition-to-crispr-gene-editing-encourages-pesticide-use/
Viewpoint: How organic industry opposition to CRISPR gene editing 
        encourages pesticide use
Steven Cerier (https://geneticliteracyproject.org/writer/steven-cerier/
) D September 24, 2019

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Farmers in Spain applying copper sulfate pesticide. Image: 
        Robert Harding

    The increasing popularity of organic food is driven largely by 
consumers hoping to avoid pesticide exposure. When the Soil 
Association, a UK-based organic advocacy group, asked consumers why 
they didn't buy conventional foods, 95 percent of them  \1\ said they 
did so because of pesticides. Despite the fact that organic growers do 
indeed utilize pesticides--some of which can be very harmful to human 
health and wildlife--the organic food movement has done its utmost to 
promote the myth of chemical-free ``natural'' agriculture, contrasting 
it with the idea that conventional farmers rely on a bevy of ``toxic'' 
substances to grow their crops. Organic Consumers Association (OCA) 
International Director Ronnie Cummins summed up this false dichotomy in 
a 2014 article for EcoWatch: \2\
---------------------------------------------------------------------------
     Editor's note: due to the numerous instances of hyperlinked text 
in the following article the hyperlinks are reformatted, herein, as 
footnotes.
    \1\ https://blogs.scientificamerican.com/science-sushi/
httpblogsscientificamericancomscience-sushi20110718mythbusting-101-
organic-farming-conventional-agriculture/.
    \2\ https://www.ecowatch.com/10-reasons-consumers-buy-organic-
1881899943.html.

          Organic farming prohibits the use of toxic pesticides, 
        antibiotics, growth hormones and climate-destabilizing chemical 
        fertilizers . . . Consumers are concerned about purchasing 
        foods with high nutritional value and as few as possible 
        synthetic or non-organic ingredients. Organic foods are 
        nutritionally dense compared to foods produced with toxic 
---------------------------------------------------------------------------
        chemicals, chemical fertilizers and GMO seeds.

          [Editor's note: This article is part one of a four-part 
        series on the organic food industry's reaction to the 
        introduction of gene-edited crops. Read part one,\3\ part two 
        \4\ and part four.\5\] 
---------------------------------------------------------------------------
    \3\ https://geneticliteracyproject.org/2019/08/06/viewpoint-
dissecting-the-fear-based-case-against-gene-edited-crops-in-organic-
farming/.
    \4\ https://geneticliteracyproject.org/2019/08/20/viewpoint-
organic-food-movement-shoots-itself-in-the-foot-by-rejecting-crispr-
gene-editing/.
    \5\ https://geneticliteracyproject.org/2019/10/22/viewpoint-
arriva%E2%80%A6anic-agriculture/.
     Editor's note: the hyperlink for part 4 of the series, as posted 
on the Genetic Literacy Project's website is incorrect. The correct 
hyperlink is https://geneticliteracyproject.org/2019/10/22/viewpoint-
arrival-of-gmo-gene-edited-biofortified-crops-weakens-case-for-organic-
agriculture/.

    Although synthetic pesticides are generally not allowed in organic 
farming, ``natural'' substances that control pests are not only 
permitted but required, because bugs will eat organic and conventional 
crops without hesitation. Cummins doesn't include that important 
clarification, though the problem with his argument isn't so much the 
sleight of hand but that it's at complete odds with reality.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As crop biotechnology continues to advance, conventional farmers 
are gaining access to new tools that drastically cut pesticide use. 
This downward trend in chemical dependency goes back to the 
introduction of genetically modified (GM) crops in the 1990s, and will 
only accelerate as more gene-edited crops and animals reach the market 
in the near future. The organic industry, meanwhile, continues to sit 
out this sustainability revolution for ideological and economic \6\ 
reasons, which ultimately encourages pesticide use.
---------------------------------------------------------------------------
    \6\ https://geneticliteracyproject.org/2019/08/20/viewpoint-
organic-food-movement-shoots-itself-in-the-foot-by-rejecting-crispr-
gene-editing/.
---------------------------------------------------------------------------
Mother Nature's toxic chemicals
    There is a common misconception that natural substances are 
inherently safer than the chemicals scientists synthesize in the lab, 
leading to the belief that synthetic pesticides used in conventional 
agriculture must pose an elevated threat to human health. The organic 
movement has found this misconception helpful in its crusade against 
modern farming techniques, even in the face of evidence that both 
synthetic and natural pesticides \7\ can be toxic. According to 
Charlotte Vallaeys, food and farm policy director at the Cornucopia 
Institute, a nonprofit organic activist group: \8\
---------------------------------------------------------------------------
    \7\ https://geneticliteracyproject.org/2019/07/08/twist-upon-twist-
in-glyphosate-battle-next-generation-safer-biopesticides-on-the-way-
thanks-in-part-to-anti-chemical-activists%E2%81%A0-who-may-yet-oppose-
them/.
    \8\ https://www.cornucopia.org/2012/09/stanfords-spin-on-organics-
allegedly-tainted-by-biotechnology-funding/.

          There was just no way that truly independent scientists . . . 
        would ignore the vast and growing body of scientific literature 
        pointing to serious health risks from eating foods produced 
---------------------------------------------------------------------------
        with synthetic chemicals.

    What the Cornucopia Institute seems less eager to discuss is the 
long list of USDA-approved substances \9\ that can be used in organic 
farming. Some of the products would surprise many organic food 
consumers, since these chemicals can be dangerous. Lime sulfur, for 
instance, is used to control fungi, bacteria and insects living in or 
dormant on the surface of bark of deciduous trees, which lose their 
leaves seasonally.
---------------------------------------------------------------------------
    \9\ https://www.ecfr.gov/cgi-bin/text-idx?c=ecfr&SID= 
9874504b6f1025eb0e6b67cadf9d3b40&rgn=div6&view=text&node= 
7:3.1.1.9.32.7&idno=7
---------------------------------------------------------------------------
    Lime sulfur solutions are highly alkaline and corrosive to living 
things; \10\ they can cause blindness through eye contact. Organic 
farmers growing apples and pears whose orchards are infected with fire 
blight can use peracetic acid to control infestation. Exposure to 
peracetic acid \11\ can cause irritation to the skin, eyes and 
respiratory system; high acute and long-term exposure can cause 
permanent lung damage. There have been cases of occupational asthma 
\12\ resulting from the use of peracetic acid. Boric acid powder can 
also be used in organic farming for pest control, as long as it does 
not come into direct contact with crops. It is poisonous if ingested 
and long-term exposure can cause kidney damage. \13\
---------------------------------------------------------------------------
    \10\ http://davismfg.com/resources/uploads/Lime Sulfur Dip.pdf.
    \11\ https://chemdaq.blogspot.com/2011/01/peracetic-acid-uses-
health-risks.html.
    \12\ https://academic.oup.com/occmed/article-abstract/69/4/294/
5420724?redirectedFrom=
fulltext.
    \13\ http://apjmt.mums.ac.ir/
article_2041_6e5584bf58f2150503d4311b09cabaf0.pdf.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Fungicide copper sulfate is popular with organic farmers.
          [https://www.shutterstock.com/image-photo/tomatoes-sprinkled-
        copper-sulphate-traditional-old-
        705380473?src=kzVhukZ_cwJ4hH0AMphyUg-1-6]

    Copper sulfate can also be used in organic farming as a fungicide, 
and is extensively utilized in grape orchards. According to the 
EPA,\14\ ``DANGER'' must appear on the labels of all copper sulfate 
products that contain 99% active ingredient in crystalline form. 
Cornell University's Toxicology Network summary of copper sulfate 
poisoning explains why that is: \15\
---------------------------------------------------------------------------
    \14\ http://pmep.cce.cornell.edu/profiles/extoxnet/carbaryl-
dicrotophos/copper-sulfate-ext.html
    \15\ http://pmep.cce.cornell.edu/profiles/extoxnet/carbaryl-
dicrotophos/copper-sulfate-ext.html.

          Some of the signs of poisoning, which occur after 1-12 grams 
        of copper sulfate are swallowed, include a metallic taste in 
        the mouth, burning pain in the chest and abdomen, intense 
        nausea, vomiting, diarrhea, headache, sweating and 
        shock . . . Injury to the brain, liver, kidneys and stomach and 
        intestinal linings may also occur in copper sulfate poisoning. 
        Copper sulfate can be corrosive to the skin and eyes . . . 
        Copper sulfate is very toxic to fish . . . Direct application 
        of copper sulfate to water may cause a significant decrease in 
---------------------------------------------------------------------------
        populations of aquatic invertebrates, plants and fish.

    The EU has deemed copper fungicides to be such a potential hazard 
to humans and the environment that it is phasing them out. In October 
2018, the European Food Safety Authority released fresh data that re-
affirmed \16\ the toxicity of copper compounds that are used in organic 
farming. In October 2018, the European Union (EU) noted:
---------------------------------------------------------------------------
    \16\ https://www.euractiv.com/section/agriculture-food/news/efsa-
re-confirms-toxicity-of-organic-pesticide-exposes-pest-committee-boss/.

          Copper compounds, including copper sulfate, are authorized in 
        the EU as bactericides and fungicides, even though it is a 
        substance of particular concern to public health or the 
        environment, according to the European Food Safety Authority 
        (EFSA). Copper compounds are candidates for substitution and 
        their use is being phased out and replaced.
Biotechnology exposes a bigger problem
    The organic food movement has a bigger problem than the obvious 
double standard it relies on to attack synthetic chemicals. 
Biotechnology has drastically cut pesticide use over the past 25 years. 
But since activists like OCA's Cummins also oppose crop biotech, they 
have twisted themselves in knots trying to justify two clearly 
contradictory positions.
    For example, one of the most common insecticides used in organic 
farming is Bacilllus thuringiensis (Bt), a natural bacterium found in 
the soil. Yet when Bt is spliced into a seed to create genetically 
modified corn, soybean, cotton and brinjal (a type of eggplant), the 
organic movement vehemently objects, claiming that these insect-
resistant crops are dangerous to human health and the environment. Both 
claims have been thoroughly debunked \17\ by years of research.
---------------------------------------------------------------------------
    \17\ https://gmo.geneticliteracyproject.org/FAQ/bt-insect-
resistant-crops-pose-threat-human-health-environment/.
---------------------------------------------------------------------------
    Instead of criticizing GM Bt crops, the organic movement should be 
applauding their cultivation, which has led to a substantial reduction 
in the use of pesticides. Farmers in India who grow Bt cotton, for 
example, have seen their use of pesticides decline by more than 60 
percent.\18\ A June 2019 study \19\ on the introduction of Bt brinjal 
in Bangladesh similarly noted the crop ``provides essentially complete 
control of the eggplant fruit and shoot borer, dramatically reduces 
insecticide sprays, provides a six-fold increase in grower profit, and 
does not affect non-target arthropod biodiversity.'' Overall, GM crops 
are responsible for a 37 percent decline \20\ in pesticide use 
worldwide, and the widespread adoption of Bt technology has been an 
enormous part of that development.
---------------------------------------------------------------------------
    \18\ https://modernag.org/innovation/bt-agricultures-rock-star/.
    \19\ https://cshperspectives.cshlp.org/content/early/2019/06/10/
cshperspect.a034678.abstract.
    \20\ https://www.ncbi.nlm.nih.gov/pmc/articles/PMC5790416/.
---------------------------------------------------------------------------
    Other biotech innovations are poised to cut agricultural pesticide 
use even more. New gene-editing technologies such as CRISPR may enable 
researchers to manipulate the genetics of insect populations to provide 
a chemical-free pest control method. University of California, San 
Diego researchers explored one possible approach in a January 2019 
study: \21\
---------------------------------------------------------------------------
    \21\ https://www.sciencedaily.com/releases/2019/01/
190108084430.htm.

          Using the CRISPR gene-editing tool, researchers have 
        developed a new way to control and suppress populations of 
        insects, potentially including those that ravage agricultural 
        crops and transmit deadly diseases. The precision-guided 
        sterile insect technique (PGSIT) alters key genes that control 
        insect sex determination and fertility. When PGSIT eggs are 
        introduced into targeted populations, only adult sterile males 
        emerge resulting in a novel, environmentally friendly and 
        relatively low-cost method of controlling pest populations in 
---------------------------------------------------------------------------
        the future.

    Editing the genome of insects that damage important crops and 
fortifying the natural defenses of plants could allow farmers to 
markedly reduce pesticide use. CRISPR-edited apples can be protected 
\22\ against fire blight disease, for instance, without the use of 
peracetic acid. The organic food movement should welcome such 
developments, but it continues to oppose them because of scientifically 
unwarranted concerns that crop biotechnology might be hazardous to 
human health and the environment.
---------------------------------------------------------------------------
    \22\ https://geneticliteracyproject.org/2019/09/11/crispr-gene-
editing-inoculates-apples-against-orchard-destroying-fire-blight-
disease/.
---------------------------------------------------------------------------
    Ideological considerations, like extreme distrust of 
corporations,\23\ partially explain why anti-GM activists continue to 
perpetuate unfounded fears of genetic modification and mislead the 
public about the use of pesticides in organic farming. But economics 
offers some insight as well, as the organic food movement needs to 
justify the high cost of organically grown food. It does so by 
disparaging conventionally grown and genetically engineered crops by 
raising non-existent health and environmental concerns.
---------------------------------------------------------------------------
    \23\ https://geneticliteracyproject.org/2019/07/08/twist-upon-
twist-in-glyphosate-battle-next-generation-safer-biopesticides-on-the-
way-thanks-in-part-to-anti-chemical-activists%E2%81%A0-who-may-yet-
oppose-them/.
---------------------------------------------------------------------------
    According to former Secretary of Agriculture Dan Glickman,\24\ 
``the organic label is a marketing tool. It is not a statement about 
food safety. Nor is organic a value judgment about nutrition or 
quality.'' Such a fact is clear to anyone who takes the time to look at 
the evidence. Molecular biologist Louis Hom offers an important 
explanation of why many in the organic movement are so reluctant to 
acknowledge the veracity of Glickman's uncontroversial statement: \25\
---------------------------------------------------------------------------
    \24\ https://geneticliteracyproject.org/2014/05/16/former-us-
secretary-of-agriculture-glickman-criticizes-organic-industry-for-
misleading-marketing/.
    \25\ https://www.ocf.berkeley.edu/lhom/organictext.html.

          For obvious reasons, organic farmers have done little, if 
        anything, to dispel the myth that organic = chemical/pesticide-
        free. They would only stand to lose business by making such a 
---------------------------------------------------------------------------
        disclosure.

          Steven E. Cerier is a freelance international economist and a 
        frequent contributor to the Genetic Literacy Project.
          The GLP featured this article to reflect the diversity of 
        news, opinion and analysis. The viewpoint is the author's own. 
        The GLP's goal is to stimulate constructive discourse on 
        challenging science issues.
                               article 4
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Genetic Literacy Project

https://geneticliteracyproject.org/2019/10/22/viewpoint-arrival-of-gmo-
gene-edited-biofortified-crops-weakens-case-for-organic-agriculture/
Viewpoint: How organic industry opposition to CRISPR gene editing 
        encourages pesticide use
Steven Cerier (https://geneticliteracyproject.org/writer/steven-cerier/
) D October 22, 2019

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Gene-edited soybeans are used to make healthier soybean oil.

    The organic food industry has grown rapidly in recent years. 
According to the Organic Trade Association, \1\ organic food sales 
rose by 125.1% between 2009 and 2018 to $47.862 billion and accounted 
for 5.9% of total food sales. One of the major reasons for this stellar 
expansion is the misconception, propagated by the industry itself, that 
organic foods are healthier and more nutritious than conventionally 
grown foods.
---------------------------------------------------------------------------
     Editor's note: due to the numerous instances of hyperlinked text 
in the following article the hyperlinks are reformatted, herein, as 
footnotes.
    \1\ https://www.foodbusinessnews.net/articles/13805-us-organic-
food-sales-near-48-billion.
---------------------------------------------------------------------------
    A 2018 Pew Survey, for example, noted: \2\
---------------------------------------------------------------------------
    \2\ https://www.pewresearch.org/fact-tank/2018/11/26/americans-are-
divided-over-whether-eating-organic-foods-makes-for-better-health/.

          [Y]ounger people remain more likely than their older 
        counterparts to say organics are healthier than conventionally 
        grown food. Some 54% of those ages 18 to 29 and 47% of those 
        ages 30 to 49 believe organic fruits and vegetables are 
        generally better for one's health, compared with 39% of those 
---------------------------------------------------------------------------
        65 and older who say the same.

    While anti-biotech activists cling to the myth that organic food is 
healthier and more nutritious than conventionally grown food, genetic 
engineering--fervently opposed by most organic advocates--is yielding a 
new lineup of GMO \3\ and gene-edited crops with nutrient content 
organic growers simply can't replicate. One such product has already 
hit the market and several others are expected to follow in the next 
few years. This development has exposed a nutrition gap between organic 
and genetically engineered crops and further weakened the case for 
organic farming.
---------------------------------------------------------------------------
    \3\ https://geneticliteracyproject.org/2018/12/07/viewpoint-
parents-anti-gmo-fervor-just-might-contribute-to-childrens-allergies/.

          [Editor's note: This article is part one of a four-part 
        series on the organic food industry's reaction to the 
        introduction of gene-edited crops. Read part one,\4\ part two 
        \5\ and part three.\6\]
---------------------------------------------------------------------------
    \4\ https://geneticliteracyproject.org/2019/08/06/viewpoint-
dissecting-the-fear-based-case-against-gene-edited-crops-in-organic-
farming/.
    \5\ https://geneticliteracyproject.org/2019/08/20/viewpoint-
organic-food-movement-shoots-itself-in-the-foot-by-rejecting-crispr-
gene-editing/.
    \6\ https://geneticliteracyproject.org/2019/09/24/viewpoint-how-
organic-industry-opposition-to-crispr-gene-editing-encourages-
pesticide-use/.
---------------------------------------------------------------------------
Organic food and nutrition: the evidence so far

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          [https://www.turfcaresupply.com/blog/2018/09/14/the-
        glyphosate-debate]

    Anti-biotech activists often base their claim that organic food is 
healthier on the prohibition of synthetic pesticide use in organic 
farming. Ronnie Cummins, director of the Organic Consumers Association, 
has asserted that conventional farming \7\ ``means chemical, 
conventional means toxic and that this whole myth of using genetic 
engineering in agriculture is actually dangerous to our health . . . 
.'' The Rodale Institute, the self-described ``birthplace'' of organic 
agriculture, shares Cummins view, but is more forthcoming about the 
state of the science, noting in 2012: \8\
---------------------------------------------------------------------------
    \7\ https://responsibleeatingandliving.com/favorites/ronnie-
cummins-interview/.
    \8\ https://rodaleinstitute.org/blog/is-organic-worth-the-media-
buzz/.

          We have little long-term research on the health impacts of 
        chronic, low-level pesticide exposures. And the research that 
        is out there is troubling. Exposure to these toxins has been 
        linked to brain and central nervous system disruption, 
        infertility, cancer, and even changes to our DNA . . .
          The fact is, nutrition research on organic foods is very much 
        in its infancy. The ``literature lacks strong evidence that 
        organic foods are significantly more nutritious than 
        conventional food,'' as [the authors of a 2012 study] 
        concluded, partly because there is very little research to 
        speak of . . .

    The claim that pesticide residues on conventional crops pose a 
health risk is not well supported by the evidence, which is quite 
extensive.\9\ And while there have been some studies that suggest 
organic foods may have higher levels of antioxidants,\10\ the vast bulk 
of the studies \11\ comparing organic \12\ and conventionally produced 
foods have concluded that there are no significant nutritional 
differences between the production methods. One of the most extensive 
studies comparing the nutritional content of organic and conventionally 
grown foods was conducted by Stanford University in 2012.\13\ The 
university explained following the study's publication:
---------------------------------------------------------------------------
    \9\ https://geneticliteracyproject.org/2019/09/18/pesticide-
residues-on-vast-majority-of-foods-well-below-legal-limits-new-fda-
data-show/.
    \10\ https://www.npr.org/sections/thesalt/2016/02/18/467136329/is-
organic-more-nutritious-new-study-adds-to-the-evidence.
    \11\ https://www.health.harvard.edu/staying-healthy/should-you-go-
organic.
    \12\ https://geneticliteracyproject.org/2017/05/25/5-reasons-hard-
know-whether-organic-food-really-organic/.
    \13\ https://med.stanford.edu/news/all-news/2012/09/little-
evidence-of-health-benefits-from-organic-foods-study-finds.html.

          Analyzing the data, the researchers found little significant 
        difference in health benefits between organic and conventional 
        foods. No consistent differences were seen in the vitamin 
        content of organic products, and only one nutrient--
        phosphorus--was significantly higher in organic versus 
        conventionally grown produce (and the researchers note that 
        because few people have phosphorous deficiency, this has little 
        clinical significance). There was no difference in protein or 
        fat content between organic and conventional milk, though 
        evidence from a limited number of studies suggested that 
        organic milk may contain significantly higher levels of omega-3 
---------------------------------------------------------------------------
        fatty acids.

    Harvard Medical School likewise noted in 2015: \14\
---------------------------------------------------------------------------
    \14\ https://www.health.harvard.edu/staying-healthy/should-you-go-
organic.

          While organic foods have fewer synthetic pesticides and 
        fertilizers and are free of hormones and antibiotics, they 
        don't appear to have a nutritional advantage over their 
---------------------------------------------------------------------------
        conventional counterparts.

    Kathy McManus, director of the Department of Nutrition at Brigham 
and Women's Hospital, told Harvard that ``there've been a number of 
studies examining the macro and micronutrient content, but whether 
organically or conventionally grown, the foods are really similar in 
vitamins, minerals and carbohydrates.''
Genetic engineering produces more nutritious food

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          A regular banana (right) compared to a golden banana (left). 
        Thanks to the increased level of beta-carotene, the banana has 
        a golden cream color.

    A wide variety of crops, including genetically modified 
bananas,\15\ sorghum,\16\ cassava \17\ and potatoes,\18\ have been 
created to address vitamin A deficiency, which according to the World 
Health Organization \19\ (WHO) effects an estimated 250 million 
preschool children--between 250,000 and 500,000 of whom become blind 
every year. Half of them die within twelve months of losing their 
sight. Genetic engineering can significantly dent those numbers by 
producing crops high in beta carotene, which is converted into Vitamin 
A once consumed.
---------------------------------------------------------------------------
    \15\ https://www.newsweek.com/scientists-orange-bananas-vitamin-
uganda-633136.
    \16\ https://geneticliteracyproject.org/2017/03/02/african-
scientists-developing-gmo-sorghum-higher-levels-vitamin-tackle-
childhood-blindness/.
    \17\ https://journals.plos.org/plosone/article?id=10.1371/
journal.pone.0179427.
    \18\ https://www.genengnews.com/topics/translational-medicine/gmo-
potatoes-provide-improved-vitamin-a-and-e-profiles/.
    \19\ https://www.who.int/nutrition/topics/vad/en/.
---------------------------------------------------------------------------
    Golden rice \20\ is the best-known example of a Vitamin A-enriched 
crop. It has been in development for over 2 decades and is finally 
approaching commercialization in parts of the world where it can make 
the biggest impact. Hopefully sometime this year, Bangladesh \21\ will 
be the first country to cultivate the crop. The Philippines \22\ is 
expected to follow shortly thereafter.
---------------------------------------------------------------------------
    \20\ http://www.goldenrice.org/.
    \21\ https://geneticliteracyproject.org/2019/03/05/golden-rice-is-
coming-finally-will-it-be-the-game-changer-hinted-at-for-almost-20-
years/.
    \22\ https://www.manilatimes.net/gmo-crops-gaining-ground/558432/.
---------------------------------------------------------------------------
    Nuseed,\23\ a subsidiary of Nufarm, Ltd. of Australia, received 
approval in August 2018 from the USDA to begin planting its GMO omega-3 
canola. The crop is produced by taking genes from microalgae and 
inserting them into canola seeds, thereby enabling the plant to produce 
Docosahexaenoic acid (DHA), which supports eye health, brain function 
and may prevent a variety of diseases, including heart disease. This 
fatty acid is found in the meat of cold-water fish, and Nuseed 
estimates that 1 hectare of its canola could provide the omega-3 
equivalent of 10,000 kg of wild caught \24\ fish.
---------------------------------------------------------------------------
    \23\ https://www.fooddive.com/news/usda-approves-gm-omega-3-canola-
for-us-cultivation/531248/.
    \24\ https://www.foodnavigator-usa.com/Article/2018/05/24/Omega-3s-
from-plants-This-technology-is-going-to-have-a-massive-impact-on-the-
industry.
---------------------------------------------------------------------------
    The oil from these genetically modified plants can be used for food 
and animal feed once the FDA grants regulatory approval, which Nuseed 
expects to receive sometime in 2019. Food giant Cargil[l] in 
genconjunction with BASF is also working on an omega-3 canola \25\ 
which it hopes to bring to the market in 2020.
---------------------------------------------------------------------------
    \25\ https://www.feednavigator.com/Article/2019/08/09/Cargill-gets-
green-light-for-omega-3-producing-canola.
---------------------------------------------------------------------------
CRISPR widens the gap

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          [http://www.neolifeclinic.com/blog/gluten-is-not-the-only-
        culprit-other-wheat-proteins-are-also-to-blame/?lang=en]

    New breeding techniques, including CRISPR,\26\ are beginning to 
yield a wide variety of more nutritious foods as well. Among the 
companies at the forefront of the crop gene-editing revolution is 
Minneapolis-based Calyxt. In April, the biotech firm announced its 
first sale of gene-edited soybean oil \27\ for commercial use to a 
Midwestern restaurant chain. The oil is used for frying, in salad 
dressing and sauces and is made from soybeans that have been edited to 
produce high-oleic oil with no trans-fat and less saturated fat. These 
nutritional traits, the company notes, prolong the oil's shelf life and 
make it a competitor to healthy oils from olive, sunflower and 
safflower. Calyxt has also developed a gene-edited, high-fiber wheat, 
which may be on the market in 2020. According to Jim Blome, CEO of 
Calyxt: \28\
---------------------------------------------------------------------------
    \26\ https://geneticliteracyproject.org/2019/10/18/genetic-
engineering-crispr-food-revolution-will-bring-near-future/.
    \27\ https://www.the-scientist.com/news-opinion/gene-edited-
soybean-oil-makes-restaurant-debut-65590.
    \28\ http://www.calyxt.com/calyxt-harvests-high-fiber-wheat-field-
trials/.

          Consumer demand for high-fiber products has never been 
        higher, as fiber is essential for healthy digestion, with the 
        potential to decrease the risk of food-related diseases like 
        coronary heart disease and diabetes. Most adults only consume 
        about half of the recommended amount of fiber in their diet, 
        but with the latest advancement, we're one step closer to 
        developing a product with up three times more dietary fiber 
---------------------------------------------------------------------------
        than standard wheat flour.

    Given wheat's status as a staple crop globally, a number of other 
research projects are underway to improve its nutritional qualities. 
Scientists at the John Innes Centre in the UK have developed a wheat 
variety that produces white flour with more than double \29\ the crop's 
typical iron content, thus greatly benefiting people with anemia, a 
medical conditions with serious complications \30\ in extreme cases. 
Field trials of the wheat are being conducted between 2019 and 2022. 
Researchers in Spain \31\ and the Netherlands \32\ are also developing 
gluten-free wheat that, if commercialized, will enable people with 
celiac disease to safely consume the grain.
---------------------------------------------------------------------------
    \29\ https://geneticliteracyproject.org/2019/05/06/video-john-
innes-centre-battles-nutrient-deficiency-with-iron-fortified-biotech-
wheat/.
    \30\ https://www.mayoclinic.org/diseases-conditions/iron-
deficiency-anemia/symptoms-causes/syc-20355034.
    \31\ https://www.scientificamerican.com/article/scientists-
genetically-engineer-a-form-of-gluten-free-wheat/.
    \32\ https://geneticliteracyproject.org/2019/02/11/rebellion-
against-europes-innovation-killing-crop-gene-editing-regulations-grows-
among-scientists-frustrated-member-states/.
---------------------------------------------------------------------------
    Amfora,\33\ a San Francisco-based biotechnology firm, is developing 
rice, wheat, legumes and several vegetables that have up to 60% more 
protein than existing varieties. Significantly, the amount of protein 
is increased at the expense of starch and other carbohydrates, thus 
increasing the nutritional density of foods made from these crops.
---------------------------------------------------------------------------
    \33\ https://www.globenewswire.com/news-release/2018/06/28/1530955/
0/en/Amfora-Unveils-Broad-Initiative-to-Develop-Crops-with-Enhanced-
Protein-Content-for-Food-and-Feed.html.
---------------------------------------------------------------------------
    The examples go on and on: low-saturated fat canola oil,\34\ 
tomatoes \35\ with the nutritional benefits of chili peppers, allergen-
free peanuts \36\ and many more enhanced crops are being developed, but 
the takeaway is clear. While the organic food industry and its activist 
allies promote their products as healthier alternatives to 
conventionally grown food, it is genetic engineering that actually 
produces healthier and more nutritious products.
---------------------------------------------------------------------------
    \34\ https://www.prnewswire.com/news-releases/cibus-licenses-ultra-
high-oleic-canola-oil-trait-to-valley-oils-partners-300821616.html.
    \35\ https://qz.com/1518570/scientists-are-creating-super-healthy-
gene-edited-spicy-tomatoes/.
    \36\ https://theness.com/neurologicablog/index.php/crispr-and-a-
hypoallergenic-peanut/.
---------------------------------------------------------------------------
    Calyxt's heart-healthy soybean oil is just the first of what is 
likely to be many foods developed with genetic engineering that will 
attract the interest of consumers. With more of these nutritionally 
enhanced, consumer-focused products headed to market in the coming 
years, the organic industry will find it increasingly difficult to deny 
the benefits of biotechnology and justify the inflated prices of its 
products.

          Steven E. Cerier is a freelance international economist and a 
        frequent contributor to the Genetic Literacy Project.
          The GLP featured this article to reflect the diversity of 
        news, opinion and analysis. The viewpoint is the author's own. 
        The GLP's goal is to stimulate constructive discourse on 
        challenging science issues.
                               article 5
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

https://www.findfarmcredit.com/landscapes-articles/beyond-his-fences/
Landscapes, Winter 2017
Beyond His Fences
          As one of the 2017 Faces of Farming and Ranching, West Texas 
        farmer Jeremy Brown travels the country telling agriculture's 
        story.

Katrina Huffstutler
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo courtesy of U.S. Farmers & Ranchers Alliance.
          Jeremy Brown thinks about the big picture when it comes to 
        farming--one reason he named his South Plains farming operation 
        Broadview Agriculture.

    When Nordstrom, the high-end retailer, was in the news last spring 
for selling $425-per-pair ``heavily distressed'' jeans designed to look 
like they had mud caked on them, many in America laughed.
    But cotton farmer and AgTexas Farm Credit (https://www.agtexas.com/
) customer Jeremy Brown saw an opportunity to educate consumers: He 
took to Facebook, posting a photo of his own worn-out jeans, distressed 
from hard work growing the crop that jeans are made from.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo by Christine Forrest.
          Brown, left, greets U.S. Rep. Mike Conaway, Chairman of the 
        House Agriculture Committee, during the 2017 Farm Credit Young 
        Leaders Program in Washington, D.C.

    ``Hey Nordstrom!'' his post read. ``I would be glad to sell you 
these jeans for $450. These jeans are actually worn by a real American 
cotton grower that you pay maybe $0.65 a pound for the lint. If you 
don't know, an average bale of cotton weighs 500 pounds. You can make 
215 jeans out of one bale of cotton. Doesn't take a mathematician to 
see who is not getting a good deal. Support the American Farmer and buy 
more cotton!''
    But that's just one example of this passionate grower's 
agricultural advocacy efforts.
Taking a Broad View
    After earning a bachelor's degree in agricultural communications 
from Texas Tech University, Brown went to work for U.S. Congressman 
Randy Neugebauer. He enjoyed the work, but the farm was calling him 
back. He answered the call in 2009, and has been growing cotton--both 
traditional and organic--peanuts, grain sorghum, corn and wheat ever 
since.
    ``I tried to do different things, but I realized I didn't want to 
do anything else but farm,'' Brown says.
    His farm operates under the name Broadview Agriculture, which has a 
double meaning for Brown.
    ``Where we farm out here on the South Plains is pretty broad,'' he 
explains, referring to his flat, wide-open land between Lamesa and 
Brownfield. ``Plus, we really try to take a broad view in the way we 
farm. From diversifying crop rotation to focusing on soil health, we 
just try to have a bigger view and a more long-term view.''
    Brown says that his family is always assessing new techniques and 
new technologies to make sure the farm is sustainable now and into the 
future.
Telling His Story
    Part of that sustainability puzzle lies in consumer confidence. 
That's why he is dedicated to telling his story and the stories of 
other farmers as often as possible.
    ``There are a lot of theories out there about what farmers need to 
be doing and how they need to farm,'' Brown says. ``But when it comes 
down to the practicality of it, those ideas don't always work. They 
might in a perfect world, where we didn't have to deal with weeds or 
pests or drought. But not in the real world.''
    Brown says he frequently is questioned about what he does on the 
farm--how he uses pesticides, for example--and he's always happy to 
respond.
    ``I think there's this idea that we're just spraying chemicals all 
the time. I try to explain we don't want to use those unless it's a 
need-basis situation,'' he says.
    Facebook is his outlet of choice for consumer education, but he 
also has created YouTube videos showing how he promotes soil health.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

          Photo courtesy of U.S. Farmers & Ranchers Alliance.
          Sarah and Jeremy Brown with children (top to bottom) Olivia, 
        Isla Isabelle and Jude.
Faces of Farming and Ranching
    Brown's ``agvocacy'' efforts haven't gone unnoticed. Last year, the 
Texas Farm Bureau asked if he would consider entering the Faces of 
Farming and Ranching competition, a program of the U.S. Farmers & 
Ranchers Alliance (USFRA). If he was interested, the Farm Bureau would 
provide him with the tools to help him be selected. He was, and they 
did. Brown says Farm Credit Bank of Texas (https://
www.farmcreditbank.com/) and Plains Cotton Growers also offered 
invaluable help as he competed against other farmers and ranchers for 
the chance to be an agriculture spokesman across the country.
    In November 2016, he won a spot on the five-farmer panel, and since 
January, he's traveled the nation, sharing his story with consumers in 
places he would have never expected.
    ``Probably the weirdest experience was being part of the Food and 
Wine Festival on South Beach, Miami, Fla.,'' Brown says. ``We were out 
there, in a totally different element, interacting with consumers and 
talking to them about where their food and fiber comes from.''
    A few weeks later, he was headed to Nebraska to participate in a 
panel discussion on GMOs--a topic on which he offers an interesting 
perspective, as a grower of both GMO and non-GMO crops.
    ``I'm not one to say everything needs to be organic or non-GMO,'' 
he says. ``That's a niche market, and there's a group of consumers who 
want that. I don't think GMOs are evil. I'm looking forward to talking 
about pros and cons and how real farmers really use different 
practices.''
    While Brown's official term with the USFRA program will conclude at 
the end of 2017, he says he will always be available to the 
organization when he's needed.
    ``The Faces of Farming and Ranching program is a great resource for 
people to get fact-based information about agriculture,'' he says. 
``It's nonpolitical. It's just the facts. I've really enjoyed the 
opportunity to be a part of it.''

          ``Sometimes as farmers we just go to the gin or the local 
        place and talk shop. But we need to get out there and advocate 
        for what we're doing as farmers. There are groups out there who 
        are totally against us, and they're loud.''
                                                          Jeremy Brown.
Calming Consumers' Fears
    His No. 1 takeaway from serving in this role is that consumers are 
scared.
    ``There's a fear that American farmers are doing everything they 
can to harm consumers, from planting GMOs to not caring for the land,'' 
Brown says. ``It's the furthest from the truth. We're feeding and 
clothing our own families, too, and this is something we take a lot of 
pride in.''
    He says the importance of agvocacy is growing rapidly, and it's 
something all farmers should take part in.
    ``We have to go beyond our fences,'' Brown says. ``Sometimes as 
farmers we just go to the gin or the local place and talk shop. But we 
need to get out there and advocate for what we're doing as farmers.
    ``There are groups out there who are totally against us, and 
they're loud. If we don't get out there with a unified voice and combat 
that, then we're really doing a harm to the industry,'' he warns.
                                 ______
                                 
 Supplementary Material Submitted by Jeff Huckaby, President, Grimmway 
                  Enterprises, Inc./Cal-Organic Farms
Importance of the 3 year transition period
    The organic law requires a 3 year transition period when converting 
land that has been treated with substances prohibited in organic 
production. The land must be free of prohibited substances for the 3 
years and farmed using organic practices before you can obtain your 
organic certification in the third year of production.
    The transition period can be financially challenging for many 
farmers and can also create a great deal of risk for growers. In 
addition to learning new farming practices, it takes time for the soil 
and land to become productive enough to achieve the same yields 
experienced in conventional farming. The harsh reality we learned at 
Grimmway/Cal-Organic is that an effective transition only takes place 
when nothing but cover crops are grown on that ground during that time. 
Therefore, the increased costs and labor associated with organic 
farming during the transition period occur at the same time that 
farmers are unable to grow the product necessary to receive organic 
market premium price.
    We are very fortunate at Grimmway/Cal-Organic to have the 
financial, human and technical resources to invest and transition land 
to organic production, however most farmers do not have access to the 
resources that a company such as ours may have. Congress could invest 
in more technical assistance for farmers seeking to transition to 
organic, as well as consider programs to help offset the financial cost 
during the transition process.
    Clarification and expansion on the following question from 
Congressman Carbajal: Mr. Huckaby you mentioned a very important point 
in your testimony, that the future of organics will depend on the 
Federal Government keeping pace with the marketplace. Can you elaborate 
on that? What--what do you mean by that and share with us some examples 
that perhaps go to the heart of that issue?
Importance of Strong Regulatory Standards for Organic
    Yes, as I stated in my written testimony, organic is a voluntary 
regulatory program. The USDA Organic Program provides clear and strict 
regulations and standards. Farmers opt-in to abide by these standards 
and, in turn, are rewarded with increased price premiums when they 
market their products under the USDA Organic Seal. It is critical that 
organic farmers are all playing by the same strong rules, as this is at 
the heart of why consumers trust the label.
    The organic industry has seen massive growth since USDA put the 
original regulations into place in 2002. The growth in the industry has 
been positive for consumers and businesses alike, but with that growth 
comes the responsibility of USDA to ensure there are clear standards 
for certification of products that carry the organic seal.
    When there are questions or clarifications needed to the organic 
standards, it may require government rulemaking or formal action by 
USDA. As you know, sometimes the Federal Government does not always 
move in a timely manner when issuing regulations. For a voluntary 
program like Organic, there has to be quick action on behalf of USDA to 
clarify or improve the standards, otherwise the marketplace becomes 
disrupted.
    Mr. Pierson provided a great example of this during his testimony, 
as it related to the origin of livestock rules for transitioning dairy 
animals to organic. If there are loopholes or lack of clarity in the 
organic regulations, there will be a handful of actors looking to take 
advantage or cut corners. This not only hurts organic dairy farmers, 
but hurts the entire industry and companies like mine. Consumers need 
to be able to trust that everyone is complying with the same high 
standards.
    As it relates to USDA keeping place with the marketplace, there 
groundbreaking innovation taking place in agriculture today with more 
and more farmers looking to be players in that market. However, if 
these innovating systems of production want to carry the organic label, 
there needs to be clear rules and regulations in place. USDA must be 
responsive when organic stakeholders request clarity and consistent 
application of the standards for all types of production systems.
    Last, as the organic market grows so must the tools for organic 
farmers. Businesses exist that want to help meet the needs of organic 
farmers and processors, giving them alternatives where there previously 
weren't any available. We are seeing tremendous innovation in this 
area. Whether it is increased availability of organic seed or organic 
alternatives to substances, the USDA should support this continuous 
improvement in the organic industry by ensuring viable alternatives 
have a market in organic and strengthening the rules when the 
opportunity arises.
The Soil Health Benefits of Organic Systems
    At Grimmway/Cal-Organic, we do business in both conventional and 
organic production and there are pros and cons in both. In organic 
systems, you must use preventative practices to control weeds such as 
conservation tillage, crop rotations to manage crop nutrients, and 
other mechanical methods such as mulch, hand-weeding, or mechanical 
cultivation. However, conservation tillage, when utilized thoughtfully 
and minimally, can be an effective weed control measure without 
sacrificing soil health.
    In conventional no-till systems, weeds are oftentimes controlled by 
chemical herbicides aimed at increasing soil health. Benefits of no-
till systems are reduced when taking into account the overall impact to 
soil health from herbicide treatment. Our experience at Grimmway/Cal-
Organic is that the soils under our organic production are healthier 
and more productive overall than our soils under conventional 
production. When discussing the various practices used in agriculture 
to improve soil health, you must also focus on which practices are 
yielding the best outcomes.

                                  <all>
</pre></body></html>
